SIGAR                                                   Special Inspector General for
                                                         Afghanistan Reconstruction




                                                                  SIGAR 14-32 Audit Report




      Direct Assistance: USAID Has Taken Positive Action to
      Assess Afghan Ministries’ Ability to Manage Donor Funds,
      but Concerns Remain
       




                                                                            JANUARY
                                                                           2014
SIGAR 14-32-AR/USAID Assessments of Afghan Ministries
SIGAR
                                                 JANUARY 2014
                                                 Direct Assistance: USAID Has Taken Positive Action to Assess
                                                 Afghan Ministries’ Ability to Manage Donor Funds, but
                                                 Concerns Remain

Special Inspector General for
                                                 SIGAR 14-32 AUDIT REPORT
Afghanistan Reconstruction
                                                 WHAT SIGAR FOUND
                                                 From January 2011 to August 2013, Ernst & Young and KPMG
WHAT SIGAR REVIEWED                              completed public financial management assessments of 16 Afghan
The U.S. government has committed to             ministries. Both contractors, who met almost all contract
providing at least 50 percent of its             requirements, concluded that all of the 16 ministries assessed
development aid to Afghanistan                   were unable to manage and account for funds unless they
through on-budget assistance to the              implemented recommendations included in the public financial
Afghan government. On-budget                     management assessment reports. In the 16 public financial
assistance includes (1) direct                   management assessments, Ernst & Young and KPMG identified
assistance, which is comprised of host           696 total recommendations for corrective action, ranging from 24
country contracts and government-to-             for Da Afghanistan Breshna Sherkat (Afghanistan’s national power
government awards and is the focus of            utility) to 63 for the Ministry of Public Health. Of these, the
this audit; (2) contributions to multi-          contractors rated 41 percent of the recommendations as “critical”
donor trust funds; and (3) direct                or “high risk.”
budget support. As of August 2013,               Following the completion of these assessment reports,
the U.S. Agency for International                USAID/Afghanistan completed internal risk reviews of 7 of the 16
Development (USAID) had                          Afghan ministries—the Ministry of Public Health; the Ministry of
commitments of $1.6 billion in direct            Mines and Petroleum; the Ministry of Agriculture, Irrigation, and
assistance to 18 programs across 10              Livestock; the Ministry of Communication and Information
Afghan ministries and other                      Technology; the Ministry of Education; the Ministry of Finance; and
government entities. Since 2010, both            Da Afghanistan Breshna Sherkat. These 7 ministries all have
Congress and USAID have                          planned or active direct assistance programs. The risk reviews
strengthened policies to regulate                found 104 major risks—such as “concealing vital monitoring and
direct assistance.                               evaluation information” and “misappropriation of cash arising from
In an effort to improve accountability           payment of salaries in cash”—with 99 of the risks rated either
and meet congressional requirements,             critical or high. USAID/Afghanistan prescribed 333 total mitigating
USAID contracted with Ernst & Young              measures to address the identified risks. Although
and KPMG in late 2010 and early                  USAID/Afghanistan concluded in each of the seven risk reviews
2011 to assess 16 Afghan ministries’             that the ministry was unable to manage direct assistance funds
abilities to manage U.S. funds. In               without a risk mitigation strategy in place and that the mission
addition, to help ensure the proper              would not award direct assistance to the ministry “under normal
management and implementation of                 circumstances,” USAID/Afghanistan signed agreements with each
direct assistance worldwide, USAID               of the reviewed ministries to approve direct assistance programs.
developed Automated Directives                   In addition, in 2012, USAID waived Automated Directives System
System 220: Use of Reliable Partner              (ADS) 220 requirements in Afghanistan for all direct assistance
Country Systems for Direct                       funds through fiscal year 2013. ADS 220 established the Public
Management and Implementation of                 Financial Management Risk Assessment Framework—a multi-stage,
Assistance in August 2011.                       risk-based methodology that USAID uses to assess partner country
                                                 systems’ suitability for receiving direct assistance. The agency
                                                 justified the waiver by stating the U.S. foreign policy objectives were
                                                 to provide direct assistance to Afghanistan, thus rendering the
                                                 initial macro-level review of Afghanistan’s risk environment



  For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
                                                       unnecessary. Despite the waiver, agency officials stated
  The objectives of this audit were to (1)             they still complied with the spirit of the remaining ADS
  assess the extent to which Ernst & Young             220 requirements. However, USAID did not conduct
  and KPMG adhered to USAID contract                   quality control reviews of the public financial
  requirements when conducting the ministry            management assessments, USAID/Afghanistan’s risk
  assessments, (2) describe assessment                 reviews, or any risk mitigation strategies, as required
  findings and conclusions about the ability           under ADS 220.
  of the Afghan ministries to manage U.S.           Although all Afghan ministries receiving direct assistance
  funds and analyze how USAID has used, or          met conditions precedent---actions USAID requires
  plans to use, the assessments to inform its       ministries to take prior to the initial disbursement of
  direct assistance to the Afghan                   funds---before USAID disbursed money to them, SIGAR
  government, and (3) examine the U.S.              found that USAID/Afghanistan has only required the
  Department of State’s certification and           ministries to implement 24 of the 333 recommended
  USAID’s notification provided to Congress,        risk mitigation measures prior to receiving funds. USAID
  pursuant to congressional requirements for        takes additional external measures intended to mitigate
  providing direct assistance to the Afghan         risks associated with providing direct assistance to the
  government.                                       ministries, such as establishing separate bank accounts
                                                    and providing funds on a reimbursement basis. However,
these measures do not address the underlying problems within the ministries and, as such do little to build
ministries’ organic capabilities to manage donor funds—one of the primary purposes of providing on-budget
assistance to the Afghan government. Moreover, the effectiveness of USAID’s external risk mitigation
measures may be limited by ongoing problems within the ministries. For example, one of USAID’s additional
risk mitigation measures is developing a written monitoring and evaluation plan for each of its direct
assistance programs with the ministries. However, if, as was found in the Ministry of Public Health, there is a
risk of the ministry “concealing vital monitoring and evaluation information,” this external measure will be
ineffective in safeguarding funds.
After a preliminary briefing on SIGAR’s findings, USAID/Afghanistan provided documentation delineating how
it has or will mitigate each of the risks identified in its review of Da Afghanistan Breshna Sherkat. This is a
positive development, but USAID/Afghanistan has not developed similar mitigation plans that identify how it
will address the remaining risks for the other ministries it reviewed.
The State Department and USAID complied with the statutory requirements for fiscal years 2011 and 2012
to inform Congress that they (1) have assessed Afghan ministries designated to receive direct assistance
and (2) consider the ministries qualified to manage the assistance prior to disbursing any fiscal year 2011 or
fiscal year 2012 funds. However, some of the information in the fiscal year 2011 certification by the
Secretary of State and USAID’s fiscal year 2012 notification was inaccurate or, at least, incomplete.
Specifically, the fiscal year 2011 certification and fiscal year 2012 notification stated that the Ministries of
Finance and Higher Education had been assessed, even though USAID was still reviewing the assessment
reports and Ernst & Young had not yet finalized them. Further, USAID notified Congress in November 2012
that, with the “successful implementation” of risk mitigation strategies, the Afghan ministries were qualified
to manage direct assistance funds. However, neither the 2011 certification nor the 2012 notification to
Congress disclosed the full extent of the risks identified at each of the ministries or that over 90 percent of
the mitigating measures identified in the risk reviews had not been implemented. For example, USAID’s
notification did not disclose that the majority of measures intended to mitigate the identified risks had not
been implemented at the time of the notification, even though the 2012 limitation on direct assistance
states that funds may be made available for direct assistance to an Afghan government ministry only if “any
identified vulnerabilities or weaknesses of such agency or ministry have been addressed.” The decision to
continue with direct assistance seemingly conflicts with the 2012 congressional requirement, which
mandates that funds be made available “only if...no level of acceptable fraud is assumed.” Without full
information on the ministries’ capabilities and the risks associated with providing direct assistance to these
ministries, Congress’s oversight of the over $600 million in U.S. funds that USAID has obligated to date is
compromised.

For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
    WHAT SIGAR RECOMMENDS                                     Timeline of Ministry Assessments and USAID
                                                              Stage 2 Risk Reviews
    SIGAR recommends that the USAID
    Administrator (1) require compliance with all
    parts of ADS 220—except for the Stage 1 macro-
    level review—for the use of all direct assistance
    funds for fiscal year 2014 and beyond. SIGAR
    also recommends that USAID/Afghanistan (2)
    fully inform Congress of the status of ministry
    assessments USAID or its contractors have
    completed, the mitigating measures Afghan
    ministries have implemented, and the level of
    risk to U.S. funds; and (3) develop a risk
    mitigation plan, similar to the one created for Da
    Afghanistan Breshna Shekat, for each Afghan
    ministry that has a completed USAID risk review
    that defines how each of the risks identified are
    being or will be mitigated, and suspend direct
    assistance disbursements to these ministries
    until these plans are completed.

    USAID agreed with all three recommendations,
    but also indicated that it has already complied
    with each. SIGAR disagrees with USAID’s
    assertion. For example, while USAID states that
    it has complied with all parts of ADS 220—
    except for the Stage 1 macro-level review—
    SIGAR found that USAID headquarters staff did
    not conduct quality control reviews of the public
    financial management assessments, risk
    reviews, or any risk mitigation strategies, as
    called for under ADS 220. SIGAR will continue to
    monitor USAID’s efforts to determine whether
    the agency has fully implemented the
    recommendations.

    USAID commented that it has designated the
    ministry assessments and the internal risk
    reviews as “Sensitive But Unclassified” (SBU),
    and requested SIGAR to withhold this
    information and the related portions of this
    audit report from public release because
    “release of these materials will likely result in
    reduced cooperation from the Afghan
    Government.” However, the State Department’s
    Foreign Affairs Manual provides that if public
    release of this information would harm foreign
    relations, then it must be classified to be
    exempt from disclosure and “[t]he SBU label
    cannot be used instead of classification to
    protect such information.” Therefore, since
    USAID has specifically designated this
    information as “unclassified,” SIGAR will not
    withhold it from public release.

For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
January 30, 2014


The Honorable John Kerry
Secretary of State

The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan

Dr. Rajiv Shah
Administrator, U.S. Agency for International Development

Mr. William Hammink
USAID Mission Director for Afghanistan




This report discusses the results of SIGAR’s audit of the U.S. Agency for International
Development’s (USAID) process for conducting and using ministerial assessments when
awarding U.S. direct assistance to the Afghan government.
The U.S. government has committed to providing at least 50 percent of development aid to
Afghanistan through on-budget assistance—funding that is channeled through the Afghan
government’s core budget and that is designed to allow the Afghans more freedom to manage
their own budget and to build their capacity for doing so. The cornerstone of this effort is
USAID’s direct government-to-government assistance program. Congress has taken a strong
interest in this program and, in the interest of protecting the taxpayer’s money, has stated very
clearly that funds may be made available for direct assistance “only if . . . each implementing
agency or ministry to receive assistance has been assessed and is considered to have the
systems required to manage such assistance and any identified vulnerabilities or weaknesses
of such agency or ministry have been addressed.”
We found in this audit that, although USAID has taken positive steps to assess Afghan
ministries’ capabilities to manage donor funds, it has not required the ministries to fix most of
the risks identified through these assessments. Specifically, USAID determined it could not rely
on the ministries it assessed to manage donor funds without a host of mitigation measures in
place and that, under normal circumstances, the results of the assessments would lead USAID
not to engage in direct assistance with the ministries. However, USAID proceeded to sign direct
assistance agreements with seven ministries, only requiring them to implement less than eight
percent of identified risk mitigation measures prior to receiving funds. While we are aware that
USAID has additional external measures intended to mitigate the risks associated with
providing direct assistance funds to these ministries, these measures do not directly address
all of the very serious problems within the ministries and could well be exploited or
circumvented, given the high risk of corruption revealed through USAID’s assessments.
In an effort to strengthen USAID’s direct assistance program, we are making three
recommendations in this report. Specifically, SIGAR recommends that the USAID Administrator
require compliance with all parts of ADS 220—except for the Stage 1 macro-level review—for
the use of all direct assistance funds for fiscal year 2014 and beyond. SIGAR also
recommends that the Mission Director for USAID/Afghanistan fully inform Congress of the
status of ministry assessments USAID or its contractors have completed, the mitigating
measures Afghan ministries have implemented, and the level of risk to U.S. funds. SIGAR
further recommends that the Mission Director develop a risk mitigation plan, similar to the one
created for Da Afghanistan Breshna Shekat, for each Afghan ministry that has a completed
USAID risk review that defines how each of the risks identified is or will be mitigated, and
suspend direct assistance disbursements to these ministries until these plans are completed.
We appreciate USAID’s written comments on a draft of this report, as well as the close
cooperation that we received throughout the course of this audit. From the very beginning of
this audit, we have taken extraordinary measures to ensure that the information provided by
USAID is thoroughly, accurately, and responsibly represented. Therefore, I want to directly
address one of the points made in USAID’s comment letter—our treatment of SBU information.
USAID designated the ministry assessments and the internal risk reviews as “Sensitive But
Unclassified” (SBU), and requested SIGAR to withhold this information and the related portions
of our audit report from public release because “release of these materials will likely result in
reduced cooperation from the Afghan Government.” In the very same written comments, USAID
also asserted that those same ministry assessments and internal risk reviews “were generated
for the internal use of the US Government and the entities that are the subject of the
assessments.” Moreover, when USAID provided copies of the ministry assessments to SIGAR
auditors, every one of those assessments bore a cover sheet requesting SIGAR to “not
distribute . . . these documents . . . outside the executive branch.”
In other words, USAID’s view is that this information can be given to the Afghan government,
but not to Congress or the American public. I simply cannot find any support for this
proposition in the law or as a matter of good public policy.
USAID also asserted that “parts of the Afghan government provided unprecedented access for
the independent auditors to complete the risk assessments based on understandings that the
results of the risk assessments would not be made public.” However, despite repeated
requests from SIGAR, USAID has not provided any documentary evidence that it promised the
Afghan government that this information would be withheld from the public.
The State Department’s own regulations, as contained in the Foreign Affairs Manual, provide
that if the release of information obtained from a foreign government would harm foreign
relations, “then it must be classified in order to be exempt from release . . . . The SBU label
cannot be used instead of classification to protect such information.” Since USAID has
specifically designated this information as “unclassified,” SIGAR will not censor or otherwise
withhold portions of our audit report from the public.
Frankly, USAID’s continued insistence that SIGAR withhold this information from Congress and
the public may undermine the credibility of its assertions that it has appropriately mitigated the
risks uncovered by the ministry assessments and its internal risk reviews.
USAID’s comments, along with our responses, are reproduced in appendix XVI. In its
comments, the agency agreed with the recommendations. However, the agency also indicated
it is already complying with the each of the recommendations and requested that SIGAR close
them. We disagree with the agency’s assertion that it has fully complied with the
recommendations, and we will continue to monitor USAID’s efforts to determine whether the
agency has fully implemented our recommendations.
We conducted this performance audit under the authority of Public Law No. 110‐181, as
amended, and the Inspector General Act of 1978, as amended, and in accordance with
generally accepted government auditing standards.




John F. Sopko
Special Inspector General
  for Afghanistan Reconstruction
                                             TABLE OF CONTENTS

Background .................................................................................................................................................................. 2 

Ernst & Young and KPMG Met almost All Contract Requirements ........................................................................... 4 
All Ministry Assessments Concluded that Afghan Ministries Are Unable to Manage U.S. Direct Assistance Funds
until Identified Risks Are Mitigated............................................................................................................................. 6 

USAID and State Did Not Fully Disclose to Congress the Risks Associated with Providing Direct Assistance to
the Afghan Ministries................................................................................................................................................. 14 
Conclusion.................................................................................................................................................................. 17 

Recommendations .................................................................................................................................................... 17 
Agency Comments ..................................................................................................................................................... 18 
Appendix I - Scope and Methodology ....................................................................................................................... 21 

Appendix II - Additional Information on USAID’s Direct Assistance Funding, Requirements, and Ministry
Assessments .............................................................................................................................................................. 24 
Appendix III - List of USAID Direct Assistance to Afghanistan since 2004 ............................................................. 32 
Appendix IV - Ernst & Young and KPMG Contract Requirements ........................................................................... 35 
Appendix V - USAID Risk Rating Matrix ..................................................................................................................... 36 
Appendix VI - Risks and Mitigation Measures Identified in USAID’s Risk Reviews ................................................ 37 
Appendix VII - Ministry of Public Health Overview .................................................................................................... 38 
Appendix VIII - Ministry of Agriculture, Irrigation, and Livestock Overview ............................................................. 42 
Appendix IX - Ministry of Mines and Petroleum Overview ....................................................................................... 46 
Appendix X - Ministry of Education Overview ........................................................................................................... 50 
Appendix XI - Ministry of Communication and Information Technology Overview ................................................. 54 
Appendix XII - Da Afghanistan Breshna Sherkat Overview ...................................................................................... 59 

Appendix XIII - Ministry of Finance Overview ............................................................................................................ 64 
Appendix XIV - Overviews of Ministries with Public Financial Management Assessments, but No USAID Risk
Reviews ...................................................................................................................................................................... 69 

Appendix XV - USAID Waiver of ADS 220.................................................................................................................. 72 
Appendix XVI - Comments from the U.S. Agency for International Development and SIGAR’s Response............ 76 
Appendix XVII - Acknowledgments ............................................................................................................................ 94 


TABLES

Table 1 - Active Direct Assistance Programs in Afghanistan, as of August 2013 .................................................. 25 

Table 2 - USAID Office of Inspector General Recommended Contract Changes ................................................... 27 




SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                                                                                   Page i
                                          TABLE OF CONTENTS

Table 3 - Congressional Requirements for the Use of Direct Assistance Funds in Afghanistan ........................... 29 

Table 4 - Ministry Assessment Descriptions ............................................................................................................ 29 
Table 5 - Contractor Public Financial Management Assessments and USAID Risk Reviews, as of August 201331 
Table 6 - USAID Direct Assistance in Afghanistan since 2004, as of August 2013 .............................................. 32 

Table 7 - Number of Risks and Mitigation Measures Identified in USAID/Afghanistan’s Risk Reviews .............. 37 
Table 8 - USAID’s Direct Assistance Programs and Funding for MOPH, as of August 2013 ................................. 38 
Table 9 - USAID’s Direct Assistance Programs and Funding for MAIL, as of August 2013 ................................... 42 

Table 10 - USAID’s Stage 2 Suggested Risk Mitigation Measures for MAIL .......................................................... 44 
Table 11 - USAID’s Direct Assistance Programs and Funding for MOMP, as of August 2013 .............................. 46 
Table 12 - USAID’s Stage 2 Suggested Risk Mitigation Measures for MOMP ....................................................... 47 
Table 13 - USAID’s Direct Assistance Programs and Funding for MOE, as of August 2013 ................................. 50 
Table 14 - USAID’s Stage 2 Suggested Risk Mitigation Measures for MOE ........................................................... 52 
Table 15 - USAID’s Direct Assistance Programs and Funding for MOCIT, as of August 2013 .............................. 54 
Table 16 - USAID’s Direct Assistance Programs and Funding for DABS, as of August 2013................................ 59 
Table 17 - USAID’s Stage 2 Suggested Risk Mitigation Measures for DABS ......................................................... 61 
Table 18 - USAID’s Direct Assistance Programs and Funding for MOF, as of August 2013 ................................. 64 
Table 19 - USAID’s Stage 2 Suggested Risk Mitigation Measures for MOF ........................................................... 65 


FIGURES

Figure 1 - Number of Weaknesses Found across Ernst & Young’s and KPMG's Public Financial Management
Assessments, by Theme .............................................................................................................................................. 7 
Figure 2 - Number of Weaknesses Found across USAID's Risk Reviews, by Theme ............................................... 8 
Figure 3 - Risk Reviews Compared against Conditions Precedent, by Ministry ..................................................... 11 
Figure 4 - Timeline of Certified Ministry Assessments and Congressional Contact............................................... 16 
Figure 5 - Contract Requirements for Public Financial Management Assessments ............................................. 35 

Figure 6 - USAID Risk Rating Matrix.......................................................................................................................... 36 
Figure 7 - Assessment and Certification Timeline of MOPH.................................................................................... 38 
Figure 8 - Assessment and Certification Timeline of MAIL ...................................................................................... 42 

Figure 9 - Assessment and Certification Timeline of MOMP ................................................................................... 46 
Figure 10 - Assessment and Certification Timeline of MOE .................................................................................... 50 
Figure 11 - Assessment and Certification Timeline of MOCIT ................................................................................. 54 




SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                                                                       Page ii
                                    TABLE OF CONTENTS

Figure 12 - Assessment and Certification Timeline of DABS .................................................................................. 59 

Figure 13 - Assessment and Certification Timeline of MOF .................................................................................... 64 




SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                                                  Page iii
ABBREVIATIONS

            ADS                                Automated Directive System
            AUPCS                              Approval of Use of Partner Country Systems
            CUI                                Controlled Unclassified Information

            FOIA                               Freedom of Information Act
            SBU                                Sensitive but Unclassified
            USAID                              U.S. Agency for International Development
            USAID/Afghanistan                  USAID Mission for Afghanistan




ABBREVIATIONS FOR AFGHAN MINISTRIES AND GOVERNMENT ENTITIES

            AIHRC                         Afghanistan Independent Human Rights Commission
            DABS                          Da Afghanistan Breshna Sherkat

            IARCSC                        Independent Administrative Reform and Civil Service Commission
            MAIL                          Ministry of Agriculture, Irrigation, and Livestock
            MEW                           Ministry of Energy and Water
            MOCIT                         Ministry of Communication and Information Technology
            MOE                           Ministry of Education
            MOEC                          Ministry of the Economy

            MOF                           Ministry of Finance
            MOHE                          Ministry of Higher Education
            MOIC                          Ministry of Information and Culture
            MOMP                          Ministry of Mines and Petroleum
            MOPH                          Ministry of Public Health
            MOPW                          Ministry of Public Works

            MOTCA                         Ministry of Transport and Civil Aviation
            MRRD                          Ministry of Rural Rehabilitation and Development




SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                               Page iv
At the 2010 London Conference, the international community, including the United States, stated its
commitment to providing at least 50 percent of development aid to Afghanistan through on-budget
assistance—funding that is channeled through the Afghan government’s core budget. On-budget assistance is
designed to allow the Afghans more freedom to manage their own budget and to build their capacity for doing
so. On-budget assistance can take many forms, including direct bilateral assistance, contributions to multi-
donor trust funds, and direct budget support. Direct bilateral assistance—hereafter referred to as direct
assistance—includes government-to-government funding and host country contracts.1 As of August 1, 2013,
the U.S. Agency for International Development (USAID) had committed $1.6 billion in direct assistance to the
Afghan government.2 On-budget assistance raises a number of concerns, in part because funds provided on-
budget are typically subject to less U.S. and international donor control and oversight than funds provided
through projects implemented by the United States and other international donors, leaving them particularly
vulnerable to waste, fraud, and abuse. In order to assess Afghan ministries’ ability to manage U.S. funds,
USAID contracted with Ernst & Young and KPMG in late 2010 and early 2011 to assess 16 Afghan ministries.3
The objectives of this audit were to (1) assess the extent to which Ernst & Young and KPMG adhered to USAID
contract requirements when conducting the ministry assessments, (2) describe the assessment findings and
conclusions about the ability of the Afghan ministries to manage U.S. funds and analyze how USAID has used,
or plans to use, the assessments to help inform its assistance to the Afghan government, and (3) examine the
U.S. Department of State’s certification and USAID’s notification provided to Congress, pursuant to
congressional requirements. We did not intend for this audit to examine the implementation of USAID-funded
direct assistance programs, assess the effectiveness of USAID’s methods for safeguarding U.S. direct
assistance funds, or determine whether fraud and misuse of funds existed within these programs.4
To accomplish these objectives, we reviewed congressional requirements for providing direct assistance as
defined in the Fiscal Year 2010 Consolidated Appropriations Act, the Fiscal Year 2011 Department of Defense
and Full-Year Continuing Appropriations Act, and the Fiscal Year 2012 Consolidated Appropriations Act.5 We
also reviewed USAID’s policies governing direct assistance in Afghanistan. We analyzed Ernst & Young’s and
KPMG’s public financial management assessments of 16 ministries and their associated contracts with USAID,
as well as USAID’s risk reviews of seven Afghan ministries and implementation letters for eight ongoing direct
assistance programs. We reviewed Ernst & Young’s and KPMG’s working papers, including draft reports,
internal control testing documentation, and correspondence with the ministries and USAID. We also reviewed
USAID’s contractor performance assessment reports for Ernst & Young and KPMG, as well as correspondence
between the agency and the contractors. We met with officials in USAID’s Office of Afghanistan and Pakistan
Affairs and USAID/Afghanistan’s Office of Financial Management, Office of Program and Project Development,
and on-budget monitors. In addition, we met with Afghan officials at the Ministry of Agriculture, Irrigation, and
Livestock; the Ministry of Finance; the Ministry of Mines and Petroleum; and Da Afghanistan Breshna Sherkat—
Afghanistan’s national power utility. We conducted our work in Washington, D.C. and Kabul, Afghanistan, from


1Under a host country contract, USAID is not a party to contractual arrangements between the host country and suppliers
of goods and services.
2This $1.6 billion represents commitments to ongoing direct assistance programs for which USAID has not confirmed
program completion dates. In commenting on a draft of this report, USAID stated that its commitments for direct assistance
have dropped to $1.06 billion.
3 In this report, we refer to all Afghan government entities as “ministries,” including Da Afghanistan Breshna Sherkat
(Afghanistan’s national power utility), the Independent Administrative Reform and Civil Service Commission, and the
Independent Directorate of Local Governance. As of September 1, 2013, assessments for the Ministry of Justice and the
Supreme Court were still in progress.
4 SIGAR currently has an audit examining the safeguards that various U.S. agencies, including USAID, have in place to
protect on-budget funds provided to the Afghan government from waste, fraud, and abuse. That audit will result in a final
report in early 2014.
5Consolidated Appropriations Act, 2010, Pub. L. No. 111-117, 123 Stat. 3034, 3329 (2009); Department of Defense and
Full-Year Continuing Appropriations Act, 2011, Pub. L. No. 112-10, § 2121(b), 125 Stat. 38, 184 (2011); Consolidated
Appropriations Act, 2012, Pub. L. No. 112-74, § 7031(a), 125 Stat. 786, 1209-10 (2011).

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                               Page 1
April 2013 to January 2014, in accordance with generally accepted government auditing standards. A more
detailed discussion of our scope and methodology is in appendix I.


BACKGROUND

At the 2010 London Conference, the United States and other members of the international community stated
their commitment to providing 50 percent of development aid to Afghanistan through on-budget assistance
and reaffirmed this commitment at the 2010 Kabul and 2012 Tokyo Conferences. USAID’s Performance
Management Plan and its 2013 progress report, USAID Forward, both reiterate the U.S. government’s intent to
provide more than 50 percent of its assistance through Afghan government systems.
In line with these commitments, a major component of the U.S. government’s approach to reconstruction in
Afghanistan involves supporting the Afghan government, as appropriate, so it can take increasing ownership
for development and sustain any reconstruction gains over the past decade. On-budget assistance to the
Afghan government can encompass several types of funding mechanisms, including donations to multi-donor
trust funds, direct budget support, and direct assistance. USAID officials stated that the agency does not award
direct budget support, which it defines as “funds provided directly to a foreign government to be used by that
government at its discretion and without further U.S. oversight.”6 Instead, USAID awards on-budget assistance
in Afghanistan exclusively through donations to multi-donor trust funds and direct assistance agreements.
Direct assistance includes host country contracting and government-to-government assistance. Direct
assistance is aid that the agency implements through bilateral agreements with an Afghan government entity
and under national arrangements covering public financial management systems at both national and
ministerial or sectoral levels.
When USAID first committed in 2005 to increasing the amount of on-budget assistance it planned to provide
the Afghan government, the USAID Mission for Afghanistan (USAID/Afghanistan) used host country contracting,
which is one method for financing and implementing projects.7 USAID used host country contracting for direct
assistance agreements for only two programs—one with the Ministry of Public Health and one with the Ministry
of Communication and Information Technology.8 As of August 2013, USAID had obligated almost $659 million
to seven ministries for eight active direct assistance programs and planned to commit an additional $237
million to these programs.9 The agency had committed another $780.7 million for 10 planned programs, for a
total of $1.6 million in commitments for the 18 active and planned direct assistance programs.10




6USAID information provided to SIGAR, September 2013. USAID’s ADS Glossary does not contain a definition of on-budget,
direct assistance, and budget support.
7USAID Automated Directives System 301 Procurement Responsibilities and Automated Directives System 305 Host
Country Contracts. USAID’s host country contracting policies require reviews of all recipient ministries’ procurement
systems.
8 USAID officials told us that host country contracting was used before the development of ADS 220, and USAID is moving
away from host country contracting and toward cost-reimbursable direct assistance, the latter of which is the focus of this
report. The Ministry of Public Health is the only ministry with an active program funded as a host country contract. Funding
for the Ministry of Communication and Information Technology’s program ended in fiscal year 2004.
9 USAID has disbursed an additional $25.2 million to five completed direct assistance programs and one suspended direct

assistance program at five ministries. See appendix III for information on these completed and suspended direct
assistance programs. According to USAID’s ADS Glossary, an obligation is a legal liability of the government for the payment
of funds for specific goods or services ordered or received. It includes a range of transactions, such as contracts, grants,
and loans. In contrast, a commitment is an administrative reservation of funds in anticipation of their obligation.
10   See appendix III for more information on USAID’s direct funding and active programs.

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                                 Page 2
Limitations on USAID’s Direct Assistance to the Afghan Government
USAID and the government of Afghanistan signed a memorandum of understanding in December 2010 in
support of the goals, objectives, and mechanisms for effective assistance to Afghanistan. The memorandum of
understanding focused on maximizing opportunities presented by USAID-funded assistance to increase
capacity, institutional growth, and public ownership of the development process in Afghanistan. The
memorandum also laid out 13 financial requirements to ensure that direct assistance funds are used as
intended. For example, the requirements specified that the Afghan government return unspent funds to USAID,
grant USAID access rights to any special bank accounts established for direct assistance programs, and
maintain accounting records in accordance with agreed-upon standards for 3 years after the last
disbursement. Additionally, the memorandum required that the Afghan government work with USAID to both
design satisfactory responses to recommendations by USAID for any pre-award assessments and to establish a
monitoring and evaluation plan specific to each activity for which direct assistance funds will be used.
Furthermore, under the memorandum, USAID reserved the right to suspend or terminate a direct assistance-
funded activity or obtain a refund should terms of the activity be breached; to carry out third party evaluations
of direct assistance activities; and to only release funds when adequate supporting documentation is
submitted to USAID.11
In 2011, USAID issued Automated Directives System (ADS) 220: Use of Reliable Partner Country Systems for
Direct Management and Implementation of Assistance to provide internal policy directives and required
procedures for managing and implementing direct assistance.12 ADS 220 established the Public Financial
Management Risk Assessment Framework—a multi-stage, risk-based methodology that USAID uses to assess
partner country systems suitability for receiving direct assistance. Stage 1 of this framework is a macro-level
analysis of the risk environment of the partner country that provides a USAID mission with a high-level
perspective of the risks associated with use of the partner country’s systems. Stage 2 is a more in-depth
ministry-level review undertaken to gain a detailed understanding of an individual ministry. The Stage 2
assessment concludes with a determination by the USAID mission of whether that ministry is capable of
handling U.S. direct assistance funding. If the USAID mission concludes that a ministry is capable of handling
direct assistance funding, then the USAID mission grants an “Approval of Use of Partner Country Systems”
(AUPCS). An AUPCS constitutes formal approval for the use of a partner country’s public financial management
system, but is not an agreement to actually disburse funds.
Once the ministry has been approved to receive direct assistance, the USAID mission then completes the
remaining stages of ADS 220’s public financial management risk assessment framework. During Stages 3, 4,
and 5, the mission determines an appropriate program design; negotiates and prepares a funding agreement
with the partner country; and implements, monitors, and evaluates the direct assistance program.
In addition to USAID’s internal requirements defined in ADS 220, USAID is required to respect the limitations
Congress has placed on direct assistance to Afghanistan. For fiscal year 2010, Congress conditioned the
availability of funds for direct assistance on the Secretary of State certifying that the U.S. and Afghan
governments have agreed to clear and achievable goals and objectives for the use of direct assistance, and
have established mechanisms within each implementing agency to ensure funds are used for their intended
purpose.13 In fiscal year 2011, Congress added the condition that the Secretary of State also certify that “the
relevant implementing [Afghan ministries] have been assessed and considered qualified to manage such
funds.”14 For fiscal year 2012, Congress conditioned the availability of funds for direct assistance to

11 This audit did not assess USAID’s compliance with all of these requirements. We initiated a separate audit in June 2013

to examine the process by which U.S. agencies provide direct assistance funds to the Afghan government and the internal
controls put in place to safeguard these funds, including many of the requirements contained in the December 2010
memorandum of understanding between USAID and the government of Afghanistan.
12   USAID finalized ADS 220 in August 2011, and updated it in March 2012.
13   Pub. L. No. 111-117, 123 Stat. 3034, 3329 (2009).
14   Pub. L. No. 112-10, § 2121(b), 125 Stat. 38, 184 (2011).

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                               Page 3
Afghanistan on a detailed notification to Congress concerning efforts to protect direct assistance funds from
waste, fraud, and abuse.15 For example, the 2012 limitation on direct assistance specified that funds may be
made available for direct assistance “only if . . . each implementing agency or ministry to receive assistance
has been assessed and is considered to have the systems required to manage such assistance and any
identified vulnerabilities or weaknesses of such agency or ministry have been addressed.”16 Furthermore, the
limitation states that funds be made available only if “effective monitoring and evaluation systems are in place
to ensure that such assistance is used for its intended purposes and no level of acceptable fraud is
assumed.”17 The 2012 limitation also included a requirement to ensure that each ministry adopts competitive
procurement policies and systems. Appendix II contains more information on the requirements for direct
assistance.


USAID’s Ministry Assessments and Risk Review Processes
Beginning in 2010, USAID/Afghanistan issued contracts for third-party firms to conduct public financial
management assessments of Afghan ministries’ abilities to manage and administer direct assistance funds.
Between January 2011 and August 2013, Ernst & Young and KPMG completed public financial management
assessments of 16 Afghan ministries under contracts with USAID/Afghanistan.18 Using these assessments,
USAID/Afghanistan then conducted internal risk reviews of seven ministries in order to inform its decision of
whether to provide direct assistance funds to those ministries.19 These risk reviews include the mission’s
conclusions and interpretations of the Ernst & Young and KPMG public financial management assessments.
The risk reviews also identify major risks and mitigating strategies deemed necessary for ensuring that the
ministries are able to manage U.S. direct assistance.20


ERNST & YOUNG AND KPMG MET ALMOST ALL CONTRACT REQUIREMENTS

USAID’s contracts with Ernst & Young and KPMG to conduct the public financial management assessments
required them to comply with between 19 and 27 reporting requirements.21 Among other things, the contracts
required Ernst & Young and KPMG to provide conclusions on each ministry’s financial management capacity
and accounting systems and to include the ministry management’s response to these conclusions. The
contracts also required that Ernst & Young and KPMG recommend actions for correcting any identified
weaknesses. Based on our review of the 16 completed public financial management assessment reports, we
determined that Ernst & Young and KPMG met almost all of the contract requirements.22 However, the



15   Pub. L. No. 112-74, § 7031(a), 125 Stat. 786, 1209-10 (2011).
16   Pub. L. No. 112-74, § 7031(a), 125 Stat. 786, 1209-10 (2011).
17   Pub. L. No. 112-74, § 7031(a), 125 Stat. 786, 1209-10 (2011).
18 The 16 ministries assessed were the Afghanistan Independent Human Rights Commission, Da Afghanistan Breshna

Sherkat, the Independent Administrative Reform and Civil Service Commission, and the Ministries of Agriculture, Irrigation,
and Livestock; Communication and Information Technology; Education; Energy and Water; Economy; Finance; Higher
Education; Information and Culture; Mines and Petroleum; Public Health; Transport and Civil Aviation; and Rural
Rehabilitation and Development.
19 USAID completed risk reviews for Da Afghanistan Breshna Sherkat and the Ministries of Agriculture, Irrigation, and

Livestock; Communication and Information Technology; Education; Finance; Mines and Petroleum; and Public Health.
20   Appendix II includes additional information on the public financial management assessments and risk reviews.
21 The first contract with Ernst & Young, awarded in November 2010, to assess the Independent Administrative Reform and

Civil Service Commission had 19 deliverables. The most recent contract with Ernst & Young, awarded in June 2012, to
assess Da Afghanistan Breshna Sherkat has 27 deliverables.
22 See appendix IV for a full list of contract deliverables and the extent to which Ernst & Young and KPMG met these

deliverables.

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                                  Page 4
contractors did not fully meet the contract requirements related to assessing program costs because
USAID/Afghanistan did not provide sufficient information to complete the requirement.
In 2010, USAID’s Office of Inspector General reported that USAID ministry assessments should include an
analysis of each ministry’s capability to implement specific proposed programs, as well as increased measures
to verify testing of internal controls.23 In line with this recommendation, USAID’s contracts with Ernst & Young
and KPMG required the contractors to express their “conclusions on USAID’s proposed [program] costs.” In
particular, the contractors were to identify findings and conclusions on proposed program costs and provide a
summary of their program cost findings.
However, Ernst & Young officials told us USAID/Afghanistan did not provide any proposed program cost
information that would have allowed them to analyze program costs. Therefore, with the exception of the
Ministry of Transport and Civil Aviation assessment, none of the public financial management assessments
contained an evaluation of proposed program costs, as required by the contracts’ statements of work.
According to USAID/Afghanistan officials, they had not proposed program costs because they first wanted to
obtain information about the ministries’ capabilities through the assessment process. They added that this
requirement was included in the contracts by mistake due to a template error.
In addition to not providing program cost information to Ernst & Young and KPMG, USAID/Afghanistan took
limited steps to verify the contractors’ internal controls testing. In its 2010 report, USAID’s Inspector General
recommended that USAID/Afghanistan require contractors to reference the specific documentation that
supports their assessments of the ministries. The USAID Inspector General also recommended that USAID
supervisors approve contractor testing plans. Consistent with this recommendation, USAID/Afghanistan
developed a public financial management risk assessment checklist with detailed steps for the contractors to
use when conducting the ministerial assessments. The checklist included a field for “references” next to each
step in the checklist that was intended to be used to refer to supporting documentation. The contracts required
Ernst & Young and KPMG to complete the checklists. We found that Ernst & Young and KPMG completed this
checklist for each of the 13 assessments when it was required and submitted the completed checklist to
USAID/Afghanistan with the assessments.24 However, rather than referring to detailed supporting
documentation in the “references” field of the checklist, Ernst & Young and KPMG simply cited the
corresponding section of their final reports.
We reviewed Ernst & Young’s and KPMG’s working papers and saw evidence that the contractors conducted
walkthroughs and internal control testing and reviews to support their assessments of the Afghan ministries.
Nevertheless, USAID/Afghanistan officials told us they did not request Ernst & Young’s and KMPG’s working
papers to verify the responses on these checklists because agency officials were only concerned with the final
report. Furthermore, USAID/Afghanistan did not implement the USAID Inspector General’s recommendation
that USAID supervisors approve contractor testing plans for the 16 assessments we reviewed. The only step
USAID/Afghanistan officials reported taking to verify Ernst & Young’s and KPMG’s work was to meet with the
contractors on a case-by-case basis to discuss their findings.
USAID/Afghanistan’s limited verification of the contractors’ testing reduced, to some extent, its ability to make
fully informed decisions using the 16 public financial management assessments completed between January
2011 and August 2013. USAID/Afghanistan officials informed us in September 2013, after we completed our
fieldwork, that they are now verifying contractor testing for assessments completed after August 1, 2013.




23USAID Office of Inspector General, Review of USAID/Afghanistan’s Ministerial Assessment Process, F-306-11-001-S.
November 6, 2010.
24 USAID/Afghanistan’s contracts with KPMG for the Afghanistan Independent Human Rights Commission, Independent

Administrative and Civil Service Commission, and the Ministry of Transport and Civil Aviation assessments did not require
the contractor to complete risk assessment checklists.

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                               Page 5
ALL MINISTRY ASSESSMENTS CONCLUDED THAT AFGHAN MINISTRIES ARE
UNABLE TO MANAGE U.S. DIRECT ASSISTANCE FUNDS UNTIL IDENTIFIED
RISKS ARE MITIGATED

Ernst & Young and KPMG completed public financial management assessments of 16 Afghan ministries
between January 2011 and August 2013. In these assessments, the contractors evaluated the ministries’
financial management and accounting systems, procurement and purchasing capabilities, human resources
procedures, and governance and internal controls. Both contractors concluded that all ministries assessed
were unable to manage and account for funds unless they implemented recommendations included in the
public financial management assessment reports. Both contractors also stated that the material weaknesses
identified in their reports “must be addressed as pre-award disbursement conditions.”
Ernst & Young and KPMG identified 696 total recommendations for corrective action across the 16 ministries
assessed.25 For example, Ernst & Young recommended that the Ministry of Mines and Petroleum develop and
implement a financial management and accounting system to enhance efficiency and reduce the risk of
“intentional and unintentional errors.” In another instance, KPMG recommended to the Ministry of Rural
Rehabilitation and Development that variances between recorded and physical inventories should be reported
to top management, and differences should be investigated and resolved. The number of recommendations for
each ministry ranged from 24 for Da Afghanistan Breshna Sherkat to 63 for the Ministry of Public Health.
As part of their reviews, Ernst & Young and KPMG assigned risk ratings to these recommendations—rating
them low, medium, high, or critical risk—based on the severity of the identified weaknesses.26 Of the 696
recommendations, the contractors rated 239—or 41 percent—as critical or high risk. Furthermore, in the four
KPMG assessments—completed for the Ministries of Communication and Information Technology, Energy and
Water, Rural Rehabilitation and Development, and Transport and Civil Aviation—KPMG concluded that the
ministries would still be “high risk” even if all recommendations in the report were implemented, and that
funds provided to these ministries would need to be monitored as such.
Our analysis of Ernst & Young’s and KPMG’s recommendations identified persistent weaknesses, which we
categorized into 10 major themes. The most common theme was “auditing, monitoring, and evaluation,” with
recommendations for improving audit procedures and monitoring reporting policies. Other prevalent themes
were “staffing,” “strategic planning,” and “budgeting.” Figure 1 shows the full breakdown of common
weaknesses identified in Ernst & Young’s and KPMG’s recommendations.




25 We analyzed recommendations, rather than key findings, because recommendations present both problems and
methods for addressing these problems with a greater level of detail about each issue, allowing more accuracy when
identifying common themes.
26 Eleven of the 16 assessments did not include critical as a possible risk rating. Three ministries had instances where no

risk rating was assigned, totaling 110 recommendations.

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                                Page 6
                      Figure 1 - Number of Weaknesses Found across Ernst & Young’s and KPMG's
                          Public Financial Management Assessments, by Theme




           Source: SIGAR analysis of Ernst & Young’s and KPMG’s public financial management assessments.


USAID’s Risk Reviews Found that the Afghan Ministries Were Unable to Manage
Donor Funds and Lacked the Capability to Combat Corruption
USAID/Afghanistan used Ernst & Young’s and KMPG’s public financial management assessments to complete
risk reviews of the seven ministries that had active or planned direct assistance programs as of August
2013.27 In its risk reviews, USAID/Afghanistan identified 104 major risks associated with relying on the
ministries to manage donors’ direct assistance funds. Risks for individual ministries ranged from 11 for the
Ministry of Agriculture, Irrigation, and Livestock to 26 for the Ministry of Finance. Although the risks varied by
ministry, they generally identified problems with the ministries’ management and governance structures,
financial management and accounting systems, personnel procedures, procurement and purchasing systems,
and program management. For example, USAID/Afghanistan found that the Ministry of Public Health was at
risk of “concealing vital monitoring and evaluation information” and “misappropriation of cash arising from
payment of salaries in cash.” In its review of the Ministry of Mines and Petroleum, USAID/Afghanistan noted
that “waste, fraud, and abuse may go undetected” and identified the risk of “paying higher prices for
commodities and services to finance kickbacks and bribes.” Each risk review noted similar types of
weaknesses. The mission rated 99 of the 104 risks, or about 95 percent, as “critical” or “high.”28




27The Independent Administrative Reform and Civil Service Commission has an active program, but USAID/Afghanistan
had not completed a risk review of the commission or planned to do one, as of August 2013. The Supreme Court and
Ministry of Justice have planned programs, and the contractors are still conducting public financial management
assessments of these two ministries.
28USAID/Afghanistan assigned risk ratings based on the probability of an “adverse event associated with [a] risk”
occurring, ranging from remote to frequent, combined with the adverse event’s potential impact, ranging from negligible to
catastrophic. Appendix V includes a matrix of how USAID/Afghanistan assigns risk ratings.

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                               Page 7
For every risk listed in its risk reviews, USAID/Afghanistan proposed corresponding mitigation measures that
should be taken to address the problems found.29 In total, USAID/Afghanistan identified 333 mitigating
measures. These mitigating measures included, for example: conducting periodic inventory of fixed assets,
developing written policies and procedures for monitoring and evaluation and disseminating notices to all staff,
paying salaries through the banking system (instead of in cash), and clearly defining system access and
implementing controls to restrict access to key functions. Figure 2 demonstrates that—similar to the public
financial management assessment recommendations—the most prevalent theme of the risk reviews’
mitigation measures was “auditing, monitoring, and evaluation.”

          Figure 2 - Number of Weaknesses Found across USAID's Risk Reviews, by Theme




          Source: SIGAR analysis of USAID risk reviews.

Some of USAID/Afghanistan’s risk reviews also discussed each ministry’s ability and willingness to combat
corruption. Specifically, USAID/Afghanistan found that Da Afghanistan Breshna Sherkat and the Ministries of
Agriculture, Irrigation, and Livestock; Communication and Information Technology; Education; Mines and
Petroleum; and Public Health had control environments that were “not adequate to mitigate risk of
corruption.”30 Of those ministries, USAID/Afghanistan only identified Da Afghanistan Breshna Sherkat as
demonstrating, “to a certain degree, the will to address concerns that could lead to corrupt acts.” Risk reviews
of the Ministries of Agriculture, Irrigation, and Livestock and of Mines and Petroleum stated it was unclear
whether these ministries were willing to combat corruption; risk reviews of the Ministries of Communication
and Information Technology, Education, and Public Health did not address willingness to combat corruption at
all.
In its risk reviews, USAID/Afghanistan concluded that the U.S. government cannot rely—or, in the instance of
the Ministry of Finance, “cannot fully rely”—on any of the seven reviewed ministries’ systems and internal
controls to manage donor funds. With the exception of Da Afghanistan Breshna Sherkat and the Ministry of
Finance, USAID/Afghanistan’s risk reviews stated that USAID would not award direct assistance to these
ministries under normal circumstances because of these results. However, because “the determination [had]
already been made” to engage in direct assistance with the ministries, USAID/Afghanistan determined that it


29Appendix VI indicates how many risks and mitigating measures USAID/Afghanistan identified for each ministry in its risk
reviews.
30Unlike USAID’s other six risk reviews of Afghan ministries, USAID’s risk review of the Ministry of Finance does not discuss
corruption.

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                                 Page 8
could reasonably mitigate the identified risks by “approaching direct assistance with caution and conditions,”
and proceeded to sign an AUPCS for each of the seven reviewed ministries.31
Although the AUPCS is not the final step in USAID’s process for providing direct assistance and does not
constitute a funding agreement, it does constitute approval to use Afghan government systems to provide
direct assistance. The USAID/Afghanistan Mission Director signed these seven approvals despite
USAID/Afghanistan (1) concluding that it could not rely on these ministries to manage donor funds; (2)
determining that six of the reviewed ministries did not have the ability to mitigate the risk of corruption; and (3)
having specific questions about whether the Ministries of Mines and Petroleum and of Agriculture, Irrigation,
and Livestock had the will to combat corruption. Appendices VII through XIII provide a more detailed overview
of each of the ministries assessed, including a description of the ongoing and planned direct assistance
programs at each ministry, the recommendations and conclusions of the contracted assessment of the
ministry, the findings and conclusions of the ministry’s Stage 2 risk review, where applicable, and a list of the
risk mitigation measures identified for the ministry through the risk review, where applicable.


USAID Waived Its Primary Internal Requirement for Providing Direct Assistance
ADS 220 requires USAID to take multiple steps before disbursing direct assistance funds to ensure that
partner country systems are able to adequately manage direct assistance, including: (1) complete a Stage I
rapid appraisal and a democracy, human rights and governance review, if a country does not meet the
“democracy threshold” established by USAID, to determine whether direct assistance would empower a
government at the expense of its people; (2) complete ministry level risk assessments and authorize an AUPCS
for a particular ministry; (3) design and approve the program to be funded and select the funding mechanism;
(4) negotiate and prepare a bilateral agreement with the partner country and develop a plan to address any
identified risks; and (5) implement, monitor, and evaluate the direct assistance program.32 ADS 220 also
states that “If the Public Financial Management assessment reveals clear evidence of vulnerabilities to
corruption, but the partner country government fails to respond with appropriate policies and actions such as a
code of government ethics and procurement integrity, robust financial controls, and prosecution of
wrongdoers, use of partner country systems must not be authorized.”
In 2012, the USAID Administrator waived all ADS 220 requirements for all agency funds made available to
USAID/Afghanistan through fiscal year 2013 appropriations.33 According to USAID officials, this is the only
waiver of its kind made by the agency. In its justification for waiving the ADS 220 requirements, the waiver
states that fulfilling every step of the ADS 220 process “would undermine the U.S. Government’s foreign
assistance and foreign policy objectives and is also unnecessary.” The waiver goes on to explain that it is
unnecessary because the decision to provide direct assistance to Afghanistan “was made several years ago at
the very highest levels of the U.S. Government.”34
Because of the USAID waiver of ADS 220, USAID is only required to determine whether an Afghan ministry is
capable of receiving U.S. direct assistance because of the funding conditions imposed by Congress in the
annual appropriations acts. Although agency officials told us they are working to comply with the spirit of ADS
220, USAID headquarters staff did not conduct quality control reviews of the contracted public financial
management assessments, USAID/Afghanistan’s risk reviews, or any risk mitigation strategies, as called for
under ADS 220.35 As a result, USAID does not have reasonable assurance that the ministries will be able to


31   USAID’s Stage 2 assessment of the Ministry of Mines, September 2012.
32   ADS 220 requires the Mission Director to sign an AUPCS for each ministry that is approved for direct assistance.
33   A copy of the USAID waiver is included in Appendix XV.
34The waiver of ADS 220 states this decision was affirmed by the Secretary of State and the USAID Administrator at the
Kabul Conference in July 2010.
35   Quality control reviews would be conducted by the Global Partner Country Risk Assessment Team.

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                                   Page 9
effectively manage and account for direct assistance. In August 2013, USAID officials told us they were
considering whether to extend the ADS 220 waiver for fiscal year 2014 funds and beyond.
With the waiver in place, USAID/Afghanistan authorized AUPCSs, granting formal approval of the use of partner
country systems for the seven ministries that had a completed risk review through fiscal year 2015.


USAID Required Afghan Ministries to Implement Less than Eight Percent of
Identified Risk Mitigation Measures before Receiving Direct Assistance Funds
Following issuance of the AUPCSs, USAID/Afghanistan set the terms and conditions of its direct assistance
agreements with the Afghan government through implementation letters.36 In these letters, USAID/Afghanistan
established “conditions precedent”—actions USAID requires ministries to take prior to the initial disbursement
of funds—and “ongoing conditions”—actions USAID requires ministries to take after the initial disbursement of
funds and prior to subsequent disbursements. These conditions precedent and ongoing conditions are
USAID/Afghanistan’s primary method for addressing the underlying problems within the ministries identified
through the risk reviews and, therefore, for strengthening the ministries’ capabilities to manage donor funds.




As noted above, for the 104 risks identified in USAID/Afghanistan’s risk reviews, the mission developed 333
possible mitigating measures that would address the identified problems within the seven ministries: Da
Afghanistan Breshna Sherkat; Agriculture, Irrigation, and Livestock; Communication and Information
Technology; Education; Finance; Mines and Petroleum; and Public Health. However, we determined that
USAID/Afghanistan has only included 24—less than 8 percent—of the mitigation measures as conditions
precedent in its implementation letters with those ministries.
To conduct our analysis, we compared each mitigation measure against each condition precedent. If the
mitigation measure was to be carried out as a condition precedent, we counted the measure as being
included. In some cases, the conditions precedent were too vague to be counted as having satisfied specific
risk mitigation measures. In addition, while conditions precedent are program specific, USAID/Afghanistan’s
identified mitigation measures often addressed the ministry as a whole. For example, one mitigation measure
for the Ministry of Education called upon the ministry to establish a formal legal department. However,
conditions precedent for the ministry’s active program were designed to safeguard funds for a textbook
printing project and did not address the ministry’s lack of a legal department. Overall, we determined that the
majority of mitigating measures were not satisfied by the conditions precedent.
As figure 3 on the following page illustrates, USAID/Afghanistan included 20, or 32 percent, of the 62 identified
risk mitigation measures as conditions precedent in its implementation letters with Da Afghanistan Breshna


36   All official communication with the ministries regarding these agreements is done through implementation letters.

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                               Page 10
Figure 3 - Risk Reviews Compared
against Conditions Precedent, by                    Sherkat. Based on our analysis, it is unclear whether an
Ministry                                            additional 19 mitigation measures for Da Afghanistan Breshna
                                                    Sherkat were met due to the vague wording of the conditions
                                                    precedent.

                                                    Of the six remaining ministries to receive an AUPCS, our analysis
                                                    showed:
                                                         The Ministry of Mines and Petroleum had three
                                                    mitigating measures addressed by conditions precedent in its
                                                    program implementation letters. It is unclear if an additional
                                                    seven measures were addressed.
                                                         The Ministry of Agriculture, Irrigation, and Livestock had
                                                    one mitigating measure addressed by conditions precedent in its
                                                    program implementation letters. It is unclear if an additional
                                                    three measures were addressed.
                                                         It is unclear if conditions precedent for the Ministry of
                                                    Education addressed five mitigating measures
                                                    USAID/Afghanistan identified in its risk review.
                                                         Conditions precedent for the Ministry of Finance did not
                                                    address any of the mitigating measures USAID/Afghanistan
                                                    identified in its risk review.
                                                         The Ministries of Communication and Information
                                                    Technology’s and of Public Health’s implementation letters did
                                                    not contain any conditions precedent. However,
                                                    USAID/Afghanistan provided funding for these programs under
                                                    the agency’s host country contract requirements.37
                                                    Agency officials told us it would take substantial time and
                                                    resources for the U.S. and Afghan governments to address all of
                                                    the risks identified in the risk reviews before disbursing funds,
                                                    which would delay execution of the U.S. government’s
                                                    commitment to providing direct assistance and thereby the
                                                    opportunity to increase Afghan ministerial capability.
                                                    We also analyzed the “ongoing conditions” to determine which, if
                                                    any, of the mitigating measures would be addressed through
                                                    these ongoing conditions. This analysis found that an additional
                                                    46, or 13.8 percent, of the risk mitigation measures were
                                                    covered as ongoing conditions in the implementation letters. In
                                                    other words, the ministries were required to implement these 46
                                                    measures after the initial disbursement of funds. Thirty-nine of
                                                    the 46 mitigation measures that were covered as ongoing
                                                    conditions were for Da Afghanistan Breshna Sherkat. Of the
                                                    remaining seven risk mitigation measures:




37 The active program at the Ministry of Public Health and a completed Ministry of Communications and Information

Technology program were both implemented as host county contracts. While implementation letters for government-to-
government direct assistance use conditions precedent, those for host country contracts do not because host country
contracts are not subject to ADS 220. As a result, implementation letters for the Ministry of Public Health’s Partnership
Contracts for Health Services program and the Ministry of Communications and Information Technology’s District
Communication Network program do not contain conditions precedent.

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                                Page 11
          three were made requirements for the Ministry of Mines and Petroleum,
          three were made requirements for the Ministry of Education, and
          one was made a requirement for the Ministry of Agriculture, Irrigation, and Livestock.
In all, taking into account both conditions precedent and ongoing measures, USAID/Afghanistan only
incorporated 70, or 21 percent, of the 333 mitigating measures into its agreements with the Afghan ministries.
Appendices VII through XIII list the risk mitigating measures for each ministry and identify which were satisfied
as conditions precedent or ongoing conditions.
As discussed above, conditions precedent are actions that a ministry must take before USAID/Afghanistan will
disburse funds. These conditions are project specific. USAID/Afghanistan usually requires the ministries to
complete the conditions precedent within 30 to 90 days after the implementation letter is signed. In addition,
USAID/Afghanistan requires ministries to submit proof of completion and verifies that the conditions precedent
are complete. It then communicates this verification via an implementation letter prior to disbursing funds.
USAID has certified that:
          The Ministry of Finance met all conditions precedent for the Civil Service Technical Assistance
           Program prior to the first disbursement of funds in October 2009.
          The Ministry of Agriculture, Irrigation, and Livestock met all conditions precedent for the Agriculture
           Development Fund prior to the first disbursement of funds in February 2012.
          Da Afghanistan Breshna Sherkat met all of the conditions precedent for the Power Transmission
           Expansion and Connectivity and Kajaki Dam programs.38
          The Ministry of Mines and Petroleum met all conditions precedent for the Shebergan Gas
           Development Project.39
For the Ministry of Education’s Basic Education and Literacy and Vocational Education and Training Textbook
Printing program, USAID/Afghanistan issued an implementation letter stating that the ministry had met all
conditions precedent prior to the first disbursement of funds for this program in February 2012. However,
USAID/Afghanistan subsequently determined that the ministry had not met all conditions satisfactorily.
USAID/Afghanistan, therefore, withheld the remaining funding for this program from the ministry until it met all
of the outstanding conditions precedent, as well as some additional ones. In June 2013, USAID/Afghanistan
verified that the ministry had met all conditions precedent for the program.
Although the seven ministries met all conditions precedent before USAID disbursed funds, we find it
concerning that USAID/Afghanistan included less than eight percent of the mitigation measures it identified in
its risk reviews as conditions precedent in the program implementation letters.


Best Practice: USAID Created a Detailed Risk Mitigation Plan for One Ministry
After we briefed USAID on the preliminary results of our work and raised concerns that it did not have detailed
plans in place to address the problems identified through the risk reviews, USAID/Afghanistan provided us a
plan showing how it has mitigated or will mitigate each of the risks identified in its risk review of Da
Afghanistan Breshna Sherkat. The risk mitigation plan for Da Afghanistan Breshna Sherkat is a best practice
because it delineates how the risks associated with relying on ministries to manage direct assistance will be
mitigated using existing conditions precedent, ongoing conditions, and agreements with the Afghan
government. The AUPCS for Da Afghanistan Breshna Sherkat also states “all identified risks” deemed as “high”
by USAID will be “implemented prior to or concurrent with the disbursing [of] U.S. government funds to assure
maximum protection of U.S. taxpayer dollars.”
However, USAID/Afghanistan did not provide us with similar documentation demonstrating how it is mitigating
the risks identified for the other six ministries with a USAID risk review. By not ensuring that similar plans are in

38   As of August 1, 2013, USAID had not disbursed any funds for these programs.
39   As of August 1, 2013, USAID had not disbursed any funds for this program.

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                        Page 12
place to mitigate the risks associated with vulnerabilities identified in the remaining six risk reviews, USAID is
not doing everything it could to ensure the proper use of over $600 million in direct assistance obligations.


USAID Reports Taking Additional Steps to Ensure Ministries Use Direct Assistance
Funds for Intended Purposes
According to agency officials, USAID/Afghanistan relies on alternative means to safeguard direct assistance
funds, which vary depending on the specific type of direct assistance used, such as government-to-government
assistance or host-country contracting. These methods include building ministry capability through off-budget
programs USAID directly funds and manages, rather than through direct assistance to the ministry; providing
funds on a reimbursable basis; establishing separate bank accounts to be used solely for specific programs;
and maintaining the legal authority to audit any financial records and documents related to the direct
assistance program.
In addition, consistent with the 2010 memorandum of understanding between USAID and Afghanistan, both
parties confirmed they would establish a monitoring and evaluation plan specific to each program receiving
direct assistance funds.40 As of August 1, 2013, four of the seven ministries with active direct assistance
programs—the Ministry of Finance, Ministry of Education, Ministry of Public Health, and the Ministry of
Agriculture, Irrigation and Livestock—had developed written monitoring and evaluation plans specific to their
direct assistance program. USAID/Afghanistan plans to rely primarily on the conditions precedent for the three
ministries—Da Afghanistan Breshna Sherkat, Ministry of Mines and Petroleum, and Independent Administrative
Reform and Civil Service Commission—that do not have monitoring and evaluations plans. For these three
ministries, USAID/Afghanistan also intends to use construction management consultants and quality
assurance contractors, as well as USAID on-budget monitors and contracting officers and representatives to
monitor and evaluate those ministries’ programs.
While these additional steps are intended to safeguard direct assistance funds from waste, fraud, and abuse,
it is important to note that they are primarily external measures and, as such, do not directly address the
underlying problems within the ministries identified through the risk reviews. In other words, they do little to
build ministries’ organic capabilities to manage donor funds—one of the primary purposes of providing on-
budget assistance to the Afghan government. To illustrate, the risk mitigation measures included in USAID’s
risk review of the Ministry of Agriculture, Irrigation, and Livestock identified several concrete actions that the
ministry could take to address its internal problems. These actions included, among others, “define and restrict
systems access to staff according to their roles and functions,” “develop a policy for accounting for revenue,”
and “verify that adequate reference checks have been made on every prospective employee and properly
documented.” None of USAID’s external measures—whether it be creation of separate bank accounts or
distribution of funds on a reimbursement basis—would require the ministry to implement these basic and
important steps. Notably, USAID’s seven AUPCSs state that “all [emphasis added] identified risks will be
mitigated.”
Moreover, the effectiveness of USAID’s external risk mitigation measures may be limited by ongoing problems
within the ministries. For example, although USAID has developed a written monitoring and evaluation plan
specific to its direct assistance program with the Ministry of Public Health—as it has with a number of other
ministries—USAID’s risk review of that ministry found there was a serious risk of the ministry “concealing vital
monitoring and evaluation information.”
In June 2013, we initiated an audit to examine the internal controls that USAID and other U.S. government
agencies have put in place to safeguard U.S. on-budget funds to the Afghan government. We plan to issue this
audit report in early 2014.



40The 2010 memorandum of understanding between USAID and Afghanistan was signed by the Acting Mission Director on
behalf of USAID and the Minister of Finance on behalf of the Afghan government.

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                       Page 13
USAID AND STATE DID NOT FULLY DISCLOSE TO CONGRESS THE RISKS
ASSOCIATED WITH PROVIDING DIRECT ASSISTANCE TO THE AFGHAN
MINISTRIES

The State Department and USAID complied with the statutory requirements for fiscal years 2011 and 2012 to
inform Congress that they (1) have assessed Afghan ministries designated to receive direct assistance and (2)
consider the ministries qualified to manage the assistance prior to disbursing any fiscal year 2011 or fiscal
year 2012 funds.41 In the fiscal year 2011 certification, the Deputy Secretary of State certified that nine
ministries had been assessed, including the seven ministries with a Stage 2 risk review, specifically stating
that “USAID has completed [public financial management risk assessments] of the following [Afghan]
ministries and agencies, and with the necessary risk mitigation strategy in place as identified appropriately for
each individual ministry or agency, considers each qualified to manage funds provided as direct government-
to-government assistance.”42 In its fiscal year 2012 notification, USAID informed Congress that all nine
previously-certified ministries, as well as the Ministry of Communications and Information Technology, had
been assessed.43 The 2012 notification stated that “USAID has completed [public financial management risk
assessments] of ten [Afghan] ministries and agencies, and, with the successful implementation of a risk
mitigation strategy to address identified vulnerabilities or weaknesses, considers each as having the systems
required to manage [U.S. government] funds provided as direct [government-to-government] assistance.”
However, some of the information in the fiscal year 2011 certification by the Secretary of State and USAID’s
fiscal year 2012 notification was inaccurate or, at least, incomplete. Specifically, the fiscal year 2011
certification and fiscal year 2012 notification stated that the Ministries of Finance and Higher Education had
been assessed, even though USAID was still reviewing the assessment reports and Ernst & Young had not yet
finalized them.44 The Deputy Secretary of State signed the certification for fiscal year 2011 on September 21,
2012. Ernst & Young did not finalize the Ministry of Finance assessment until January 2013, and the Ministry
of Higher Education until March 2013.45 In addition, USAID officials told us they have not provided Congress
with copies of their internal risk reviews of Afghan ministries’ ability to manage donors’ direct assistance
funds.46 Figure 4 on the following page shows the date that each ministry assessment was completed and
certified, the overall finding of the assessment, and when the congressional notifications occurred.
Further, the memorandum of justification accompanying the fiscal year 2011 certification stated that, “with the
necessary risk mitigation strategy in place as identified appropriately for each individual ministry or agency,”
USAID considered each of the nine assessed Afghan ministries “qualified to manage funds provided as direct
government-to-government assistance.”47 The 2012 notification to Congress stated that “with the successful
implementation of a risk mitigation strategy to address identified vulnerabilities or weaknesses, USAID

41 Pub. L. No. 112-10, § 2121(b), 125 Stat. 38, 184 (2011); Pub. L. No. 112-74, § 7031(a), 125 Stat. 786, 1209-10

(2011).
42Memorandum of Justification for Certification Related to Funds Provided as Government-to-Government Assistance to
Afghanistan Under the Full-Year Continuing Appropriations, 2011 (Div. B., P.L. 112-110).
43 The Secretary of State and USAID did not include all of the 16 ministries that were assessed between 2011 and 2013 in

the congressional certification and notification; however, USAID did include the seven ministries with a Stage 2 risk review
in its fiscal year 2012 notification.
44 In the past, USAID sent drafts back to the contractors to add clarifying information, make charts more readable, correct

grammatical or typing errors, and question any noted inconsistencies.
45In its comments on a draft of this report, USAID stated that it is reviewing the circumstances surrounding the receipt and
completion of these assessments.
46 In commenting on a draft of this report, USAID stated Congress has not requested access to these internal risk reviews,

but USAID is “prepared and ready to appropriately respond to any requests from Congress for additional information” on its
Afghanistan direct assistance program.
47Memorandum of Justification for Certification Related to Funds Provided as Government-to-Government Assistance to
Afghanistan Under the Full-Year Continuing Appropriations, 2011 (Div. B., P.L. 1112-110).

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                               Page 14
considers each [assessed Afghan ministry] as having the systems required to manage USG funds provided as
direct [government-to-government] assistance.”48
These statements are concerning because the 2011 certification and the 2012 notification to Congress did
not disclose the full extent of the risks identified at each of the ministries or that over 90 percent of the
mitigating measures identified in the risk reviews had not been implemented. For instance, while USAID
informed Congress that the Ministry of Finance was considered qualified “with the necessary risk mitigation
strategy in place,” USAID did not fully disclose in the 2012 notification that it had identified 46 risks within the
ministry, including risks such as “the performance outcome will be lower than expected standards or long term
goals will not be achieved,” there is a “lack of accountability of public officials,” and there is a “risk of
unauthorized/inappropriate practices and undetection [sic] of differences between the amount of cash
recorded and actual amount of cash held.” USAID’s notification also did not disclose that the majority of
measures intended to mitigate these risks had not been implemented at the time of the notification, even
though the 2012 limitation on direct assistance states that funds may be made available for direct assistance
to an Afghan government ministry only if “any identified vulnerabilities or weaknesses of such agency or
ministry have been addressed.”49 The decision to continue with direct assistance seemingly conflicts with the
2012 congressional requirement, which, as previously stated, mandates that funds be made available “only
if...no level of acceptable fraud is assumed.”50
USAID maintains that if the identified risks could be mitigated, then the agency considers the ministries
qualified to manage U.S. direct assistance funds. However, as discussed, our analysis shows that the risk
reviews and public financial management assessment identified numerous weaknesses and risks within the
assessed ministries, and USAID has not developed plans to fully mitigate the risks it identified or to implement
those plans. Without full information on the ministries’ capabilities and the risk associated with providing direct
assistance to these ministries, Congress’s oversight of the over $600 million in U.S. funds that USAID has
obligated to date is compromised.




48   USAID Congressional Notification Afghanistan (FY 2012 Country Narrative).
49   Pub. L. No. 112-74, § 7031(a), 125 Stat. 786, 1209-10 (2011) (emphasis added).
50Notably, the AUPCSs state that direct assistance activities “are expected to show positive development outcomes, even if
a manageable risk of loss exists and risk mitigation is sub-optimal” (emphasis added). It is difficult to understand how this
conclusion is consistent with a determination that no level of acceptable fraud is assumed.

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                               Page 15
              Figure 4 - Timeline of Certified Ministry Assessments and Congressional Contact

                         Afghan istan Invest ment Support
                              Agency' (AISA) assessment
                       completed: improvements needed.                2011
                                                Independent
                            Administrative Reform and Civil
                              Service Commission (IARCSC)
                                    assessment completed:
                                     improvements needed.


                        Da Afghanistan Breshna Sherkat
                         (DABS) assessment completed:
                                 improvements needed.

                        Ministry of Mines and Petroleum
                        (MOMP) assessment completed:
                                  improvements needed.


                            Ministry of Education (MOE)
                        assessment completed: improve-
                                         ments needed.
                                                                      2012
                          Ministry of Public Health (MOPH)
                                   assessment completed:
                                    improvements needed.             Secretary of State certifies to
                                                                     Congress t hat DABS, MOMP,
                           Ministry of Agricultu re, Irrigation,
                                                                     MAIL, AISA, IARCSC, MoPH,
                                       and Livestock (MAIL)
                                                                     MoE, Ministry of Higher
                          assessment completed: improve-
                                                                     Education (MOHE), and
                                             ments needed.
                                                                     Ministry of Finance (MOF) have
                                                                     been assessed and are
                                                                     considered qualified to manage
                                           Ministry of               fiscal year 2011 direct
                       Communication and Information
                                                                     assist ance funds.
                       Technology (MOCIT) assessment
                      completed: improvements needed.


                          MOF assessment completed:
                                    improvements needed.              2013
                                                                     USAID not ifies Congress that
                                                                     the MOF, MOHE, MOE, MOPH,
                                                                     MAIL, MOCIT. IARCSC, AISA,
                      MOHE assessment completed:                     DABS, and MOMP have been
                            improvements needed.                     assessed and are considered to
                                                                     have the systems requ ired to
                                                                     manage fiscal year 2012 direct
                                                                     assistance funds and any
                                                                     weaknesses have been
                                                                     addressed.


                                                                       2014


                     •AJSA was Included In these communications with Congress, but we did not Include It In
                     the scope of our audit because ita asaessment was conducted in 2010.
                     Source: SIGAR Analysis of USAID direct -lstence contracts, agreements, e.-nonls, end
                     risk I'IIYii!WS.




SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                         Page 16
CONCLUSION

Since 2010, USAID has taken steps to enhance its safeguards over direct assistance funds for the Afghan
government. USAID/Afghanistan's efforts have detailed significant financial management risks and identified
appropriate risk mitigation measures for each Afghan government ministry that has been reviewed by
USAID/Afghanistan. However, a number of troubling issues remain. USAID's decision to waive its primary
internal requirement for providing direct assistance exempted its mission in Afghanistan, the only mission in
the world to receive a waiver to date, from reviews that would have provided additional assurances that direct
assistance funds would be used properly. While we agree that there is likely little benefit at this time from the
Stage 1 macro-level review that ADS 220 requires, exempting the mission from the remaining parts of the
requirement exposes U.S. funds to a seemingly unnecessary level of risk. Moreover, identifying financial
management risks and developing mitigation measures is of little use if minimal action is taken to implement
them. USAID’s reluctance to make direct assistance to ministries contingent upon them fixing many of the
underlying problems identified through the risk reviews does little to support the development of an Afghan
government capable of functioning independently and sustaining the programs it manages. Moreover, allowing
weaknesses within the ministries to persist raises the likelihood that, should one of USAID’s external measures
or safeguards be exploited or circumvented, U.S. government funds provided to the Afghan government will be
wasted or stolen. For example, providing direct assistance funds on a reimbursement basis will not help
protect those funds if the invoices and other documentation submitted by the ministry to obtain the funds were
falsified in any way.
Perhaps most troubling is the nature of USAID’s official communications with Congress regarding the
Afghanistan direct assistance program. Not only did USAID fail to fully disclose to Congress that none of the
ministries it assessed was capable of managing direct assistance funds, it also did not reveal that it only
included a small number of risk mitigation measures identified through its risk reviews as conditions that
Afghan ministries must meet prior to receiving funds. We believe it was and is incumbent upon USAID to share
this information with Congress.
Giving the Afghan government the ultimate responsibility to allocate, manage, and track funds through the
increased use of direct assistance is an important step in the reconstruction of Afghanistan, because it will
largely be up to the Afghan government to sustain the reconstruction effort in the long run. Nevertheless, the
pervasiveness of corruption in Afghanistan makes it critical that the U.S. government use every safeguard at its
disposal to ensure that the over $1 billion in open-ended commitments that USAID intends to provide to
Afghanistan in direct assistance is not subject to identified vulnerabilities and weaknesses in the ministries.


RECOMMENDATIONS

To ensure more robust quality control of the process for assessing ministries and implementing risk mitigation
measures prior to providing direct assistance funds to the Afghan government, we recommend that the
Administrator for USAID:
    1. Require compliance with all parts of ADS 220—except for the Stage 1 macro-level review—for the use
       of all direct assistance funds for fiscal year 2014 and beyond.

To improve accountability and oversight of direct assistance to the Afghan government, we recommend that
the Mission Director for USAID/Afghanistan:
    2. Fully inform Congress of the status of ministry assessments USAID or its contractors have completed,
       the risk mitigation measures Afghan ministries have implemented, and the level of risk to U.S. funds.
    3. Develop a plan, similar to the one created for Da Afghanistan Breshna Shekat, for each Afghan
       ministry that has a completed USAID risk review that defines how each of the risks identified are being


SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                    Page 17
        or will be mitigated, and suspend direct assistance disbursements to these ministries until these
        plans are completed.


AGENCY COMMENTS

In commenting on a draft of this report, USAID agreed with our three recommendations, but stated it is already
complying with recommendations and requested that we consider them closed. We disagree with the agency’s
assertion that it has fully complied the recommendations, and we will continue to monitor USAID’s efforts to
determine whether the agency has implemented the recommendations.
Regarding our first recommendation, USAID agreed and stated that it already complies with all Stage 2
requirements of ADS 220. However, as we note in our report, USAID headquarters officials from the Global
Partner Country Systems Risk Management Team told us they did not perform quality control reviews of the
contracted public financial management assessments, USAID/Afghanistan’s risk reviews, or any risk mitigation
strategies, as required by ADS 220. To date, USAID has not provided evidence that these quality control
reviews have occurred.
With regard to our second recommendation, USAID wrote that it is regularly updating Congress and providing
“extensive” documentation on direct assistance in Afghanistan. However, as discussed in our report, the 2011
certification and the 2012 notification to Congress did not disclose the full extent of the risks identified at each
of the ministries or that over 90 percent of the mitigating measures identified in the risk reviews had not been
implemented. Moreover, USAID officials told us the agency has not provided Congress copies of or access to its
crucial Stage 2 risk reviews.
Finally, USAID agreed with our third recommendation to develop a plan, similar to the one created for Da
Afghanistan Breshna Shekat, that defines how each of the risks identified are being or will be mitigated. In its
comments, USAID asserted that this information is already included in the narrative risk review reports for the
six remaining ministries, even though it is not in the matrix format like the one for Da Afghanistan Breshna
Shekat. We disagree that the information in the risk mitigation matrix is included in the narrative reports. The
narrative reports USAID/Afghanistan provided us do not explicitly state what actions USAID is currently taking,
or will be taking in the near future, to mitigate each of the identified risks. Elsewhere in its comments, USAID
stated it has prepared risk mitigation plans for the other six ministries to which it provides direct assistance. It
is unclear whether the agency is referring to the narrative risk review reports we obtained during our audit or to
new risk mitigation matrices. We request that USAID provide the risk mitigation plans for the other six
ministries that it believes satisfy our recommendation. Based on our review of that documentation, we will
determine if recommendation 3 can be closed.
In its comments, USAID also disagreed with some of our findings and conclusions and suggested that our
report did not demonstrate an accurate understanding of its direct assistance program in Afghanistan. For
example, USAID wrote that “the audit report focuses on conditions precedent as if they are the only available
risk mitigation measure, incorrectly assuming that vulnerabilities can only be addressed in advance by using a
single corresponding condition precedent at the program level for each condition or weakness.” We appreciate
and acknowledge that USAID has additional methods for addressing vulnerabilities. For example, as we explain
in our report, USAID uses what are called “ongoing conditions” to address problems within the ministries after
the initial disbursement of funds and prior to subsequent disbursements. We also note in our report that USAID
uses other methods, such as establishing separate bank accounts for specific programs, to safeguard funds
from waste, fraud, and abuse.
However, with the exception of conditions precedent and “ongoing conditions,” these additional methods do
not directly address the underlying problems within the ministries that limit their ability to manage donor funds.
As stated earlier in our report, external measures do little to build ministries’ organic capabilities to manage
donor funds—one of the primary purposes of providing on-budget assistance to the Afghan government.
Moreover, these external measures could well be exploited or circumvented by ongoing problems within the

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                       Page 18
ministries, including “cronyism and nepotism,” the “likelihood for kickbacks and collusion,” and an
“unwillingness or inability to enforce the most ordinary ethical conducts.”
Finally, in its comments, USAID expressed concern that our report includes information designated by it and
the Department of State as “Sensitive but Unclassified (SBU).” Specifically, USAID has designated the ministry
assessments and the internal risk reviews as SBU and requested SIGAR to withhold this information and
unspecified, but related portions of our audit report from public release because “release of these materials
will likely result in reduced cooperation from the Afghan Government” and release “could damage our bilateral
relationships with the Government of the Islamic Republic of Afghanistan.”
USAID asserts that the ministry assessments and internal risk reviews “were generated for the internal use of
the US Government and the entities that are the subject of the assessments” (i.e., the Afghan ministries).
USAID also asserts that “parts of the Afghan government provided unprecedented access for the independent
auditors to complete the risk assessments based on understandings that the results of the risk assessments
would not be made public.”
Despite repeated requests from SIGAR, USAID has not provided any documentary evidence that it promised the
Afghan government that this information would be withheld from the public. In any case, the fact that USAID
specifically decided to designate the ministry assessments and the risk reviews as “unclassified” means that
this information cannot be withheld from public release on the basis of that rationale.
The State Department’s Foreign Affairs Manual addresses this issue very clearly:
           “Information obtained from or exchanged with a foreign government or international organization as to
           which public release would violate conditions of confidentiality or otherwise harm foreign relations
           must be classified in order to be exempt from release under FOIA or other access laws. The SBU label
           cannot be used instead of classification to protect such information.”51
Notwithstanding the Foreign Affairs Manual, USAID’s comments define SBU as a designation for “information
that warrants a degree of protection and administrative control and meets legal or regulatory criteria for
exemption from public disclosure” (emphasis added). However, USAID has not articulated any basis in law or
regulation that would require SIGAR to censor all or part of this report.
USAID’s mention of “legal or regulatory criteria for exemption from public disclosure” appears to be an oblique
reference to the discretionary exemptions under the Freedom of Information Act, 5 U.S.C. § 552, (FOIA) that
permit an agency to withhold certain information under narrowly defined circumstances. However, USAID has
not explained how any part of SIGAR’s audit report might fall within any of those discretionary exemptions or
explained why those exemptions should be asserted.
Moreover, there is a strong presumption in law and policy in favor of public disclosure. The main purpose of
FOIA is to ensure public disclosure, not to prevent it. In addition, the SBU designation is a subcategory of
“Controlled Unclassified Information” (CUI).52 Executive Order No. 13,556 established “an open and uniform
program” for managing CUI.53 In describing the reasons for establishing this program, the order states that:
           “[E]xecutive departments and agencies . . . employ ad hoc, agency-specific policies, procedures, and
           markings to safeguard and control this information . . . . This inefficient, confusing patchwork has
           resulted in inconsistent marking and safeguarding of documents, led to unclear or unnecessarily
           restrictive dissemination policies, and created impediments to authorized information sharing. The




51 12 FAM 543(f) (emphasis added). This provision applies to both USAID and the State Department. See 12 FAM

511.1(a).
52 Presidential Memorandum for Heads of Executive Departments and Agencies Concerning Classified Information and

Controlled Unclassified Information, 74 Fed. Reg. 26,277 (May 27, 2009).
53   Exec. Order No. 13,556, 75 Fed. Reg. 68,675 (November 9, 2010).

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                          Page 19
           fact that these agency-specific policies are often hidden from public view has only aggravated these
           issues.”54
The Department of Justice and the National Archives and Records Administration have issued joint guidance
implementing Executive Order No. 13,556, which states that “FOIA should not be cited as a safeguarding or
dissemination control authority for [CUI].”55 This is because “[t]he purpose of the FOIA is to open agency
activities to the public.”56 Similarly, the President has stated that departments and agencies should not “keep
information confidential merely because public officials might be embarrassed by disclosure, because errors
and failures might be revealed, or because of speculative or abstract fears.”57
Therefore, in the absence of any basis in law or regulation articulated by USAID for withholding this information
from public scrutiny, SIGAR will publish this audit report in full.
USAID’s comments on our report, and our detailed response to them, are included in Appendix XVI. USAID also
provided technical comments on our draft report, which we incorporated, as appropriate.




54   Id. (emphasis added).
55 Memorandum from John P. Fitzpatrick, Director, Controlled Unclassified Information Office, National Archives and

Records Administration, and Melanie Ann Pustay, Director, Office of Information Policy, U.S. Department of Justice, to
Senior Agency Officials for Executive Order No. 13556, “Controlled Unclassified Information“ (November 22, 2011).
56   Id.
57Presidential Memorandum for Heads of Executive Departments and Agencies Concerning the Freedom of Information
Act, 74 Fed. Reg. 4,683 (Jan. 21, 2009).

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                               Page 20
APPENDIX I - SCOPE AND METHODOLOGY

This review examined the U.S. Agency for International Development’s (USAID) process for conducting and
using ministerial assessments when awarding direct bilateral assistance to the Afghan government. We
focused specifically on Ernst & Young’s and KPMG’s public financial management assessments of 16
ministries completed from January 2011 to August 2013 under contracts with USAID, and USAID’s mission for
Afghanistan’s (USAID/Afghanistan) internal risk reviews of seven of those ministries. The objectives of this
audit were to (1) assess the extent to which Ernst & Young and KPMG adhered to USAID contract requirements
when conducting the ministry assessments, (2) describe the assessment findings and their conclusions about
the ability of the Afghan ministries to manage U.S. direct assistance funds and analyze how USAID has used, or
plans to use, the assessments to help inform its assistance to the Afghan government, and (3) examine the
Department of State’s fiscal year 2010 and fiscal year 2011 certifications and USAID’s FY 2012 notification to
Congress, pursuant to statute. We did not examine the implementation of USAID-funded direct assistance
programs, assess the effectiveness of USAID’s methods for safeguarding U.S. direct assistance funds, or
determine whether fraud and misuse of funds existed within these programs.
To assess the extent to which Ernst & Young and KPMG adhered to USAID contract requirements when
conducting the ministry assessments, we analyzed all contracts and final reports for the 16 ministries the
contractors assessed:
     1. Afghanistan Independent Human Rights                           8. Ministry of Economy (MOEC)
        Commission (AIHRC)                                             9. Ministry of Finance (MOF)
     2. Da Afghanistan Breshna Sherkat (DABS)                          10. Ministry of Higher Education (MOHE)
     3. Independent Administrative Reform and                          11. Ministry of Information and Culture (MOIC)
        Civil Service Commission (IARCSC)
                                                                       12. Ministry of Mines and Petroleum (MOMP)
     4. Ministry of Agriculture, Irrigation, and
                                                                       13. Ministry of Public Health (MOPH)
        Livestock (MAIL)
                                                                       14. Ministry of Public Works (MOPW)
     5. Ministry of Communication and
        Information Technology (MOCIT)                                 15. Ministry of Rural Rehabilitation and
                                                                           Development (MRRD)
     6. Ministry of Education (MOE)
                                                                       16. Ministry of Transport and Civil Aviation
     7. Ministry of Energy and Water (MEW)
                                                                           (MOTCA)
We reviewed completed public financial management risk assessment framework checklists, risk assessment
checklists, and control environment checklists. We reviewed the contractors’ working papers, including draft
reports, internal control testing documentation, and correspondence with the ministries and USAID. We
reviewed USAID’s contractor performance assessment reports for Ernst & Young and KPMG, as well as
correspondence between the agency and the contractors. We also reviewed the USAID Office of Inspector
General’s November 2010 report on pre-award ministerial assessments for direct assistance in Afghanistan,
and compared the associated recommendations with actions USAID had taken since the issuance of that
report.58 We reviewed prior SIGAR work on DABS59 and USAID’s direct assistance to MOPH.60 We obtained
answers to various questions on contract monitoring from USAID/Afghanistan. In addition, we interviewed
officials with USAID/Afghanistan’s Office of Financial Management, Ernst & Young, and KPMG.



58USAID Office of Inspector General, Review of USAID/Afghanistan’s Ministerial Assessment Process, F-306-11-001-S,
November 6, 2010.
59 SIGAR Audit 13-7, Afghanistan’s National Power Utility: Commercialization Efforts Challenged by Expiring Subsidy and

Poor USFOR-A and USAID Project Management, April 18, 2013, and SIGAR 14-7-AL on Kajaki Dam Direct Assistance
Oversight Provisions, December 31, 2013.
60SIGAR Audit 13-17, Health Services in Afghanistan: USAID Continues Providing Millions of Dollars to the Ministry of
Public Health despite the Risk of Misuse of Funds, September 5, 2013.

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                             Page 21
       To identify the assessment findings and their conclusions about the ability of the Afghan ministries to manage
       U.S. funds, we analyzed Ernst & Young’s and KPMG’s public financial management assessment reports for the
       16 identified ministries. We also analyzed USAID/Afghanistan’s risk reviews for DABS, MAIL, MOCIT, MOE,
       MOF, MOMP, and MOPH. We transposed data from the 16 assessments and seven risk reviews to create Excel
       databases of all the recommendations and risk mitigation measures. We then classified each recommendation
       and measure into one of ten themes:
           1.   Strategic planning                                        6.    Information technology
           2.   Procurement                                               7.    Transparency
           3.   Lack of legal advisors                                    8.    Asset and cash management
           4.   Staffing                                                  9.    Financial records and revenue
           5.   Auditing, evaluation, and monitoring                      10.   Budgeting
When we identified a recommendation for monitoring within one of the themes, we classified the recommendation
under the auditing, evaluation, and monitoring theme. We used this information to compare themes across the 16
contracted public financial management assessments and the seven USAID risk reviews. We analyzed
recommendations, rather than key findings, because recommendations present both problems and methods for
addressing these problems with a greater level of detail about each issue, allowing more accuracy when identifying
common themes. In addition, we attempted to interview officials from each ministry for which USAID/Afghanistan
had completed a risk review. We interviewed officials with DABS, MAIL, MOF, and MOMP; the security environment
during our fieldwork in Kabul, Afghanistan prevented us from conducting interviews with officials from MOPH,
MOCIT, and MOE. We also interviewed officials from USAID/Afghanistan’s Office of Financial Management.
To analyze how USAID has used, or plans to use, the ministerial assessments in the context of providing direct
assistance to the Afghan government, we analyzed implementation letters between USAID/Afghanistan and DABS,
IARCSC, MAIL, MOCIT, MOE, MOF, MOMP, and MOPH for all eight active direct assistance programs. We created an
Excel spreadsheet of the conditions precedent and ongoing conditions from these letters for our analysis. Using
this data and the risk mitigation measures we transposed from the seven USAID/Afghanistan risk reviews, we
compared conditions precedent to the mitigation measures contained in the risk reviews to determine whether
USAID included the pre-disbursement mitigation measures in conditions precedent, ongoing conditions, or not at
all. One condition precedent or ongoing condition could incorporate multiple mitigation measures. In some cases it
was unclear if the mitigation measure was to be carried out by the condition precedent due to the vague wording of
the condition precedent. We also examined monitoring and evaluation plans for MAIL, MOCIT, MOE, MOF, and
MOPH. We obtained answers to questions about monitoring and evaluation plans, the risk assessment
frameworks, and conditions precedent from USAID. We also reviewed the Strategic Objective Grant agreements
between the U.S. and Afghan governments. We reviewed the December 21, 2010, memorandum of understanding
in support of goals, objectives, and mechanisms for effective assistance to Afghanistan between
USAID/Afghanistan and the Ministry of Finance, on behalf of the Afghan government. We analyzed data from USAID
on the current status of its direct assistance in Afghanistan. We reviewed USAID’s Automated Directives System
(ADS) 220: Use of Reliable Partner Country Systems for Direct Management and Implementation of Assistance,61
ADS 301 Responsibility for Procurement, ADS 305 Host Country Contracts, and the agency’s November 2012
waiver of ADS 220, as well as USAID/Afghanistan’s Mission Order 220.02: Implementation of Programs Using On-
Budget Assistance.62 We reviewed the U.S. Government Accountability Office’s July 2011 report on USAID’s
assistance in Afghanistan.63 In addition, we analyzed USAID/Afghanistan’s risk reviews and Approval of Use of
Partner Country Systems for DABS, MAIL, MOCIT, MOE, MOF, MOMP, and MOPH. We also reviewed memoranda of
USAID’s reviews of conditions precedent for IARCSC, MAIL, MOE, and MOMP. In addition, we interviewed USAID
headquarters officials from the Office of Afghanistan and Pakistan Affairs and the Chief Financial Officer’s Global
Partner Country Systems Risk Assessment Team. We also interviewed USAID/Afghanistan officials from the Office

61   USAID established ADS 220 in August 2011 and updated it in March 2012.
62   Mission Order 220.02 was approved November 19, 2012.
63U.S. Government Accountability Office, Actions Needed to Improve Accountability of U.S Assistance to Afghanistan
Government, GAO-11-710, July 20, 2011.

       SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                         Page 22
of Financial Management and Office of Program and Project Development. We also met with USAID officials
designated as on-budget monitors for active programs at DABS, IARCSC, MAIL, MOE, MOF, and MOPH.
To examine the Department of State’s certifications and USAID’s notification to Congress, pursuant to annual
appropriations acts, we reviewed the fiscal year 2010 Consolidated Appropriations Act, the fiscal year 2011
Department of Defense and Full-Year Continuing Appropriations Act, and the fiscal year 2012 Consolidated
Appropriations Act.64 We reviewed the Secretary of State certifications and memorandums of justification for fiscal
years 2010 and 2011 for providing Economic Support Funds and Global Health and Child Survival Funds directly to
the Afghan government. We reviewed USAID’s November 2012 notification to Congress of the agency’s intent to
obligate fiscal year 2012 Economic Support Funds and Global Health Programs Funds for direct assistance to the
Afghan government. We compared the dates and findings of Ernst & Young and KPMG’s public financial
management assessments and USAID/Afghanistan’s internal risk reviews to what the Secretary of State and USAID
provided Congress in their 2011 certification and 2012 notification, respectively. We also sent inquires about what
assessments USAID provided to the House of Representatives Committee on Oversight and Government Reform’s
majority staff. In addition, we interviewed USAID headquarters officials from the Office of Afghanistan and Pakistan
Affairs.
We did not use or rely on computer-processed data for the purposes of the audit objectives. With respect to internal
controls, we reviewed ADS 220 to determine the extent to which the agency complied with its own policy directives
and required procedures for direct assistance. We also reviewed Ernst & Young’s and KMPG’s compliance with the
terms of their contracts with USAID to conduct the public financial management assessments, as well as USAID’s
compliance with congressional requirements for direct assistance. The results of our assessment are included in
the body of this report.
We conducted work in Washington, D.C. and Kabul, Afghanistan, from April 2013 to January 2014, in accordance
with generally accepted government auditing standards. These standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives. The audit was conducted by the Office of Special Inspector General
for Afghanistan Reconstruction under the authority of Public Law No. 110-181, as amended, and the Inspector
General Act of 1978, as amended.




64Consolidated Appropriations Act, 2010, Pub. L. No. 111-117, 123 Stat. 3034, 3329 (2009), Department of Defense and Full-
Year Continuing Appropriations Act, 2011, Pub. L. No. 112-10, § 2121(b), 125 Stat. 38, 184 (2011); Consolidated
Appropriations Act, 2012, Pub. L. No. 112-74, § 7031(a), 125 Stat. 786, 1209-10 (2011).

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                        Page 23
APPENDIX II - ADDITIONAL INFORMATION ON USAID’S DIRECT ASSISTANCE
FUNDING, REQUIREMENTS, AND MINISTRY ASSESSMENTS

On-budget assistance became an international focus in the early 2000s, when countries from the Organization for
Economic Co-operation and Development, including the United States, and the organization’s Development Co-
operation Directorate met with developing nations to discuss ways to increase the effectiveness of foreign aid.
These meetings culminated in the Paris Declaration on Aid Effectiveness, signed in March 2005, whereby countries
pledged to make changes in the way they give and receive foreign assistance.65 The Paris Declaration emphasizes
on-budget assistance and states that successful development depends largely on a host government’s capacity to
implement policies and manage public resources through its own institutions and systems.66 At the Paris
conference, donors agreed to use host country systems as the preferred option for their aid programs.
At the 2010 London Conference, the United States and other members of the international community stated their
commitment to providing 50 percent of development aid to Afghanistan through on-budget assistance and
reaffirmed this commitment at the 2010 Kabul and 2012 Tokyo Conferences. The U.S. Agency for International
Development’s (USAID) Performance Management Plan and its 2013 progress report, USAID Forward, both
reiterate the U.S. government’s intent to provide more than 50 percent of its assistance through Afghan
government systems.
In line with these commitments, a major component of the U.S. government’s approach to reconstruction in
Afghanistan involves supporting the Afghan government, as appropriate, so it can take increasing ownership for
development and sustain the gains made over the past decade. On-budget assistance to the Afghan government
can encompass several types of funding mechanisms, including donations to multi-donor trust funds, direct budget
support, and direct assistance. USAID officials stated that the agency does not award direct budget support, which
it defines as “funds provided directly to a foreign government to be used by that government at its discretion and
without further U.S. oversight.” Instead, USAID awards on-budget assistance in Afghanistan exclusively through
donations to multi-donor trust funds and direct assistance agreements. Direct assistance is aid that the agency
implements through bilateral agreements with an Afghan government entity and under national arrangements
covering public financial management systems at both national and ministerial or sectoral levels. Direct assistance
includes host country contracting and government-to-government assistance.67
When USAID first committed in 2005 to increasing the amount of on-budget assistance it planned to provide the
Afghan government, the USAID Mission for Afghanistan (USAID/Afghanistan) used host country contracting, which
is one method USAID uses to finance and implement projects.68 USAID used host country contracting for direct
assistance agreements for only two programs—one with the Ministry of Public Health and one with the Ministry of
Communication and Information Technology.
A February 2013 report commissioned by the German Federal Ministry for Economic Cooperation and
Development, provided to us by USAID officials, shows that although only 11 percent of 2011, U.S. government
development aid was given as on-budget assistance to the Afghan government, USAID’s direct assistance


65   The governments of the United States and Afghanistan have agreed to adhere to the Paris Declaration.
66The Paris Declaration on Aid Effectiveness, Organization for Economic Cooperation and Development (2006). Signatories of
the Paris Declaration reaffirmed and strengthened the commitments of that declaration in September 2008 (see The Accra
Agenda for Action, Organization for Economic Cooperation and Development (2008).
67We do not include funds USAID contributes to the Afghanistan Reconstruction Trust Fund in this review. The World Bank, as
the fund’s administrator, serves as an intermediary for USAID and other donors by disbursing money from the fund directly to
the Afghan government and overseeing its use. We have previously reported on the World Bank’s and Afghan government’s
ability to monitor and account for U.S. and donor funds contributed to the fund (see SIGAR Audit-11-14, The World Bank and the
Afghan Government Have Established Mechanisms to Monitor and Account for Funds Contributed to the Afghanistan
Reconstruction Trust Fund, but Some Limitations and Challenges Should Be Addressed, July 22, 2011).
68 USAID Automated Directives System 301 Procurement Responsibilities and Automated Directives System 305 Host Country

Contracts. USAID’s host country contracting policies require reviews of all recipient ministries’ procurement systems.

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                            Page 24
  obligations have been increasing.69 For example, from 2010 to 2011 USAID’s direct assistance obligations
  increased by 200 percent—from $144 million to $434.7 million.70 As of August 2013, USAID had obligated almost
  $659 million to seven ministries for eight active direct assistance programs, and planned to commit an additional
  $237 million to these programs.71 The agency has committed another $780.7 million for 10 planned programs, for
  a total of 18 active and planned direct assistance programs.72 Table 1 lists all active USAID direct assistance
  programs. See appendix IV for a full list of the agency’s completed, active, and planned direct assistance programs.

 Table 1 - Active Direct Assistance Programs in Afghanistan, as of August 2013
                                                            Total Estimated                  Total                  Total
         Ministry                    Program              Commitments(millions            Obligations          Disbursements
                                                                   $)                     (millions $)           (millions $)

 Da Afghanistan Breshna      Power Transmission                     $342.0                   $263.3                  $0.0
 Sherkat                     Expansion and
                             Connectivity
 Ministry of Public Health   Partnership Contracts for              236.5                     190.3                  141.3
                             Health Services

 Ministry of Mines and       Shebergan Gas                           90.0                      30.0                   0.0
 Petroleum                   Development Program
 Da Afghanistan Breshna      Kajaki Dam                              75.0                      75.0                   0.0
 Sherkat
 Ministry of Agriculture,    Agriculture Development                 75.0                      29.0                   9.0
 Irrigation, and Livestock   Fund
 Ministry of Finance         Civil Service Technical                 36.3                      36.3                  28.8
                             Assistance Program

 Ministry of Education       Basic Education and                     26.7                      20.0                  11.8
                             Literacy and Vocational
                             Education and Training,
                             textbook printing
 Independent                 USAID Grant Agreement                   15.0                      15.0                  10.8
 Administrative Reform       to Support Civil Service
 and Civil Service           Reform
 Commission

 TOTAL                                                              $896.4                   $658.9                 $201.7
Source: USAID/Afghanistan Office of Program and Project Development data, as of August 1, 2013.




  69 Ted Dinklo, Putting Aid on Budget: Final draft, ECORYS, February 2013. Putting Aid on Budget was commissioned by the

  German Federal Ministry for Economic Cooperation and Development.
  70 The Department of Defense also provides direct assistance to the Afghan government. We reported in December 2013 on our

  evaluation of the department’s assessments of the Ministries of Defense and Interior (see SIGAR-14-12-SP, Comprehensive
  Risk Assessments of MOD and MOI Financial Management Capacity Could Improve Oversight of Over $4 Billion In Direct
  Assistance Funding, December 3, 2013).
  71 USAID has disbursed an additional $25.2 million to five completed direct assistance programs and one suspended direct

  assistance program at five ministries. See appendix III for information on these completed and suspended direct assistance
  programs.
  72According to USAID’s ADS Glossary, an obligation is a legal liability of the government for the payment of funds for specific
  goods or services ordered or received. It includes a range of transactions, such as contracts, grants, and loans. In contrast, a
  commitment is an administrative reservation of funds in anticipation of their obligation.

  SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                                 Page 25
Prior Assessments of Afghan Ministries and Requirements for USAID’s Direct
Assistance to the Afghan Government
USAID and the government of Afghanistan signed a memorandum of understanding in December 2010 in support
of the goals, objectives, and mechanisms for effective assistance to Afghanistan. The memorandum of
understanding focused on maximizing opportunities presented by USAID-funded assistance to increase capacity,
institutional growth, and public ownership of the development process in Afghanistan. The memorandum also laid
out 13 financial requirements to ensure that direct assistance funds are used as intended. For example, the
requirements specified that the Afghan government return unspent funds to USAID, grant access rights to USAID
for any special bank accounts established for direct assistance programs, and maintain accounting records in
accordance with agreed upon standards for 3 years after the last disbursement. Additionally, the memorandum
required that the Afghan government work with USAID to both design satisfactory responses to recommendations
by USAID for any pre-award assessments and to establish a monitoring and evaluation plan specific to each activity
for which direct assistance funds will be used. Furthermore, there are also requirements that USAID reserve the
right to suspend or terminate a direct assistance funded activity or obtain a refund should terms of the activity be
breached, to carry out third party evaluations of direct assistance activities, and to only release funds when
adequate supporting documentation is submitted to USAID.73
At about the same time USAID signed the memorandum of understanding with the Afghan government, USAID’s
Office of Inspector General conducted an audit of USAID/Afghanistan’s assessments of Afghan ministries.74 That
audit reviewed eight assessments of six ministries that USAID/Afghanistan completed between 2007 and 2010.
USAID’s Inspector General found weaknesses in USAID/Afghanistan’s assessment process, including limited
internal control testing and a lack of program-level information in the assessments. The Inspector General also
proposed ways to strengthen the assessment process. Specifically, the Inspector General recommended that the
mission implement policies, procedures, and practices that would provide assurance that significant vulnerabilities
in ministries would be identified during the assessment process.75
USAID’s Office of Inspector General also recommended that the mission implement 10 changes to the statements
of work for the public financial management assessments, including more stringent reporting requirements.76
USAID/Afghanistan implemented 8 of the 10 recommended changes for contracts signed since January 2011.
Table 2 outlines the USAID Office of Inspector General’s recommended changes and indicates whether
USAID/Afghanistan implemented each change.




73This audit did not assess USAID’s compliance with all of these requirements. We initiated a separate audit in June 2013 to
evaluate the process by which U.S. agencies provide direct assistance funds to the Afghan government and the internal controls
put in place to safeguard these funds, to include many of the requirements included in the December 2010 memorandum of
understanding.
74 See USAID Office of Inspector General, Review of USAID/Afghanistan’s Ministerial Assessment Process, F-306-11-001-S.

November 6, 2010. When the USAID Office of Inspector General issued its report, there was no agency-wide guidance on direct
assistance. The Inspector General’s report reviewed a variety of USAID’s prior assessments of Afghan ministries, including
public financial management assessments, direct assistance analyses, and reviews of procurement systems for host country
contracts. However, the recommendations focused on USAID/Afghanistan’s future ministerial assessments, which, as defined
through agency policy, are primarily the public financial management assessments.
75 In July 2011, the U.S. Government Accountability Office recommended that USAID establish and implement a policy requiring
risk assessments before awarding direct assistance funds to the Afghan government (see U.S. Government Accountability
Office, Actions Needed to Improve Accountability of U.S Assistance to Afghanistan Government, GAO-11-710 July 20, 2011.)
76   See USAID Office of Inspector General, F-306-11-001-S.

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                            Page 26
Table 2 - USAID Office of Inspector General Recommended Contract Changes




Source: SIGAR analysis of USAID Office of Inspector General’s 2010 audit report F-306-11-001-S.

In 2011, USAID issued Automated Directives System (ADS) 220: Use of Reliable Partner Country Systems for Direct
Management and Implementation of Assistance to provide internal policy directives and required procedures for
managing and implementing direct assistance.77 ADS 220 established the Public Financial Management Risk
Assessment Framework─a multi-stage, risk-based methodology that USAID uses to assess partner country
systems’ suitability for receiving direct assistance. Stage I of this framework is a macro-level analysis of the risk
environment of the partner country that provides a USAID mission with a high-level perspective of the fiduciary risks
associated with use of the partner country’s systems. In Stage 1, a USAID mission conducts a macro-level review,
and, depending on a country’s “democracy threshold,” a democracy and governance review which “seeks to
determine whether a [direct assistance] investment could empower a government at the expense of its people.”
The mission determines if there is an unacceptable or unmitigated country-level fiduciary risk, political constraints,
or other insurmountable barriers to the use of partner country systems. During this stage, the mission reviews
governance structures and helps inform the decision as to whether the mission should continue considering the
country for direct assistance.
If, after analyzing the results of the Stage I macro-level review, the USAID mission decides to continue pursuing
direct assistance, it then conducts a Stage 2 assessment. This assessment is an in-depth ministry-level review
undertaken to gain a detailed understanding of an individual ministry. The Stage 2 assessment concludes with a
determination by the USAID mission of whether that ministry is capable of handling U.S. direct assistance funding.
If the USAID mission concludes that a ministry is capable of handling direct assistance funding, then the USAID
mission grants an “Approval of Use of Partner Country Systems” (AUPCS). An AUPCS constitutes formal approval for
the use of a partner country’s public financial management system, but is not an agreement to actually disburse
funds.
Once the ministry has been approved to receive direct assistance, the USAID mission then completes the
remaining stages of ADS 220’s public financial management risk assessment framework. During Stages 3, 4, and
5, the mission determines an appropriate program design; negotiates and prepares a funding agreement with the
partner country; and implements, monitors, and evaluates the direct assistance program. USAID’s guidance also
calls for additional protections to be implemented during these stages in order to safeguard funds, such as
creating separate bank accounts to which USAID has full access and joint control with the Afghan government and
maintaining audit rights and the authority to recover ineligible expenditures.
In addition to USAID’s internal requirements defined in ADS 220, USAID is required to comply with congressional
requirements for direct assistance. In fiscal year 2010, Congress required the Secretary of State to certify that the
U.S. and Afghan governments have agreed to clear and achievable goals and objectives for the use of direct

77   USAID finalized ADS 220 in August 2011 and updated it in March 2012.

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                     Page 27
assistance, and have established mechanisms to ensure funds are used for their intended purpose.78 In fiscal year
2011, Congress added the requirement that the Secretary of State certify that “the relevant implementing [Afghan
ministries] have been assessed and considered qualified to manage such funds.”
In fiscal year 2012, Congress further specified that funds may be made available for direct assistance “only if—
                    (A) each implementing agency or ministry to receive assistance has been assessed and is
                        considered to have the systems required to manage such assistance and any identified
                        vulnerabilities or weaknesses of such agency or ministry have been assessed; and

                         (i)      the recipient agency or ministry employs and utilizes staff with the necessary
                                  technical, financial, and management capabilities;
                         (ii)     the recipient agency or ministry has adopted competitive procurement policies and
                                  systems;
                         (iii)    effective monitoring and evaluation systems are in place to ensure that such
                                  assistance is used for its intended purposes; and
                         (iv)     no level of acceptable fraud is assumed.”79
The fiscal year 2012 limitation also conditioned the availability of funds for direct assistance on the Government of
the United States and the government of Afghanistan agreeing, in writing: “(i) on clear and achievable objectives for
the use of such assistance; and (ii) that such assistance should be made on a cost-reimbursable basis.”80
The 2012 limitation omitted the condition in fiscal years 2010 and 2011 that funds would only be available if
certification was made by the Secretary of State. Instead, the 2012 limitation required that no funds may be made
available for direct assistance “without prior consultation with, and notification to, the Committees on
Appropriations.”81 The notification required under the 2012 limitation must “contain an explanation of how the
proposed activity meets the [assessment requirements listed above].”82 The limitations placed on the availability of
funds for direct assistance in fiscal year 2012 are only applicable to direct assistance “in excess of $10,000,000
and all funds available for cash transfer, budget support, and cash payments to individuals.”83 Therefore, under the
2012 limitation USAID is required to directly notify the Committees on Appropriations prior to making funds in
excess of $10 million available for direct assistance to Afghanistan.
Table 3 shows the congressional requirements for fiscal years 2010 through 2012.




78   Consolidated Appropriations Act, 2010, Pub. L. No. 111-117, 123 Stat. 3034, 3329 (2009).
79   Pub. L. No. 112-74, § 7031(a), 125 Stat. 786, 1209-10 (2011).
80   Pub. L. No. 112-74, § 7031(a), 125 Stat. 786, 1209-10 (2011).
81   Pub. L. No. 112-74, § 7031(a), 125 Stat. 786, 1209-10 (2011).
82   Pub. L. No. 112-74, § 7031(a), 125 Stat. 786, 1209-10 (2011).
83   Pub. L. No. 112-74, § 7031(a), 125 Stat. 786, 1209-10 (2011).

SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                    Page 28
Table 3 - Congressional Requirements for the Use of Direct Assistance Funds in Afghanistan




Note: FY = fiscal year.
Source: Pub. L. No. 111-117, 123 Stat. 3034, 3329; Pub. L. No. 112-10 § 2121(b), 125 Stat. 38, 184; Pub. L. No. 112-74 §
7031(a), 125 Stat. 786, 1209-10.

USAID’s Ministry Assessments and Risk Review Processes
USAID has relied on different types of assessments and reviews to determine whether Afghan ministries have the
ability to receive and manage U.S. direct assistance funds. Table 4 shows a breakdown of the different types of
assessments completed for Afghan ministries, including who completed the assessments and their purposes.
Table 4 - Ministry Assessment Descriptions
      Completed by                     Assessment                                          Description
                                                                     Focused on reviews of procurement systems for host country
                                                                      contracts, financial management, and direct assistance
                              Assessments conducted prior to          analyses.
USAID                         the 2010 USAID Inspector               USAID Inspector General concluded that these assessments
                              General Report                          were unreliable and recommended improvements.
                                                                     USAID stopped conducting these assessments in 2010.
                                                                     Began in 2010, after the USAID Inspector General report,
                                                                      and are still ongoing.
                              Public financial management            Review ministries' ability to manage and administer U.S.
Contractors
                              assessments                             funds.
                                                                     16 completed as of August 2013, with additional
                                                                      assessments currently being conducted.
                                                                     Informed by the public financial management assessments.
                                                                     Identify risks within a ministry, suggest risk mitigation
USAID                         Risk reviews
                                                                      measures, and conclude whether USAID can rely on the
                                                                      ministry to manage donor funds.

Source: SIGAR analysis of USAID’s public financial management assessments, risk reviews, and other Afghan ministerial
assessments.



SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                           Page 29
Following the USAID Office of Inspector General’s 2010 finding that USAID’s assessments were not sufficient to
detect vulnerabilities, USAID/Afghanistan issued contracts for third-party firms to conduct public financial
management assessments of Afghan ministries’ abilities to manage and administer direct assistance funds.
Between January 2011 and August 2013, Ernst & Young and KPMG completed public financial management
assessments of 16 Afghan ministries under contracts with USAID/Afghanistan.
Using these assessments, USAID/Afghanistan then conducted internal risk reviews of seven ministries in order to
inform its decision of whether to provide direct assistance funds to those ministries. These risk reviews include the
mission’s conclusions and interpretations of the Ernst & Young and KPMG public financial management
assessments. The risk reviews also identify major risks and mitigating strategies deemed necessary for ensuring
that the ministries reviewed are able to manage U.S. direct assistance. Table 5 outlines which ministries were
assessed and by whom.




SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                    Page 30
 Table 5 - Contractor Public Financial Management Assessments and USAID Risk Reviews, as of August 2013

                                 Active or Planned         Year
                                 Direct Assistance      Assessment                               USAID Risk      Year Review
 Ministry                           Program(s)          Completed             Contractor          Review          Completed

 Da Afghanistan Breshna
 Sherkat                                 Yes            2013             Ernst & Young               Yes             2012

 Ministry of Mines and
 Petroleum                               Yes            2011             Ernst & Young               Yes             2012

 Ministry of Agriculture,
 Irrigation and Livestock                Yes            2012             Ernst & Young               Yes             2012

 Ministry of Public Health               Yes            2012             Ernst & Young               Yes             2012

 Ministry of Education                   Yes            2011             Ernst & Young               Yes             2013

 Ministry of Finance                     Yes            2013             Ernst & Young               Yes             2013

 Ministry of Communication
 and Information Technology              Yes            2012             KPMG                        Yes             2013

 Independent Administrative
 Reform and Civil Service
 Commission                              Yes            2011             Ernst & Young                No             N/A

 Ministry of Justice                     Yes            In Progress      Ernst & Young                No             N/A

 Supreme Court                           Yes            In Progress      KPMG                         No             N/A

 Afghanistan Independent
 Human Rights Commission                 No             2011             KPMG                         No             N/A

 Ministry of Public Works                No             2012             Ernst & Young                No             N/A

 Ministry of Information and
 Culture                                 No             2013             Ernst & Young                No             N/A

 Ministry of Economy                     No             2013             Ernst & Young                No             N/A

 Ministry of Higher Education            No             2013             Ernst & Young                No             N/A

 Ministry of Transport and
 Civil Aviation                          No             2011             KPMG                         No             N/A

 Ministry of Energy and Water            No             2013             KPMG                         No             N/A

 Ministry of Rural
 Rehabilitation and
 Development                             No             2013             KPMG                         No             N/A

Note: PricewaterhouseCoopers completed an assessment of the Independent Directorate of Local Governance in January
2011; however, the format of this assessment varied from the others, and we did not include it in our analysis.
Source: SIGAR analysis of USAID public financial management assessments and risk reviews.



    SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                       Page 31
APPENDIX III - LIST OF USAID DIRECT ASSISTANCE TO AFGHANISTAN SINCE 2004

The U.S. Agency for International Development (USAID) has obligated $688 million and disbursed $227 million in
direct assistance funds to Afghan government ministries since 2004. Six programs have been completed or
suspended, but the majority of obligated funds stem from on-going programs. USAID currently has eight active
programs. Although USAID has obligated most of the estimated commitment for these programs, there is still an
outstanding estimated commitment of $237.6 million in upcoming years. In addition, USAID has 10 planned
programs to which it plans to commitment $780.7 million in upcoming years. Table 6 provides an overview of each
direct assistance program, including its status and total estimated commitments, obligations, and disbursements
as of August 1, 2013.

 Table 6 - USAID Direct Assistance in Afghanistan since 2004, as of August 2013
                                                                                Total
                                                                                               Total            Total
                                                                              Estimated
        Ministry                        Program                  Status                     Obligations    Disbursements
                                                                            Commitments
                                                                                            (millions $)     (millions $)
                                                                             (millions $)

 Independent
 Directorate of Local
 Governance                  District Delivery Program          suspended        N/A             4.9             2.3

 Ministry of
 Communication and           District Communication
 Information Technology      Network                            completed        N/A            14.2             14.2

 Ministry of Transport       Regional Airports Rehabilitation
 and Civil Aviation          Program                            completed        N/A             6.0             4.8


 Ministry of Finance         Salary Support Program             completed        N/A             1.7             1.7

 National Independent
 Commission for Peace        Program Tahkim-e-Solh - Peace
 and Reconciliation          and Reconciliation Program         completed        N/A             1.3             1.2


 Ministry of                 District Communication
 Communication and           Network, Policy Capacity
 Information Technology      Initiative                         completed        N/A             1.0             1.0

 Da Afghanistan Breshna      Power Transmission Expansion
 Sherkat                     and Connectivity                   active           342.0          263.3            0.0


                             Partnership Contracts for
 Ministry of Public Health   Health Services                    active          236.5           190.3           141.3


 Ministry of Mines and       Shebergan Gas Development
 Petroleum                   Program                            active           90.0           30.0             0.0


 Da Afghanistan Breshna
 Sherkat                     Kajaki Dam                         active           75.0           75.0             0.0


SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                       Page 32
 Table 6 - USAID Direct Assistance in Afghanistan since 2004, as of August 2013
                                                                          Total
                                                                                         Total            Total
                                                                        Estimated
         Ministry                       Program              Status                   Obligations    Disbursements
                                                                      Commitments
                                                                                      (millions $)     (millions $)
                                                                       (millions $)

 Ministry of Agriculture,
 Irrigation, and Livestock   Agriculture Development Fund   active         75.0           29.0             9.0

                             Civil Service Technical
 Ministry of Finance         Assistance Program             active         36.3           36.3             28.8

                             Basic Education and Literacy
                             and Vocational Education and
 Ministry of Education       Training, textbook printing    active         26.7           20.0             11.8

 Independent
 Administrative Reform
 and Civil Service           USAID Grant Agreement to
 Commission                  Support Civil Service Reform   active         15.0           15.0             10.8

                             Integrated Health Services
                             Systems Strengthening
 Ministry of Public Health   Program                        planned       326.8            0.0             0.0

                             Basic Education and Literacy
                             and Vocational Education and
 Ministry of Education       Training                       planned       158.5            0.0             0.0


 Ministry of Agriculture,    Irrigation Watershed
 Irrigation, and Livestock   Management Program             planned        100.0           0.0             0.0

                             Afghanistan Workforce
 Ministry of Education       Development Program            planned        47.6            0.0             0.0


 Ministry of Mines and       Mining Investment and
 Petroleum                   Development for Afghanistan    planned        45.0            0.0             0.0


 Ministry of Agriculture,    Agriculture Research and
 Irrigation, and Livestock   Extension Development          planned        40.0            0.0             0.0


 Ministry of Justice         Rule of Law Program            planned        25.0            0.0             0.0

                             Rule of Law Institutions
 Supreme Court               Strengthening Program          planned        25.0            0.0             0.0

 Ministry of Agriculture,
 Irrigation, and Livestock   Land Reform in Afghanistan     planned         8.9            0.0             0.0




SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                 Page 33
 Table 6 - USAID Direct Assistance in Afghanistan since 2004, as of August 2013
                                                                                  Total
                                                                                                      Total              Total
                                                                                Estimated
         Ministry                       Program                   Status                           Obligations      Disbursements
                                                                              Commitments
                                                                                                   (millions $)       (millions $)
                                                                               (millions $)

 Ministry of
 Communication and
 Information Technology      E-Government Resource Center       planned               3.9                0.0                0.0


 TOTAL                                                                             $1,677.1            $688.0             $226.9
Source: USAID/Afghanistan Office of Program and Project Development data, as of August 1, 2013.
Note: USAID suspended the Independent Directorate of Local Governance’s District Delivery Program after the agency had
already disbursed$2.3 million. USAID’s Office of Inspector General is currently auditing this program. A USAID official stated that
USAID is awaiting audit findings to de-obligate funds. For the purposes of our report, we consider this program complete since
the agency is not currently obligating funds.




SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                                Page 34
 APPENDIX IV - ERNST & YOUNG AND KPMG CONTRACT REQUIREMENTS

 The statements of work for the U.S. Agency for International Development’s (USAID) contracts with Ernst & Young
 and KPMG to conduct the public financial management assessments required the contractors to comply with
 between 19 to 27 reporting requirements. USAID signed statements of work with Ernst & Young and KPMG from
 November 2010 through May 2012, and earlier contracts included fewer requirements. Figure 5 depicts the
 contract requirements for each ministry assessment. The requirement is green if the contractor met it, yellow if a
 requirement was not met for a justifiable reason, and red if a requirement was not met without a justifiable reason.
 A requirement is marked “N/A” if USAID did not require that particular requirement in the statement of work.

Figure 5 - Contract Requirements for Public Financial Management Assessments




Source: SIGAR analysis of USAID contracts with Ernst & Young and KPMG.



 SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                   Page 35
APPENDIX V - USAID RISK RATING MATRIX

Figure 6 shows how the U.S. Agency for International Development (USAID) assigns risk ratings based on potential
impact and probability of occurrence of an identified risk. The impact measures the severity of an adverse event
associated with the risk and is measured as negligible, marginal, serious, and catastrophic. Conversely, probability
measures the likelihood of the occurrence of the adverse event associated with the risk and is expressed as
remote, occasional, probable, and frequent. Combining impact and probability factors categorize risk clusters of
critical, high, medium and low categories. Although subjective, it is nonetheless the basis for the USAID’s risk
mitigation plan for a particular ministry.

         Figure 6 - USAID Risk Rating Matrix




         Source: USAID risk reviews.




SIGAR 14-32-AR/USAID Assessments of Afghan Ministries                                                    Page 36
APPENDIX VI - RISKS AND MITIGATION MEASURES IDENTIFIED IN USAID’S RISK
REVIEWS

Table 7 identifies the number of risks and corresponding mitigating measures the U.S. Agency for International
Development’s Mission for Afghanistan (USAID/Afghanistan) identified in its internal risk reviews of seven Afghan ministries.
These seven ministries all have active or planned direct assistance programs.


                Table 7 - Number of Risks and Mitigation Measures Identified in
                USAID/Afghanistan’s Risk Reviews
                                                                                               Number of
                                                                              Number of
                                             Ministry                                          Mitigation
                                                                                Risks
                                                                                               Measures

                 Ministry of Finance                                                    26               46

                 Ministry of Mines and Petroleum                                        16               33

                 Ministry of Public Health                                              14               55

                 Ministry of Communications and Information Technology                  13               56
                 Da Afghanistan Breshna Sherkat                                         12               62

                 Ministry of Education                                                  12               39

                 Ministry of Agriculture, Irrigation, and Livestock                     11               42

                 TOTAL                                                                 104              333
                Source: USAID internal risk reviews.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                              Page 37
APPENDIX VII - MINISTRY OF PUBLIC HEALTH OVERVIEW

                                                   The Ministry of Public Health (MOPH) is responsible for the healthcare of
Figure 7 - Assessment and Certification            all Afghans as guaranteed in the Constitution of Afghanistan. MOPH does
Timeline of MOPH                                   not directly implement health services; instead, it oversees the contracting
                                                   of a Basic Package of Health Services and an Essential Package of
                                                   Hospital Services through non-governmental organizations. Table 8
                                                   provides an overview of the U.S. Agency for International Development’s
                                                   (USAID) direct assistance programs and funding for MOPH, as of August
                                                   2013.

                                                        Table 8 - USAID’s Direct Assistance Programs and Funding for MOPH,
                                                        as of August 2013
                                                                                       Total
                                                                                                         Total            Total
                                                                                     Estimated
                                                          Program        Status                       Obligations    Disbursements
                                                                                   Commitments
                                                                                                      (millions $)     (millions $)
                                                                                    (millions $)

                                                        Partnership     active               236.5          190.3            141.3
                                                        Contracts for
                                                        Health
                                                        Services

                                                        Total Active                         236.5          190.3            141.3
                                                        Integrated      planned              326.8            0.0                 0.0
                                                        Health
                                                        Services
                                                        Systems
                                                        Strengthening
                                                        Program

                                                        Total                                326.8            0.0                 0.0
                                                        Planned
                                                        Source: USAID funding data, as of August 1, 2013.

                                                   Partnership Contracts for Health Services (Active)
                                                   The Partnership Contracts for Health Services are contracts with non-
                                                   governmental organizations to provide the Basic Package of Health
                                                   Services and the Essential Package of Hospital Services to the citizens of
                                                   Afghanistan. The program seeks to improve MOPH’s ability to contract
Source: SIGAR analysis of USAID public financial
management assessments, risk reviews, approval     these packages out and to assess contractor performance.
of use of partner country systems, and
congressional contact.                             Integrated Health Services Systems Strengthening Program (Planned)
The Integrated Health Services Systems Strengthening Program encourages participation in, and attempts to improve access
to, the Basic Package of Health Services and the Essential Package of Hospital Services. The Integrated Health Services
Systems Strengthening Program intends to strengthen the capacity of MOPH at the provincial level. The program will also
enhance MOPH’s ability to administer, plan, and procure necessary services.



SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                   Page 38
Summary of Assessment Conclusion and Results
Public Financial Management Assessment (Ernst & Young)
       MOPH should strengthen its Internal Audit Directorate.
       MOPH should enhance its information and communication technology capacity.
       MOPH should improve its controls related to payroll management.
       MOPH should improve its controls related to fixed asset management.
       MOPH should strengthen its procurement management controls.
Ernst & Young’s Conclusion: Material weaknesses identified in the report must be addressed as pre-award disbursement
conditions.

Risk Review (USAID)
       MOPH’s financial management and accounting system is not adequate to properly manage and account for donors’
        funds.
       MOPH’s internal controls are not adequate to manage donors’ funds.
       MOPH’s procurement management units do not have sufficient systems and management capacity to implement
        activities and manage donors’ funds.
       MOPH did not fully comply with Afghan procurement laws and regulations.
       MOPH’s internal control environment is not adequate to mitigate the risk of corruption and it is unclear if the
        ministry has the capacity to combat corruption.
       With only basic controls, such as comparing expenses to allotted budget, the MOPH public financial management
        system is weak and highly vulnerable to errors and misconduct.
       Due to the pervasive nature of the internal control weaknesses, MOPH is unable to adequately manage and
        safeguard donor funds against loss or misappropriations.
       Management’s lack of consistent commitment to program outcome could impact program results and put donor
        funds at risk.
USAID’s Conclusion: The U.S. government cannot rely on the MOPH’s systems operation and internal controls to manage
donor funds.

Summary of Conditions Precedent for MOPH Programs
Partnership Contracts for Health program: There are no conditions precedent for this program because this is a host country
contract and not subject to Automated Directives System 220: Use of Reliable Partner Country Systems for Direct
Management and Implementation of Assistance, which requires the use of conditions precedent.

Integrated Health Services Systems Strengthening Program: This is a planned program; no conditions precedent currently
exist.

Summary of Suggested Mitigation Measures USAID Identified for MOPH
The following table lists the risks USAID identified in its risk review of MOPH. Due to the Partnership Contracts for Health
program being funded as a host country contract there are no conditions precedent to compare the suggested mitigation
measures to.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                Page 39
Table 9 - USAID’s Stage 2 Suggested Risk Mitigation Measures for MOPH
                                                     Risk Mitigation Measures

Develop a policy which requires the Ministry to compare actual results to strategic plan

Prepare management Accounts that compares periodic actual results against budget

Submit quarterly management accounts to USAID which compares actual results against strategic plan

Establish an audit committee with an oversight responsibility over the Internal audit department

Provide relevant training to internal audit personnel

Develop a policy to include disaster recovery plan

Back up information technology systems regularly on the off site

Put information technology (IT) server under locked doors and provide access only to authorized personnel

Install fire extinguishers in the IT server room

Users of the information systems should have unique user ID and password to log into the system

Systems access should be clearly defined or restricted according to roles and functions

Segregate duties among accounting staff

Rotate assignments within the staff to ensure all staff know and understand different levels of responsibility

Instate computerized financial management system with in-built controls

Link the computerized financial management system used by MOPH to the AFMIS maintained by MOF

Submit audited financial statement to USAID

Develop a policy to ensure that all revenues accruing to MOPH have been properly accounted for

Deposit all cash receipts into the bank account without delay

Perform monthly reconciliation on the revenue account

Develop revenue projection and compare projections to actual receipts and investigate the differences

Pay all salaries through the banking system

Reconcile payroll for discrepancies on monthly basis

Modify the payroll system and include the option for reviewing the payroll exception and limit the rights of the users

Tag all fixed assets with an identification number

Update fixed assets register on regular basis to reflect: date of purchase , asset type, location, serial number, tagged number

Provide USAID a list of all fixed assets funded with USAID money

Develop clear organization policies, mission, and vision statements

Distribute copies of the policies to all employees



SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                             Page 40
Develop a plan to automate attendance system

Document time and attendance for all employees

Link employees pay benefits to the time and attendance register and reconcile regularly

Supervisors approval required for all time and attendance before salaries are paid to employees

Conduct compliance audit

Update employees code of conduct and distribute it to all staff

Conduct ethics training for all employees

Develop procedures for conducting exit interviews

Supervisors and employees clear on exit interview clearance forms

Retrieve all assets in the custody of the employees

Develop annual work objectives for all staff

Perform personal needs assessment to determine the areas of improvement

Develop written policies and procedures for the procurement process

Request OAA's involvement in all critical procurements

Obtain signed conflict of interest from personnel who are involved in the procurement processes

Develop a plan to introduce procurement reforms

Develop written policies and procedures for monitoring and evaluation

Convene regular audit committee meetings and document meeting minutes

Audit all USAID projects annually

Submit interim risk based audit reports to USAID

Conduct annual financial statement audit

Submit annual audited financial statement on USAID program funds

Conduct annual payroll audits

Conduct periodic inventory of fixed assets, possibly every six months

Conduct regular performance audit to include asset verification

Send monitoring and evaluation reports to the M&E Directorate at the head office and copies to the provincial offices

Submit copies of M&E reports to USAID

Source: SIGAR analysis of USAID risk reviews and implementation letters.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                   Page 41
APPENDIX VIII - MINISTRY OF AGRICULTURE, IRRIGATION, AND LIVESTOCK OVERVIEW

                                                   The Ministry of Agriculture, Irrigation, and Livestock’s (MAIL) mission is to
Figure 8 - Assessment and Certification            enhance Afghanistan’s agricultural economy. The ministry aims to increase
Timeline of MAIL                                   productivity and production, while improving resource management, physical
                                                   infrastructure, and developing agricultural markets. Table 9 provides an
                                                   overview of the U.S. Agency for International Development’s (USAID) direct
                                                   assistance programs and funding for MAIL, as of August 2013.


                                                      Table 10 - USAID’s Direct Assistance Programs and Funding for MAIL,
                                                      as of August 2013
                                                                                            Total
                                                                                                             Total           Total
                                                                                          Estimated
                                                            Program           Status                      Obligations    Disbursement
                                                                                        Commitments
                                                                                                          (millions $)    (millions $)
                                                                                         (millions $)

                                                       Agriculture
                                                                              active        75.0             29.0             9.0
                                                      Development Fund


                                                       Total Active                         75.0             29.0            9.0
                                                       Agriculture
                                                      Research and
                                                                              planned       40.0              0.0             0.0
                                                      Extension
                                                      Development

                                                       Irrigation Watershed
                                                      Management              planned       100.0             0.0             0.0
                                                      Program

                                                       Land Reform in
                                                                              planned        8.9              0.0             0.0
                                                      Afghanistan


                                                       Total Planned                       148.9              0.0            0.0
                                                      Source: USAID funding data, as of August 1, 2013.

                                                   Agricultural Development Fund (Active)
Source: SIGAR analysis of USAID public financial   The objective of the Agricultural Development Fund is to establish a credit
management assessments, risk reviews,              union for Afghan farmers and agri-businesses. USAID provides technical
approval of use of partner country systems, and    assistance and is one of the only sources of credit to farmers in Afghanistan.
congressional contact.
                                                   Agricultural Research and Extension Development (Planned)
The Agricultural Research and Extension Development program seeks to support private sector agri-business development.
The program focuses on public education and outreach, improved research infrastructure, training for technical staff
members, and providing research grants.

Irrigation and Watershed Management Program (Planned)
The Irrigation and Watershed Management Program is designed to improve water governance to reduce conflict. The
program also aims to improve irrigation infrastructure to reduce water loss and on-farm water demands.


SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                       Page 42
Land Reform in Afghanistan Program (Planned)
The Land Reform in Afghanistan program intends to formalize land right holdings in Afghanistan by formalizing many
informal settlements and their accompanying land rights. The program also looks to provide assistance to the Afghanistan
Land Office, the Afghanistan Geodesy and Cartography Head Office, and the Ministry of Urban Development as these offices
work to draft, update, and amend laws for land use and management.


Summary of Assessment Conclusions and Results
Public Financial Management Assessment (Ernst & Young)
       MAIL should strengthen its Internal Audit Department.
       MAIL should strengthen its Finance department.
       MAIL should improve its controls related to fixed asset management.
       MAIL should strengthen its program monitoring.

Ernst & Young’s Conclusion: Material weaknesses indentified in the report must be addressed as pre-award disbursement
conditions.

Risk Review (USAID)
       MAIL’s financial management/accounting system is not adequate to properly manage and account for donors’
        funds.
       MAIL does not have the financial management capacity to manage proposed activities.
       MAIL’s internal controls are not adequate to manage donors’ funds.
       MAIL’s procurement management unit does not have sufficient systems and management capacity to implement
        activities and manage donors’ funds.
       MAIL’s internal controls environment is not adequate to mitigate the risk of corruption and it is unclear if there is the
        will to combat corruption.
       The lack of attention to basic employment procedures, and the unwillingness or inability to enforce the most
        ordinary ethical conducts in the organization expose donors’ fund[s] to cronyism and nepotism.
USAID’s Conclusion: The U.S. government cannot rely on MAIL’s systems operation and internal controls to manage donor
funds.

Summary of Conditions Precedent for MAIL Programs
Agricultural Development Fund: Of the 42 mitigating measures that
USAID/Afghanistan identified in its risk review of MAIL, the mission
only listed one of these measures—the requirement to transfer all
assistance funding into an escrow bank account—as a pre-award
condition precedent in the fund implementation letter. Three more
mitigations may have been implemented, but the conditions
precedent are too vague and could allow for the mitigation
measure to not be fully implemented.
Agricultural Research and Extension Development: This is a planned program; no conditions precedent currently exist.
Irrigation and Watershed Management Program: This is a planned program; no conditions precedent currently exist.
Land Reform in Afghanistan Program: This is a planned program; no conditions precedent currently exist.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                Page 43
Summary of Suggested Mitigation Measures USAID Identified for MAIL
The following table lists the risks USAID identified in its risk review of MAIL and identifies whether each risk was included in
the program implementation letter as a condition precedent, an ongoing condition, or not included in the implementation
letter at all.

Table 11 - USAID’s Stage 2 Suggested Risk Mitigation Measures for MAIL

                             Risk Mitigation Measures                                     Met   Unclear      Not Met

Develop clear terms of reference for the leadership and evaluation committee for the
land leases.

Distribute copies of the terms of reference to each member of the leadership and
evaluation committee.

Transfer all assistance funding into an escrow bank account

De-emphasize Internal Audit on the payment process.

Develop risk base audit approach in the annual audit program

Develop a standard audit program and a checklist to serve as a guide for all audit
engagements.

Submit interim risk based audit reports to USAID

Develop a ministry wide information Communication Technology system policy to
include disaster recovery plan.

Develop unique user ID and password for all users of the information systems

Define and restrict systems access to staff according to their roles and functions.

Purchase licensed software for the Ministries IT systems

Develop a policy for accounting for revenue.

Prepare monthly reconciliations on revenue accounts.

Prepare monthly receivable aging analysis report

Review and approve monthly receivable aging report.

tag all fixed assets with an identification number.

Update fixed assets register on regular basis to reflect: date of purchase, asset type,
location , serial number, tagged number.

Develop and document a formal succession plan for staff and projects.

Establish a training committee to review and plan staff training needs.

Develop training plan for each member of staff


SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                 Page 44
Develop a policy for recruitment

Verify that adequate reference checks have been made on every prospective employee
and properly documented

Conduct annual ethics training for all employees

Develop annual work ob objectives for all employees

Document recruitment disclosure forms for senior management and HR staffs

Document time and attendance for all employees.

Link employees pay benefits to the time and attendance register and reconcile
regularly

Conduct compliance audit

Develop written policies and procedures for the procurement processes

Request OAA's involvement in all critical procurements.

Obtain signed conflict of interest from personnel who are involved in the procurement
processes

Develop a plan to introduce procurement reforms.

Develop written policies and procedures for monitoring and evaluation and
disseminate notices to all staff

Back-up information technology systems regularly on and off site.

Audit all USAID projects annually.

Conduct periodic audits on revenue accounts

Conduct periodic inventor of fixed assets, possibly every six months.

Submit regular project reports to USAID

Update if applicable, employee security checks periodically

Update employees code of conduct regularly

Send monitoring and evaluation reports to the M&E directorate at the head office and
copies to the provincial offices

Submit copies of M&E reports to USAID.


Source: SIGAR analysis of USAID risk reviews and implementation letters.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                   Page 45
APPENDIX IX - MINISTRY OF MINES AND PETROLEUM OVERVIEW

                                                     The Ministry of Mines and Petroleum (MOMP) promotes the development
Figure 9 - Assessment and Certification              of market-based mineral and hydrocarbon sectors, and encourages and
Timeline of MOMP                                     protects private capital investments into these enterprises, as stated in
                                                     the Afghanistan Constitution and the Afghan National Development
                                                     Strategy. Table 10 provides an overview of the U.S. Agency for
                                                     International Development’s (USAID) direct assistance programs and
                                                     funding for MOMP, as of August 2013.



                                                      Table 12 - USAID’s Direct Assistance Programs and Funding for
                                                      MOMP, as of August 2013
                                                                                       Total
                                                                                                         Total           Total
                                                                                     Estimated
                                                        Program         Status                        Obligations    Disbursement
                                                                                   Commitments
                                                                                                      (millions $)    (millions $)
                                                                                    (millions $)

                                                      Sheberghan       active            90.0             30.0            0.0
                                                      Gas
                                                      Development
                                                      Program

                                                      Total Active                       90.0             30.0            0.0
                                                       Mining          planned           45.0             0.0             0.0
                                                      Investment
                                                      and
                                                      Development
                                                      for
                                                      Afghanistan

                                                      Total Planned                      45.0             0.0             0.0
                                                      Source: USAID funding data, as of August 1, 2013.



Source: SIGAR analysis of USAID public financial
management assessments, risk reviews,
                                                   Sheberghan Gas Development Program (Active)
approval of use of partner country systems, and
                                                 The Sheberghan Gas Development Program seeks to rehabilitate two
congressional contact.
                                                 existing gas wells and drill two additional wells. The program also aims to
construct a gas processing plant to allow for the gases extracted to be made suitable for use.

Mining Investment and Development for Afghanistan Program (Planned)
The Mining Investment and Development for Afghanistan program will attempt to reform mining policy and regulation in
Afghanistan in order to encourage economic development. This program will also strengthen institutional capacity at MOMP
with the overall goal of supporting mining development in the private sector.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                   Page 46
Summary of Assessment Conclusions and Results
Public Financial Management Assessment (Ernst & Young)
       MOMP should form an independent monitoring committee.
       MOMP should develop terms of reference for committees involved in the procurement process.
       MOMP should fill key positions that exist in the organization.
Ernst & Young’s Conclusion: Material weaknesses identified in the report must be addressed as pre-award disbursement
conditions.

Risk Review (USAID)
       MOMP’s financial management/accounting system is not adequate to properly manage and account for donors’
        funds.
       MOMP does not have the financial management capacity to manage proposed activities.
       MOMP’s internal controls are not adequate to manage donors’ funds.
       MOMP’s procurement management units do not have sufficient systems and management capacity to implement
        activities and manage donors’ funds.
       The internal control environment is not adequate to mitigate the risk of corruption and it is unclear if MOMP has the
        will to combat corruption.
       Lack of accountability of public officials, financial data susceptible to manipulation, lack of standards to prevent
        undue preferential treatment such as nepotism and cronyism, and the likelihood for kickbacks and collusion.
       Management attitude has a pervasive affect on the culture and attitude of the entity. This attitude affects the
        integrity and ethical values of the entity…Accordingly the risks identified at that level will be difficult to mitigate.
USAID’s Conclusion: The U.S. government cannot rely on MOMP’s systems operation and internal controls to manage
donors’ funds.

Summary of Conditions Precedent for MOMP Programs
Sheberghan Gas Development Program: USAID/Afghanistan only
included 3 of the 33 mitigation measures listed in its risk review
as pre-award conditions precedent in the program implementation
letter. Seven additional mitigation measures could have been met
in the conditions precedent, but the conditions precedent are too
vague, and could allow for the mitigation measure to not be fully
implemented.
Mining Investment and Development for Afghanistan program:
This is a planned program; no conditions precedent currently exist.

Summary of Suggested Mitigation Measures USAID Identified for MOMP
The following table lists the risks USAID identified in its risk review of MOMP and identifies whether each risk was included in
the program implementation letter as a condition precedent, an ongoing condition, or not included in the implementation
letter at all.




Table 13 - USAID’s Stage 2 Suggested Risk Mitigation Measures for MOMP


SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                Page 47
                                                                                                              Not
                              Risk Mitigation Measures                                        Met   Unclear
                                                                                                              Met

Transfer all assistance funding in escrow bank accounts

Substantial involvement of USAID's staff in the implementation and/or hiring third party
monitor

Hold employees accountable to the fullest extent of the law if violated

Conduct audits to prevent fraud, waste and abuse

Conduct Ethics trainings as well

Proper segregation of duties amount accounting staff

Rotations of assignments within the staff to ensure all staff know and understand different
levels of responsibility

Request the installation of computerized financial system with built-in controls

Encourage data storage and validation for all USAID funded activities to ensure
accountability and reliability of information

Back up information on a daily basis

Evaluating revenue generation systems within the ministry to make sure all revenues are
recognized

Conduct employee validation surveys of payroll to ensure all employees are properly
accounted for

Conducting market price analysis/surveys to ensure proper prices are being paid for goods
and services

Request OAA's involvement in all critical procurement in all third party monitor decisions

Obtain signed conflict of interest forms from senior staff

Conduct fraud awareness trainings and briefings to employees

Maintain accurate asset registers within the ministry

Institute more stringent accountability standards and policies to hold individuals
accountable

Set individual benchmarks before any funds are disbursed for goods and services

Conduct pre-selection of vendors to ensure acceptable quality standards are maintained

Acquire USAID approval on major procurement of goods and services

Conduct physical inspections of goods at delivery to verify quality

USAID audits all projects annually



SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                               Page 48
Conduct periodic surprise investigations of suspicious activities

Conduct yearly audits of financial transactions

Conduct monitoring and evaluations of all USAID-funded activities

Conduct audits of the on-budget programs annually

Conducting regular audits of all assets on the balance sheet

Conduct yearly payroll audits

Conducting surprise inspections and evaluations of petty cash practices within the ministry
for proper accountability

Perform yearly audits

Conduct regular audits of cash and property to insure proper accountability

Conduct regular audits and physical inspections of all assets

Source: SIGAR analysis of USAID risk reviews and implementation letters.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                         Page 49
APPENDIX X - MINISTRY OF EDUCATION OVERVIEW

                                              The Ministry of Education (MOE) is responsible for the provision of primary and
Figure 10 - Assessment and Certification      secondary education in Afghanistan. The ministry formulates education policy and
Timeline of MOE                               curriculum, as well as promoting teacher development while continuously
                                              monitoring and evaluating education. Table 11 provides an overview of the U.S.
                                              Agency for International Development’s (USAID) direct assistance programs and
                                              funding for MOE, as of August 2013.



                                                   Table 14 - USAID’s Direct Assistance Programs and Funding for MOE,
                                                   as of August 2013
                                                                                   Total Estimated        Total              Total
                                                        Program           Status   Commitments         Obligations       Disbursement
                                                                                     (millions $)      (millions $)       (millions $)

                                                   Basic Education      active                26.7                20.0               11.8
                                                   and Literacy and
                                                   Vocational
                                                   Education and
                                                   Training, textbook
                                                   printing


                                                    Total Active                              26.7             20.0                  11.8
                                                   Basic Education      planned              158.5                 0.0                0.0
                                                   and Literacy and
                                                   Vocational
                                                   Education and
                                                   Training

                                                   Afghanistan          planned               47.6                 0.0                0.0
                                                   Workforce
                                                   Development
                                                   Program


                                                    Total Planned                           206.1                 0.0                 0.0
                                                   Source: USAID funding data, as of August 1, 2013.


                                              Basic Education, and Literacy and Technical-Vocational Education and Training
                                              The Basic Education, Literacy, and Technical-Vocational Education and Training
                                              program seeks to improve education and vocational-training access for women
                                              and other marginalized populations. The program will strengthen MOE’s ability to
                                              measure student learning outcomes, provide in-service and pre-service training to
                                              teachers and administrators, print additional textbooks, and improve the
                                              employability of youth by providing literacy and critical skills development.
Source: SIGAR analysis of USAID public
financial management assessments, risk        Afghanistan Workforce Development Program (Planned)
reviews, approval of use of partner country   The Afghanistan Workforce Development Program’s objective is to increase
systems, and congressional contact.           employment for Afghans by improving workers’ skills and linking these

SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                     Page 50
students to credit and business opportunities. The program is expected to provide training or job placement for 25,000
workers, one quarter of them women. It will also improve the training and skills of vocational trainers and enhance technical,
vocational, and business management courses. This program aims to establish linkages between training providers and
employers.


Summary of Assessment Conclusions and Results
Public Financial Management Assessment (Ernst & Young)
       MOE’s Internal Audit Department should be adequately resourced with permanent staff having required
        professional qualification.
       MOE should form a policy of using only licensed software.
       MOE should make the independent monitoring and evaluation department fully functional.

Ernst & Young’s Conclusion: Material weaknesses identified in the report must be addressed as pre-award disbursement
conditions.

Risk Review (USAID)
       MOE’s financial management and accounting system is not adequate to properly manage and account for donors’
        funds.
       MOE does not have the financial management capacity to manage proposed activities.
       MOE’s internal controls are not adequate to manage donors’ funding.
       MOE’s procurement management units do not have sufficient systems and management capacity to implement
        activities and manage donors’ funds.
       MOE did not fully comply with the Afghan government’s procurement laws and regulations.
       MOE’s internal control environment is not adequate to mitigate risk of fraud, waste, and abuse, as several key
        controls are not implemented and it is unclear if the ministry has the capacity to combat corruption effectively.
       MOE does not “have the capacity to encourage and enforce code of government ethics, and/or to discourage
        potential corrupt acts.”

USAID’s Conclusion: The U.S. government cannot rely on MOE’s systems of operations and internal controls to manage
donors’ funds.



Summary of Conditions Precedent for MOE Programs
Basic Education, and Literacy and Technical-Vocational Education
and Training: USAID/Afghanistan may have included five of the
39 mitigating measures identified in its risk review as conditions
precedent in the program implementation letter, but the
conditions precedent are too vague, and could allow for the
mitigation measure to not be fully implemented.

Afghanistan Workforce Development Program: This is a planned program; no conditions precedent currently exist.

Summary of Suggested Mitigation Measures USAID Identified for MOE
The following table lists the risks USAID identified in its risk review of MOE and identifies whether each risk was included in
the program implementation letter as a conditions precedent, an ongoing condition, or not included in the implementation
letter at all.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                 Page 51
Table 15 - USAID’s Stage 2 Suggested Risk Mitigation Measures for MOE

                            Risk Mitigation Measures                                      Met   Unclear   Not Met

Develop policy and procedures or mechanisms which require the Ministry to monitor its
strategic plan and compare the actual results to strategic plan

Set terms of reference to for leadership committee

Submit quarterly reports to the senior management of the ministry to compare actual
results to planned activities

Clearly defined policies and procedures need to be implemented to ensure effective
internal control

Document the control procedures implemented to enable the department to monitor
their control activities and provide clear reports for reporting purposes

Establish an audit committee with oversight responsibility over the internal audit
department

Clearly define key performance indicators to assess the internal audit departments
effectiveness

Conduct risk based audits on various divisions with the ministry

Monitor and follow - up on the implementation of prior year recommendations given by
auditors in their assessment report

Establish a formal legal department and allocate appropriate qualified staff to the
division

Document the roles and responsibilities of the legal advisor and legal department.
Include responsibilities such as a thorough review of ministerial procurement of goods
and services

Review of all contracts entered into with the ministry to safeguard the MoE against any
potential legal risk

 Clearly define system access and implement controls to restrict access to key
functions

Segregate the management and maintenance of all the systems from the system users
and transfer to the information technology division

Use bank accounts for the collection of revenues

Implement policies and procedures to limit the amount of cash being utilized by the
ministry

Implement proper reconciliation mechanisms to controls cash operations

Provide budget program and expenditure tracking (BPET) system input access to the
provincial level to remain consistent with information in the Afghan Financial
Management System (AFMIS)

Reconcile the BPET system with the data available in AFMIS system on monthly basis


SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                               Page 52
Develop a proper procedure for numbering and recording of all M-3 forms in order to
ensure the completeness of record and to prevent duplicate payments

Request signed statement from management certifying that USAID funds will not be
used for supporting nepotism and cronyism

Prepare formal agreements between the Ministry and its employees which must be
signed and kept in the employee files

Update employees code of conduct and distribute it to all staff

Conduct ethics training for all employees

Ensure newly hired staff signs the job description and deliver the copy of all policies,
procedure and Job description to the new employee

Develop annual work objectives for all employees and conduct performance
evaluations on all employees on an annual basis

Conduct training for all staff for necessary skills development and productivity
enhancement

Develop written policies and procedures for the procurement process

Request OAA's involvement in all critical procurements

Obtain signed conflict of interest from personnel who are involved in the procurement
processes

Develop a plan to introduce procurement reforms

Develop procedures for all procurements including procurements below AFS 500,000

Develop written approval thresholds for clear identification for approval authority and
disseminate these thresholds to all procurement personnel

Develop formal procedures to handle procurement related disputes

Develop written policies and procedures for monitoring and evaluation

Audit all USAID on -budget projects annually

Submit interim risk based audit reports to USAID

Disseminate submission of monitoring and evaluation reports to senior ministerial
officials for approval and corrective actions

Submit quarterly monitoring and evaluation reports to USAID

Source: SIGAR analysis of USAID risk reviews and implementation letters.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                      Page 53
APPENDIX XI - MINISTRY OF COMMUNICATION AND INFORMATION TECHNOLOGY
OVERVIEW

                                                        The Ministry of Communication and Information Technology’s (MOCIT)
Figure 11 - Assessment and Certification
                                                        mandate is to provide communication, information technology, and
Timeline of MOCIT
                                                        postal services to citizens of Afghanistan. MOCIT is attempting to bring
                                                        telecom and information technology access to rural areas, increase
                                                        high speed internet, extend fiber optic networks, and upgrade other
                                                        communications and information technology infrastructure.
                                                        Additionally, MOCIT is implementing E-Afghanistan, a program
                                                        attempting to promote access to information technology and
                                                        communications systems for Afghan citizens and to introduce e-
                                                        governance within public institutions. Table 12 provides an overview
                                                        of the U.S. Agency for International Development’s (USAID) direct
                                                        assistance programs and funding for MOCIT, as of August 2013.


                                                   Table 16 - USAID’s Direct Assistance Programs and Funding for
                                                   MOCIT, as of August 2013
                                                                                        Total
                                                                                                          Total           Total
                                                                                      Estimated
                                                         Program         Status                        Obligations    Disbursement
                                                                                    Commitments
                                                                                                       (millions $)    (millions $)
                                                                                     (millions $)

                                                   District            completed        14.2              14.2            14.2
                                                   Communication
                                                   Network

                                                   District            completed         1.0               1.0            1.0
                                                   Communication
                                                   Network, Policy
                                                   Capacity
                                                   Initiative
Source: SIGAR analysis of USAID public financial
management assessments, risk reviews, approval Total                                    15.2              15.2            15.2
of use of partner country systems, and           Completed
congressional contact.
                                                                       planned           3.9               0.0            0.0
                                                   E-Government
                                                   Resource
                                                   Center

                                                    Total Planned                        3.9               0.0            0.0
                                                   Source: USAID funding data, as of August 1, 2013.
E-Government Resource Center (Planned)
The objective of the E-Government Resource Center is to introduce an information technology platform that can improve
government operations, increase the transparency and accountability of government transactions, and promote efficiencies
in the provision of government services. The program will serve as the source for all of the Afghan government’s expertise
and guidance for the deployment of E-government programs in other ministries and agencies. The program will focus on
capacity building, especially in areas such as procurement of technical assistance, information technology platform and
policy development, awareness raising campaigns, and training of Afghan officials.

SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                   Page 54
Summary of Assessment Conclusions and Results
Public Financial Management Assessment (KPMG)
        MOCIT should undertake capacity building measures by providing training for staff in the Finance department.
        MOCIT should enhance the capacity of the internal audit department by hiring staff having the requisite skill set and
         defining internal audit procedures which are in line with best practices.
        MOCIT specific processes should be defined after carrying out detailed internal control risk assessment in order to
         mitigate risk of control weaknesses.
        Monitoring and evaluation policies and procedures should be developed and implemented.
KPMG’s Conclusion: MOCIT is a high risk entity. Weaknesses identified in the report must be addressed as pre-award
disbursement conditions.

Risk Review (USAID)
        MOCIT’s financial management and accounting system is not adequate to properly manage and account for donors’
         funds.
        MOCIT’s internal controls are not adequate to manage donors’ funds.
        MOCIT’s procurement management units do not have sufficient systems and management capacity to implement
         activities and manage donors’ funds.
        MOCIT did not fully comply with Afghan government procurement laws and regulations.
        MOCIT’s internal control environment is not adequate to ensure effective and efficient operations and compliance
         with applicable laws and regulations, safeguard assets against theft and unauthorized use, nor mitigate the risk of
         corruption.
USAID’s Conclusion: The U.S. government cannot rely on MOCIT systems operation and internal controls to manage donors’
funds.

Summary of Conditions Precedent for MOCIT Programs
E-Government Resource Center: This is a planned program; no conditions precedent currently exist.

Summary of Suggested Mitigation Measures USAID Identified for MOCIT
The following table lists the risks USAID identified in its risk review of MOCIT. Due to the District Communication Network
program being funded as a host country contract there are no conditions precedent to compare the suggested mitigation
measures to.
Table 17 - USAID’s Stage 2 Suggested Risk Mitigation Measures for MOCIT
Risk Mitigation Measures

Develop clear terms of reference of the leadership committees.

Distribute copies of the terms of reference to each member of the leadership committee.

Document leadership committee meeting minutes

Hire external legal advisor

Involve the legal department in all procurement contracts and agreements

Establish an Audit Committee with an oversight responsibility for the Internal Audit Department

Develop an internal Audit manual


SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                               Page 55
Provide training for personnel at the internal audit department and document those trainings

Develop a plan for Internal Audit to perform risk based audits at HQ and hubs

Develop a MOCIT specific finance manual to address key policies and procedures including checking for funds
availability prior to incurring expenditures.

Develop a policy on budget formulation process

Establish an internal budget committee

Define the basis of budget amounts and document the basis

Budget committee approve and sign the budget and document meeting minutes

Include provincial offices in the budgetary formulation process

Compare actual results with budget and investigate variances

Budget Committee meets quarterly to review variance report

Develop and approve a fixed asset management policy

Tag all fixed assets with an identification number

Update fixed assets register on regular basis to reflect: date of purchase, asset type, location, serial number, tagged
number.

Provide USAID a list of all fixed or long term depreciable assets funded with USAID funds

Develop an internal cash management policy

Establish a reporting line for the cashier

Develop a petty cash register to record all cash transactions

Conduct surprise cash count and document the result

Develop an internal management policy for staff advances

Develop a register to record staff advances

Perform advance ageing analysis for tracking overdue advances

Develop a plan to automate attendance system at HQ and at the hubs

Document time and attendance for all employees

Link employees pay benefits to the time and attendance register and reconcile regularly and use banking system for
all salary payments




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                     Page 56
Involve finance department in payroll reconciliation

Conduct compliance audit

Performa and document reference checks of all new hires

Obtain signed conflict of interest forms from all staff

Conduct annual ethics training for staff

Prepare job descriptions for all key positions

Develop written policies and procedures for the procurement processes

Request OAA's involvement in all critical procurements

Obtain signed conflict of interest from personnel who are involved in the procurement process

Document procurement committee meeting

Develop a plan to introduce procurement reforms

Involve the legal department in all procurement contracts

Develop a procurement specific database allowing monitoring and analysis of procurement data

Create a monitoring and evaluation department with clearly defined roles and responsibilities

Develop written policies and procedures for monitoring and evaluation

Perform annual audit of all USAID projects

Convene regular audit committee meetings and document meeting minutes

Conduct annual financial and programmatic audits on all USAID projects

Conduct annual risk assessments and develop specific internal procedures with specific responsibilities

Conduct periodic inventory of fixed assets, possibly every six months

Conduct periodic inventory of all fixed or long term depreciable assets purchased with USAID funds and send the
inventory confirmation to USAID

Conduct regular performance audit to include asset verification

During financial audit, have auditors verify cash management process

Send monitoring and evaluation reports to the M&E department at the head office and copies to the provincial
offices

Submit copies of M&E reports to USAID



SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                             Page 57
Develop clear terms of reference of the leadership committees.

Distribute copies of the terms of reference to each member of the leadership committee.

Document leadership committee meeting minutes

Hire external legal advisor

Involve the legal department in all procurement contracts and agreements

Establish an Audit Committee with an oversight responsibility for the Internal Audit Department

Source: SIGAR analysis of USAID risk reviews and implementation letters.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                             Page 58
APPENDIX XII - DA AFGHANISTAN BRESHNA SHERKAT OVERVIEW

                                                    Da Afghanistan Breshna Sherkat (DABS) is the national power utility
Figure 12 - Assessment and Certification            company of Afghanistan, operating and managing domestic power
Timeline of DABS                                    generation as well as power importation, transmission and distribution.
                                                    DABS is owned by shareholders with shares held by the Ministry of
                                                    Finance, Ministry of Energy and Water, the Ministry of Economy, and the
                                                    Ministry of Urban Planning and Development. Table 13 provides an
                                                    overview of the U.S. Agency for International Development’s (USAID)
                                                    direct assistance programs and funding for DABS, as of August 2013.
                                                     Table 18 - USAID’s Direct Assistance Programs and Funding for DABS,
                                                     as of August 2013
                                                                                   Total
                                                                                                     Total           Total
                                                                                 Estimated
                                                        Program      Status                       Obligations    Disbursement
                                                                               Commitments
                                                                                                  (millions $)    (millions $)
                                                                                (millions $)

                                                     Power          active          342.0            263.3            0.0
                                                     Transmission
                                                     Expansion
                                                     and
                                                     Connectivity

                                                     Kajaki Dam     active           75.0            75.0             0.0

                                                     Total Active                   417.0            338.3            0.0

                                                     Source: USAID funding data, as of August 1, 2013.

                                                    Power Transmission Expansion and Connectivity Program (Active)
                                                    The Power Transmission Expansion and Connectivity program will
                                                    commercialize the distribution of electricity in Kabul and key load centers
                                                    throughout the country. The program will also assist DABS in managing
                                                    and operating the electric system and provide key equipment for the load
                                                    centers. With USAID assistance, DABS will also procure a contractor to
                                                    assist DABS in managing and operating the Southern Electric Power
                                                    System.
Source: SIGAR analysis of USAID public financial
management assessments, risk reviews, approval of
use of partner country systems, and congressional
contact.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                 Page 59
Kajaki Dam (Active)
In the 1950s, American engineers built the Kajaki Dam on the Helmand River as an electrical and irrigation project. The
plans called for three turbines to be installed to generate power but progress ceased when the Soviet Union invaded
Afghanistan in 1979 and only two turbines have been installed. USAID now plans to provide funds to DABS directly for the
third turbine installation.


Summary of Assessment Conclusions and Results
Public Financial Management Assessment (Ernst & Young)
       DABS should bring all of their customers onto a computerized billing system.
       DABS should design a procedure to record all assets transferred between departments.
       DABS should design procedures for conducting a cash count on a daily basis.
       DABS management should introduce a standard format to obtain the monthly expenditure reports from the hubs.
Ernst & Young’s Conclusion: Material weaknesses identified in the report must be addressed as pre-award disbursement
conditions.

Risk Review (USAID)
       DABS financial management and accounting system is not adequate to properly manage and account for donors’
        funds. DABS has been struggling to implement strong financial management controls, and off-balance sheet
        financing remains a high risk.
       DABS’s internal controls are not fully adequate to manage donors’ funds as most of the internal controls
        weaknesses identified in the initial assessment remain unaddressed.
       DABS internal control environment is not fully adequate to mitigate risk of corruption. However, the considerable
        measures management has taken to address most of the governance weaknesses identified in the initial
        assessment demonstrate to a certain degree the will to address concerns that could lead to corrupt acts.

USAID’s Conclusion: USAID cannot rely on DABS systems operation and internal controls to manage donors’ funds.



Summary of Conditions Precedent for DABS Programs
Power Transmission and Connectivity Program: The implementation
letter for the program included as conditions precedent 20 of the 62
mitigation measures that the mission identified in its risk review. An
additional 19 mitigation measures may be accounted for in the
conditions precedent, but the conditions precedent are too vague,
and could allow for the mitigation measure to not be fully
implemented.
Kajaki Dam: The Kajaki Dam project uses the same conditions precedent as the Power Transmission Expansion and
Connectivity Program.

Summary of Suggested Mitigation Measures USAID Identified for DABS
The following table lists the risks USAID identified in its risk review of DABS and identifies whether each risk was included in
the program implementation letters as a condition precedent, an ongoing condition, or not included in the implementation
letters at all.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                 Page 60
Table 19 - USAID’s Stage 2 Suggested Risk Mitigation Measures for DABS
                                                                                                                    Not
                                 Risk Mitigation Measures                                           Met   Unclear
                                                                                                                    Met

Approve and circulate the five years strategic plan to key management personnel

Prepare annual budgets using the strategic plan

Compare annual budget to actual results

Prioritize financial management , accounting and internal control issues on agenda items at
BOD meetings

Transfer all assistance funding into an escrow bank account

Implement a capacity building program for financial management and other newly hired key
staff

Develop a plan for Internal Audit to perform risk base audit at HQ and hubs

Finalize all outstanding financial statement (2008 to date)

Close all open audit recommendations since 2008

Introduce general ledger preparation into the accounting processes

Prepare trial balance for all the sub offices

Submit quarterly consolidated financial statements to USAID

Automate the accounting system for HQ and the hubs

Train Financial management staff on the use of the new accounting software

Prepare financial statement in accordance with International Financial Reporting Standards
(IFRS) or Generally Accepted Accounting Principles (GAAP)

Back up information technology systems regularly on and off site

Tag all fixed assets with an identification number.

Update fixed assets register on regular basis to reflect: date of purchase, asset type, location,
serial number, tagged number.

Define the process for inter departmental transfer of assets

Have an approved fixed assets (capitalization) policy

Implement a computerized billing system in all the hubs

Reconcile voltage consumption to receivable account




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                     Page 61
Categorize customers according to consumption pattern

Perform surprise cash count by senior management

Stamp all invoices received with "received stamp" and all payment vouchers with "paid" stamp

Obtain monthly expenditures from all the hubs, using the monthly expenditure standard form.

Extend the automated attendance system to the hubs

Document time and attendance for all employees

Link employees pay benefits to the time and attendance register and reconcile regularly

Conduct compliance audit

Obtain signed conflict of interest forms from all staff

Conduct annual ethics training for staff

Prepare job descriptions for all key positions

Perform reference checks of all new hires

Develop template for exit interviews

Perform analysis on the reasons of employee outflow and make recommendations to the
Senior management Group (SMG) and Board of Directors

Develop a mechanism to pre-qualify vendors for routine purchases

Obtain signed conflict of interest from personnel who are involved in the procurement
processes

Develop a plan to introduce procurement reforms

Request OAA's involvement in all critical procurements

Involve the legal department in all procurement contracts

Establish a separate M&E department from the Internal Audit

Monitoring personnel at the hubs and provincial level report the director of M&E at HQ

Audit all USAID projects annually

Conduct periodic inventory of fixed assets, possibly every six months

Provide Signed Statement to USAID that funds provided will not be used to pay fines or
liabilities associated with Da Afghanistan Breshna Mousasa and Power Construction Entity
merger.

Provide copies of audited financial statements to USAID for the years 2010, 2011, and 2012


SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                          Page 62
Develop a chart of accounts that clearly accounts for USAID funds.

USAID to conduct periodic financial on DABS with DABS' internal audit department and train
department of risk-based audit.

Conduct comprehensive and nationwide survey on all electricity users and develop and roster

Develop a billing system based on that roster

During financial audit have auditors verify the meter readers data

Develop revenue projections and compare projections to actual receipts and analyze
differences

Submit annual audited financial statements to USAID

Develop a fixed asset management policy

Provide USAID a list of all fixed or long term depreciable assets funded with USAID funds

Conduct periodic inventory of all fixed or long-term depreciable assets purchased with USAID
funds and send the inventory confirmation to USAID

Conduct regular performance audit to include asset verification

Complete and approve Business Continuity and Disaster Recovery Plan.

Convene regular audit committee meetings and document meeting minutes

Implement Basic Internal controls in the financial management system.

Submit copies of M&E reports to USAID.

Source: SIGAR analysis of USAID risk reviews and implementation letters.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                          Page 63
APPENDIX XIII - MINISTRY OF FINANCE OVERVIEW

Figure 13 - Assessment and                    The Ministry of Finance (MOF) is responsible for the management and execution
Certification Timeline of MOF                 of the Afghan government budget, the collection of taxes, the organization and
                                              control of public expenditure, payments to the government, and the
                                              management of customs. Table 14 provides an overview of the U.S. Agency for
                                              International Development’s (USAID) direct assistance programs and funding for
                                              MOF, as of August 2013.

                                                Table 20 - USAID’s Direct Assistance Programs and Funding
                                                for MOF, as of August 2013
                                                                                 Total
                                                                                                   Total           Total
                                                                               Estimated
                                                 Program          Status                        Obligations    Disbursement
                                                                             Commitments
                                                                                                (millions $)    (millions $)
                                                                              (millions $)

                                                Salary
                                                Support
                                                Program         completed          2.0              1.7             1.7

                                                Total
                                                Completed                          2.0              1.7             1.7
                                                Civil Service
                                                Technical
                                                Assistance
                                                Program         active            36.3              36.3           28.8

                                                Total Active                      36.3              36.3           28.8
                                                Source: USAID funding data, as of August 1, 2013.

                                              Civil Service Technical Assistance Program (Active)
                                              The goal of the Civil Service Technical Assistance Program is to recruit, hire,
                                              place, and support technical advisors throughout government institutions. These
                                              advisors do not replace civil servants, but assist their Afghan counterparts in
                                              building institutional capacity.

Source: SIGAR analysis of USAID public
financial management assessments, risk
reviews, approval of use of partner country
systems, and congressional contact.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                Page 64
Summary of Assessment Conclusions and Results
Public Financial Management Assessment (Ernst & Young)
        MOF should tag all fixed assets with unique fixed asset identification numbers.
        MOF should draft a standard set of legal terms and conditions and every contract above a certain threshold should
         be formally vetted by the legal advisory.
        MOF should implement a debt strategy.
        MOF should prepare a separate follow up by the internal audit team.
Ernst & Young’s Conclusion: Material weaknesses identified in the report must be addressed as pre-award disbursement
conditions.

Risk Review (USAID)
        MOF’s current policies, procedures and internal controls framework are generally sufficient to adequately safeguard
         and account for donors’ funds. However, there are material control weaknesses that can have adverse impact on
         the MOF’s capacity in regards to managing donors’ funds.
        MOF has adequately designed controls to comply in all material respects, with applicable laws and regulations and
         no material exception thereto has been observed.
        MOF financial management and accounting system is adequate to properly manage and account for donors’ funds,
         except for the conditions detailed, to enhance its financial management and accounting system.
        MOF procurement management units have sufficient systems and management capacity, except for some
         weaknesses as detailed below.
USAID’s Conclusion: USAID cannot fully rely on MOF systems operation and internal controls to manage donors’ funds.

Summary of Conditions Precedent for MOF Programs
Civil Service Technical Assistance Program: Of the 46 mitigation
measures identified in USAID/Afghanistan’s risk review, the mission did
not list any as conditions precedent in the program implementation letter.

Summary of Suggested Risk Mitigation Measures USAID Identified for
MOF
The following table lists the risks USAID identified in its risk review of MOF and identifies whether each risk was included in
the program implementation letter as a condition precedent, an ongoing condition, or not included in the implementation
letter at all.


 Table 21 - USAID’s Stage 2 Suggested Risk Mitigation Measures for MOF

                                                                                                              Not
                               Risk Mitigation Measures                                       Met   Unclear
                                                                                                              Met

 Define and document terms of reference for its Board Management Committee that
 specify their scope of work, roles and responsibilities.

 Devise standard audit program and a checklist to serve as a guide for all audit
 engagements and training of IAED staff on such standardized checklists.

 The high risk issues requiring immediate attention should be covered in separate follow up
 audits



SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                 Page 65
 The follow up report should be discussed in the Audit Committee meeting and approproate
 actions should be taken accordingly.

 Include risk base audit in the annual audit program.

 Develop a policy which requires the Ministry periodically review actual performance against
 its strategic plan, document same and be presented to the Strategic Committee

 A clear and robust Business Continuity and Disaster Recovery plan should be developed
 and backup information on a regular basis

 Only licensed software should be used for the IT systems at the Ministry.

 Assess the sustainability of the capacity of departments and consider ways in which
 knowledge and skill could be passed on to Afghan staff


 Internal control written procedures should be comprehensively documented and
 communicated across the organization, management should monitor the understanding of
 those procedures by operational employees

 Petty cash should be counted and reconciled by the designated personnel (who is
 independent of custodian) with petty cash register on at least a weekly basis.

 Use impress system of cash in hand

 Monthly reconciliation should be made between current and last month payroll.

 All fixed assets should be tagged with unique fixed asset identification number and the
 existence be verified during yearly audits

 Fixed assets register should be updated on regular basis to reflect: date of purchase, asset
 type, location, serial number, tagged number, respective user ect/

 Conduct periodic inventory of fixed assets, possibly every six months and the results
 should be presented to the Steering Committee

 Reconcile inventory record with financial record.

 Mof should establish a committee to closely monitor the exicution of its budget and
 development programs and provide feedbacks to management on regular basis


 Develop a plan to automate attendance system at the provincial revenue and custom
 offices which should then be used by the Finance Directorate to process the payroll of staff
 to ensure accuracy.

 All the documents involved in the recruitment process should be filed at a single location in
 the employee permanent files.


 A senior person in the Record Keeping section should review the employee permanent file
 after it has been prepared by Record Keeping Officer for ensuring that all required
 documents have been filed.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                            Page 66
 The job description of the employee should be signed off by the respective employee as
 well as the Head of Directorate, as an evidence of concurrence with the job responsibilities
 and should be documented in the employees' personal files

 On a quarterly basis a comparison should be prepared between the planned and actual
 trainings, in order to identify the progress.

 HR Directorate should develop a format for the exit interview and conduct discussion with
 the staff and document the reasons on the exit interview form

 The form should be signed off by the employee and the HR Director and maintained in the
 employee file.

 A formal process for reference checks should be put in place

 The reference checks should be maintained in the permanent file of the employee.

 A standard set of legal terms and conditions should be drafted and every contract above
 certain defined threshold should be formally vetted by the legal advisory.

 A standard checklist should be developed for documents to be maintained in the file.


 Should set a frequency at which it should generate the monitoring reports using the MIS.
 Monitoring reports should be reviewed by the Procurement Director and the variances
 should also be documented.

 A threshold may be determined (such as +/- 10%), and if there is any variance above the
 threshold, the reasons should be documented and investigated in detail

 Procurement Directorate should enter the list of registered bidders in PMIS.

 The vendors list should be periodically evaluated for their performance and updated
 accordingly.

 The strategic plan should be updated on an annual basis to incorporate the impact of the
 dynamic economic environment.

 The reporting line of OIU should be to the Minister directly to minimize any conflict of
 interest of segregation of duties.

 The focal points reporting to the PIU should be independent of the directorate and/or
 mustofiat.

 A training plan should be established and be linked with the annual staff appraisals.

 A system based technical monitoring system should be implemented by PIU.

 The technical monitoring system should be interlinked with AFMIS to generate reports
 which link financial and physical progress of the projects.

 Independent third parties surveys should be carried out to ascertain the effectiveness /
 efficiency of services provided by the line ministries and reported to the Ministry of Finance



SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                             Page 67
 Since the information is readily available with the Ministry of Finance, the information can
 be disclosed

 Arrangements be made to incorporate contingent liabilities in budget planning process

 Vendor analysis should be undertaken to assess the volume of contracts granted to
 particular vendors.

 The system / IT platform be enabled so as to keep a record of the assets acquired and the
 same be integrated with the AFMIS the treasury's main financial and accounting system

 A formal liquidity contingency plan should be drawn up.

 The debt strategy should be augmented to incorporate these aspects.

Source: SIGAR analysis of USAID risk reviews and implementation letters.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                           Page 68
APPENDIX XIV - OVERVIEWS OF MINISTRIES WITH PUBLIC FINANCIAL
MANAGEMENT ASSESSMENTS, BUT NO USAID RISK REVIEWS

Ministry of Rural Rehabilitation and Development
The Ministry of Rural Rehabilitation and Development (MRRD) was established to ensure the social, political,
and economic well-being of rural Afghanistan. The ministry assists with the provision of services and local
governance in rural areas. The ministry emphasizes promoting alternatives to poppy development and
assisting the poor and vulnerable.
Public Financial Management Assessment (KPMG)
       The ministry has an absence of coordination mechanisms.
       The ministry has capacity constraints emanating from human resource quality.
       The ministry faces issues in financial and treasury management functions.
       The ministry’s management has shown a lack of management responsiveness towards audit
        recommendations.
Overall Conclusion: Material weaknesses identified in the report must be addressed as pre-award
disbursement conditions. The ministry is a high-risk for future funding.

Afghanistan Independent Human Rights Commission
The Afghanistan Independent Human Rights Commission (AIHRC) was established to protect and promote
human rights in Afghanistan. The Commission also investigates reports of human rights violations in the
country.
Public Financial Management Assessment (KPMG)
       AIHRC’s control environment’s was assessed as high risk and capacity gaps pose major risks which
        must be addressed before the first disbursement.
       AIHRC’s internal audit department is not functioning and according to the management auditors have
        not conducted any audits.
       AIHRC’s procurement policy is not in compliance with best practices as required under Afghan
        procurement law and USAID regulations.
Overall Conclusion: Capacity gaps pose some manageable risks and certain strengthening measures must be
completed before the first disbursement.

Independent Administrative Reform and Civil Service Commission
The Independent Administrative Reform and Civil Service Commission (IARCSC) was established to create a
system of civil servants to help bolster the Afghan government. The civil servants serve all ministries and
enhance the capabilities and effectiveness of the Afghan government.
Public Financial Management Assessment (Ernst & Young)
       IARCSC must improve its corporate governance structure.
       IARCSC must improve its financial management, budgeting and accounting systems.
       IARCSC must monitor its procurement and purchasing system.
Overall Conclusion: Material weaknesses identified in the report must be addressed as pre-award
disbursement conditions.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                          Page 69
Ministry of Public Works
The Ministry of Public Works (MOPW) is responsible for road maintenance, repair, and construction, and for the
construction of railroad tracks across the country. The only roads that MOPW is not responsible for are rural
roads, which are overseen by the Ministry of Rural Reconstruction and Development.
Public Financial Management Assessment (Ernst & Young)
       MOPW needs to strengthen its internal audit department.
       MOPW should enhance its budgeting capacity.
       MOPW should strengthen the monitoring and evaluation process.
       MOPW should develop formal procedures for the procurement process.
Overall Conclusion: Material weaknesses identified in the report must be addressed as pre-award
disbursement conditions.

Ministry of Information and Culture
The Ministry of Information and Culture (MOIC) is responsible for managing tourism and culture, media,
national radio and television, and youth affairs in Afghanistan. The ministry promotes local cultures and skills,
broadcasts national media through a variety of means, including newspaper, radio, television, promotes
tourism to promote economic development, and encourages youths to become successful in various fields.
Public Financial Management Assessment (Ernst & Young)
       MOIC should establish a monitoring and evaluation department.
       MOIC should establish a contract management unit.
       MOIC should reconsider its organization structure in respect to finance, policy and planning, and
        procurement.
       MOIC revenue collection needs to be strengthened.
       MOIC fixed assets should be recorded and verified.
Overall Conclusion: Material weaknesses identified in the report must be addressed as pre-award
disbursement conditions.

Ministry of Economy
The Ministry of Economy’s goal is to increase economic and social development and establish economic
policies for Afghanistan. The ministry attempts to provide balanced economic development through the
encouragement of private sector development with a focus on improving income per capita, domestic
production, employment levels, and price sustainability.
Public Financial Management Assessment (Ernst & Young)
       The ministry should strengthen its sectoral directorates.
       The ministry should clearly document the mechanism for maintaining backup and subsequent
        retrieval of documents.
       The ministry should develop a fixed asset register.
       The ministry should develop an automated financial management and accounting system.
Overall Conclusion: Material weaknesses identified in the report must be addressed as pre-award
disbursement conditions.

Ministry of Higher Education
The Ministry of Higher Education’s mission is to expand and develop Afghanistan’s institutions for higher
education through training of teachers, establishing curriculum and special education programs, providing in-
service training, and promoting further education for university faculty.


SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                               Page 70
Public Financial Management Assessment (Ernst & Young)
       The ministry should form a management and leadership committee.
       The ministry should develop a plan for maintaining back up and subsequent retrieval of critical
        documents.
       The ministry should develop an automated financial management and accounting system.
       The ministry should develop a fixed asset register.
Overall Conclusion: Material weaknesses identified in the report must be addressed as pre-award
disbursement conditions. Overall risk level as a result of the assessment is considered to be high.

Ministry of Transport and Civil Aviation
The Ministry of Transport and Civil Aviation designs, regulates, and manages air and ground transportation
while operating airports and the national airline. In addition, the ministry operates numerous other enterprises
connected to the transport business.
Public Financial Management Assessment (KPMG)
       The ministry should address capacity gaps in the control environment.
       The ministry should establish an independent internal audit function.
       The ministry should develop detailed monitoring and evaluation policies and procedures.
Overall Conclusion: Material weaknesses identified in the report must be addressed as pre-award
disbursement conditions. The ministry is a high-risk for future funding.

Ministry of Energy and Water
The Ministry of Energy and Water manages all water and energy resources in Afghanistan. The ministry creates
energy and water development policies, manages resources, designs and implements laws and regulations,
conducts studies, and provides technical support to other ministries when needed.
Public Financial Management Assessment (KPMG)
       The ministry’s revenue budget is not duly supported by detailed analysis and valid assumptions.
       The ministry’s cashier is solely responsible for petty cash and cash books are not maintained.
       The ministry’s reconciliation of inventory records with financial records are not maintained.
Overall Conclusion: Material weaknesses identified in the report must be addressed as pre-award
disbursement conditions. The ministry is a high-risk for future funding.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                              Page 71
APPENDIX XV - USAID WAIVER OF ADS 220




              USAID
            UNCLASSIFIED
                                                                                            November 2, 2012

             ACTION MEMORANDUM FOR THE ADMJNISTRATOR

            THROUGH:               AAJOAPA- J. Alexander Thier

            SUBJECT:               Request to Waive Compliance with Automated Directives System (ADS)
                                   Chapter 220 Public Financial Management Risk Assessment Framework
                                   (PFMRAF) Procedures for All Appropriated Funds made Available to
                                   USAID/Afghanistan through Fiscal Year 2013

            Recommendation

                    That you waive compliance with ADS Chapter 220 procedures in accordance with ADS
            section 220.3.2.2 in order to avoid impairment of U.S. Government Foreign Assistance
            Objectives.

                    The requested waiver will cover all funds appropriated and made available to
            US AID/ Afghanistan through and including FY 2013 appropriations. This waiver will allow the
            Agency to meet the commitments made by the United States Government (USG) to the
            Government of the Islamic Republic of Afghanistan (GIRoA). As described below, this waiver
            wi ll avoid impairment of USG foreign assistance and foreign policy objectives in Afghanistan.
            These objectives - in the case involving commitments of direct assistance to GIRoA - were
            announced by the USG in January 2010 and reaffirmed by Secretary of State Clinton and you in
            July 20 I 0 at the Kabul Confere




            Background
                    USAID's development policy ultimately must support long-term, sustained progress and
            make assistance unnecessary in the long term by partnering with countries to use their internal
            systems, build their capacity, strengthen core institutions, maximize the impact of assistance they
            receive, and provide for their people. USAID' s assistance is most effective when it can work
            through partner country public financial management (PFM) systems rather than around them, to
            ensure that the aid received reinforces the accountability of a govemm~nt to its people.

                    Since 2002, the U.S. Government assistance strategy for Afghanistan has been to work
            with international partners in a civilian-military effort to combat terrorism and re-establish
            security and stability within the country. In January 2010 at the London Conference on
            Afghanistan, the USG announced a public strategic foreign-assistance decision, reaffirmed by
            Secretary of State Clinton and you at the July 2010 Kabul Conference, which committed the U.S.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                             Page 72
              Government to provide at least 50 percent of U.S. Government assistance directly to GIRoA, to
              be channeled through GlRoA's core budget systems within two years (2012). During the July
              2010 Kabul Conference, the international donors endorsed the Public Financial Management
              (PFM) Roadrnap. The PFM Roadrnap is the implementation plan for the National Priority
              Program Number One. The first action under the PFM Roadrnap was to assess a total of 14line
              ministries under a single harmonized donor evaluation. An international donor group that
              included the U.S. Embassy and USAID representatives agreed that the PFM Roadmap
              assessment should proceed. The World Bank offered to provide support to the Ministry of
              Finance (MoF) Budget Department and to prepare the Terms of Reference to contract with an
              independent consulting flllll to lead the PFM assessments.

                      GIRoA and the World Bank contracted with a British Certified Public Accounting firm to
              conduct 14 individual Ministerial assessments to be completed within two GIRoA fiscal years.
              In June 2011, the first draft assessment report on one of the 14 ministries was received. USAID
              obtained an initial copy of the draft assessment report from the U.S. Treasury representative
              assigned to the MoF. Upon review of the draft docurnen~ the USAJD Mission determined that
              the assessment did not provide the level of review USAID would require to make risk-
              determination evaluations that could lead to direct Government to Government (G2G) assistance
              agreements, sufficient to meet the USG's standards of fiduciary safeguards. Specifically, the
              GtRoA!World Bank contracted assessments did not include testing of entity level Public
              Financial Management (PFM) systems in order to validate overall systems operations and
              internal controls, and identify performance risks.

                      USAID immediately opened a series of dialogues with GIRoA about the need for a more
              in-depth systematic review of the line Ministries required by USArD. During this same
              timeframe. a turnover of key players involved in the contract team performing the assessments,
              delayed the GIRoA-World Bank assessment engagements. By the end of June 2011, USAID
              convinced GIRo A of the benefits of conducting a second series of more-stringent assessments of
              each line Ministry. USAID negotiated with GIRoA and arrived at a new scope of work for these
              assessments, which USAID unilaterally contracted for. beginning in July 2011.

                      ln August 2011, the Agency issued a new draft policy - ADS Chapter 220 - pertaining to
              the use of reliable partner country systems for direct 020 assistance. That policy chapter was
              substantially updated in late March 2012 and continues to undergo modifications - the latest in
              July 2012, where risk assessment questionnaire guidelines were modified. This ADS chapter
              with its latest modifications now requires a multi-stage approach in the process leading to a
              decision of whether USAID should consider use of a partner country's systems to implement
              direct assistance programs.

                      The first step in the ADS 220 process for assessing the viability of a partner country's
              systems to manage G2G assistance is an Enhanced Democracy, Human Rights, and Governance
              (ORO) Review and the Stage I PFMRAF Rapid Appraisal. The DRG macro-level assessment is
              designed to determine whether a 020 investment could empower a government at the expense of
              its people. The DRG review is a Washington-led Mission assessment. The Stage I Rapid ·
              Appraisal focuses on public financial-management systems and includes an analysis of
              democratic accountability systems, with an emphasis on oversight and governance relating to




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                            Page 73
              public financial management (including the DRG Review). Stage 1 is intended to be a high-level
              overview of partner country systems and governance structures. It is intended to provide the
              Mission a high-level snapshot of fiduciary risks associated with use of the partner country PFM
              systems and helps infonn the decision as to whether the Mission should move forward and
              undertake a more rigorous, formal Stage 2 PFMRAF Risk Assessment. As noted above,
              USAID/Afghanistan has been engaged in direct G2G assistance to GIRoA for several years. The
              Mission did not undertake the Stage I DRG assessment or PFMRAF Rapid Appraisal because
              the guidance did not exist at the time the Mission started G2G assistance to GIRoA.

                       The second step in the ADS 220 process is the PFMRAF Stage 2 Risk Assessment
              Current Agency policy set forth in ADS 220 requires that upon conclusion of the macro-level
              assessment (DRG review and PFMRAF Stage I), risk tolerance is evaluated jointly between the
              Mission, the Regional Bureau, the DCHA Bureau. and the global partner country systems risk
              management team (GPCSRMD within the office ofthe CFO. lfthejoint determination by the
              Mission and Washington results in a determination the risk tolerance is acceptable at the macro
              level, then the Mission could consider whether to proceed with further assessment regarding the
              risks appurtenant to direct bilateral G2G assistance to the Partner Country Government. Upon a
              decision to do so, the USAJD Mission would then proceed with the PFMRAF Stage 2 Risk
              Assessment, an entity-level assessment of the individual Ministry to identify implementation
              risks. This would enable the Mission to develop a risk mitigation strategy tailored to individual
              G2G activities and specific, identified risk factors with a particular Ministry.

                      While USAID/Afghanistan has not fulfilled every step in the ADS 220 process because
              the Mission never underwent the macro-level assessment, doing so at this time would undermine
              the U.S. Government' s foreign assistance and foreign policy objectives and is also unnecessary.
              Given the history ofG2G assistance in Afghanistan, this situation is understandable. Macro-
              level assessments are to guide the decision process about whether G2G assistance should be
              considered as a bilateral assistance objective. In Afghanistan, that decision was made several
              years ago at the highest levels of the U.S. Government. The USG's foreign policy decision in
              January 2010, which was reaffirmed by Secretary Clinton and you at the Kabul conference in
              July 2010, strongly reiterated the U.S. commitment to direct G2G assistance to GlRoA. This
              commitment was not made subject to review of macro-level risk in Afghanistan. Essentially, the
              foreign policy decision to engage in G2G assistance in Afghanistan has replaced the first step
              under ADS 220 outlined above - the DRG Review and Stage I PFMRAF Rapid Appraisal. At
              this point, it would be counter-productive and potentially inconsistent with articulated foreign
              policy and foreign assistance objectives of the U.S. Government for the Mission to go through
              this process with the current GIRoA administration.

                     ADS 220 also requires a DRG Review, which is applied during the course of the Stage I
             PFMRAF Rapid Appraisal to determine whether G2G programming would empower a
             government at the expense of its people. Because guidelines for the DRG portion of the
             assessment are still under development, it is not possible to conduct a full review without undue
             delay and thus impairment of U.S foreign policy and foreign assistance objectives. However.
             USAID will ensure transparency and accountability for any funds or other resources provided to
             the GIRoA. USAID will also ensure that the assessment and other requirements of Section 7031
             of the FY 12 Foreign Operations Appropriations Act arc fully met and documented.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                             Page 74
                      More importantly, the Mission has complied with the spirit and purpose of that guidance.
              The Mission has exercised appropriate due diligence in the entity level assessments undertaken
              of each line Ministry and parastatal organization and is appropriately identifying risks and
              designing specific risk mitigation strategies into each entity' s G2G assistance agreement. The
              Mission has worked closely with the the CFO and believes these Mission-initiated entity level
              assessments arc in substantial compliance with the Stage 2 Risk Assessment guidance as
              promulgated currently under ADS Chapter 220. By "substantial compliance" the Mission means
              that the PFM systems of each entity have been tested to validate overall systems operations and
              internal controls, and as a result performance risks have been identified enabling the
              development of risk-mitigation measures for inclus ion into each G2G assistance agreement. As
              a result, conducting a Stage 2 Assessment at this point would be duplicative and wasteful, using
              U.S. Government funds needlessly and intruding upon the GJRoA entities already assessed for
              no additional value.

                     In addition to having substantially fulfilled Stage 2 of the PFMRAF, all assistance
              provided directly to GIRoA will comply with all applicable legal requirements.

                     The U.S. Government assistance strategy for Afghanistan is entering a transitional phase
              expected to continue until the end of calendar year 20 14, when military operations will be
              sequentially curtailed, and the Afghan government will become responsible for ensuring stability
              and security in the country. The U.S. Government has made signi ficant commitments for
              planned activities during this transition phase. 'Jbese G2G activities through 20 14 are planned at
              an estimated obligation level of approximately$ 2.4 billion dollars. using FY 201 1. FY 20 12,
              and FY 20 13 appropriated funds.

                       In light of the high-level U.S. political commitments made to GIRoA regard ing direct
              G2G assistance, formal, mechanical compliance with ADS 220 assessment requirements,
              particularly the DRG review and PFMRAF Stage I Rapid Appraisal and the Stage 2 Assessment,
              is unnecessary and runs the risk of doing substantial harm to U.S. Government fo reign-assistance
              obj ectives in Afghanistan. Robust assessments of the current Afghan political and governance
              situation, performed on the same terms as assessments done in other countries where USAID
              works, could cause the U.S. Government not to fulfill the existing promises of assistance to
              GrRoA made by the President, the Secretary of State and you. Even with a waiver of ADS 220
              policy, the Mission is and will continue to be in compliance with all applicable laws.

              This waiver will apply to all funds appropriated and made available to USAID/ Afghanistan
              through and including FY 2013 appropriations.


              Resource Implications
                     Per ADS 220.3 .2.2, waivers of the procedures for commitments in excess of $50 million
              must be initiated by the cognizant Assistant Administrator. cleared by the CFO and the GC, and
              approved by the Administrator.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                               Page 75
APPENDIX XVI - COMMENTS FROM THE U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT AND SIGAR’S RESPONSE




                   USAID
                   FROM THE A MERICA N PEOPLE




            MEMORANDUM                                                                   January 23,2014

            TO:                           Mr. John F . Sopko
                                          Special Inspector General for
                                          Afghanistan Reconstruction (SIGAR)

            FROM:                         Donald L. "Larry" Sampler (s)
                                          Assistant to the Administrator for
                                          Afghanistan and Pakistan

            SUBJECT:                      USAID Response to SIGAR Audit Report, "Afghan
                                          Ministry Assessments :" (SIGAR 14-X Audit Report)

            Executive Summary

            Direct assistance is an important part of USAID' s bilateral assistance program
            in Afghanistan in support of U.S. national security objectives. Oversight of
            these programs is critical and we welcome SIGAR's continuing examination of
            these efforts. While there is no way to eliminate risk completely or guarantee a
            result in undertaking development programming in Afghanistan, USAID, in the
            field and in Washington, is acutely conscious of the trust that has been placed
            with us to safeguard taxpayer funds while implementing development programs
            in support of the national interest. We are always looking at ways to refine and
            adopt improvements to our systems and look forward to continuing to work
            with SIGAR In that regard.

            This SIGAR audit report on direct assistance to Afghanistan looks closely at a
            series of risk assessments and internal risk reviews funded and conducted by
            USAID to examine the internal processes of specific Afghan Ministries in
            advance of any direct assistance. This was done to ensure appropriate risk
            mitigation measures are in place and that USG funds are safeguarded, consistent
            with USAID procedures and Congressional requirements .

            SIGAR's audit did not identify waste, fraud or abuse in USAID' s direct
            assistance program. While the audit report examines and calls attention to the [ ]
            risks USAID identified in the Ministries that could potentially impact direct    See SIGAR
            assistance programming in Afghanistan, it fails to acknowledge the full range of Comment 1.
            risk mitigation measures USAID subsequently employed. On the first page of

                                                         Tel: 202-216-6288/ 0700-108-001
            U.S. Agency for Intern ational Development   Email: kabulu saidinformation@usaid.gov
            Great Massoud Road                           http://afghanistan .usaid.qov
            Kabul. Afghanistan




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                      Page 76
                                                        2



             the draft report, SIGAR explicitly states, "We did not examine the
             implementation ofUSAID-funded direct assistance programs, assess the
             effectiveness ofUSAID's methods for safeguarding U.S. direct assistance



                                                                                             D
             funds, or determine whether fraud and misuse of funds existed with these
             pro grams."

             We therefore do not believe the report has any basis to conclude that USAID
             has failed to fully implement measures designed to mitigate the risks that we
                                                                                                 See SIGAR
             ourselves identified. We look forward to working closely with SIGAR in the
                                                                                                 Comment 2.
             future, should they choose to examine the actual implementation of these
             programs.

             The Department of State and USAID have complied fully with the spirit and the
             letter of the law in providing Congress extensive information on the risks and

             formal certifications and notifications required by law, USAID and the State
             Department provide Congress information through a variety of means, including
                                                                                             D
             risk mitigation measures for direct assistance in Afghanistan. In addition to the
                                                                                                   See SIGAR
                                                                                                   Comment 3.
             testimony, briefings, written responses to questions, and additional
             Congressional notifications of intent to obligate appropriated funding. We are
             prepared to appropriately respond to any further requests from Congress with
             information on these programs.

             We appreciate SIGAR' s review of the Department of State ' s Fiscal Year 2011
             certification and USAID's FY2012 Congressional Notification with respect to
             direct assistance and will use SIGAR' s analysis to improve future
             submissions. The FY 2011 government assistance certification was submitted
             to Congress by the Department of State in September 2012 with an
             accompanying Memorandum of Justification that stated USAID had completed
             Public Financial Management Risk Assessments (risk assessments) of the
             Ministry of Finance and Ministry of Higher Education. This information was
             repeated in USAID's FY2012 country Congressional Notification, which was
             transmitted in November 2012. In response to concerns raised by SIGAR
             about when the two assessments were finalized, USAID is reviewing the
             circumstances surrounding the receipt and completion of the assessments. We
             have confirmed that the risk assessments for the Ministry of Finance and
             Ministry of Higher Education that USAID made available to congressional
             staff, upon request, were the final versions of the assessments. USAID had in
             place at the time an overall process, that was accurately described in
             submissions to Congress, to identify deficiencies at all potential ministry
             partners and put in place strong risk mitigation measures prior to the
             disbursement of any FY 2011 on-budget funding.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                           Page 77
                                                        3


             We note that the memorandum of justification that accompanied the Fiscal Year
             2011 certification said explicitly that the certification was not the end of our
             oversight process: "For each activity implemented through a direct government-
             to-government mechanism, USAID will develop, through project
             implementation letters ... specific terms and conditions applicable to each
             activity ... " This clearly indicated that USAID was continuing to work with the
             ministries to develop further plans to implement the findings of the risk
             assessments.

             We appreciate SIGAR' s acknowledgement of the extensive effort made by
             USAID to ensure that our assistance to the Afghan government is implemented
             with rigorous oversight and accountability to mitigate the risks USAID
             identified in its assessments of Afghan ministries. In particular we note that
             SIGAR highlights "positive developments" in our work, including the risk
             mitigation plan developed for Da Afghanistan Breshna Sherkat (DABS) that
             identifies specific mitigation measures to be employed to confront each
             weakness. USAID has already completed similar risk mitigation plans for
             individual ministries with which we have direct assistance programs.
                                                                                                D
                                                                                                See SIGAR
                                                                                                Comment 4.

             Protection of Sensitive Information

             Continued U.S. development engagement is critical to Afghanistan' s stability
             and to protecting the vital interests of our own country. Improving governance,




                                                                                                 D
             building infrastructure, creating economic opportunity, and enhancing the health      See SIGAR
             and education of the people of Afghanistan are essential to solidifying our           Comment
             military gains and advancing our political and diplomatic goals for the country
                                                                                                   5.
             and the region.

             USAID has learned from its experience in Afghanistan and in similar countries
             around the world and has applied best practices to design and implement on-
             budget and off-budget programs to mitigate risk. A key first step is
             understanding the precise capacity of government partners in order to protect
             U.S. funding from waste and abuse.

             In this context, the United States requires close cooperation from government
             partners in providing very sensitive information to us about the capacity and
             deficiencies at potential recipient ministries in order to protect USG funds and
             ultimately improve ministry capacity. This information is truly sensitive and
             could be exploited in Afghanistan' s highly political environment. USAID and
             the State Department have previously notified SIGAR that certain information
             provided in connection with this audit, including the risk assessments and




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                        Page 78
                                                                   4



             internal risk reviews, is Sensitive But Unclassified (SBU1) and therefore not
             appropriate for public distribution. In addition, USAID notes that the audit
             report's appendices 1-15 and other portions of the report directly quote
             information taken from SBU documents that is not appropriate for public
             distribution.

             These risk assessments and internal risk reviews were generated for the internal
             use of the US Government and the entities that are the subject of the
             assessments. Demonstrating their openness and willingness to strengthen
             ministrial management controls, parts of the Afghan government provided
             unprecedented access for the independent auditors to complete the risk
             assessments based on understandings that the results of the risk assessments
             would not be made public. Unfortunately, public release of these materials will
             likely result in reduced cooperation from the Afghan Government and could
             undermine our ability to conduct proper oversight of direct assistance programs
             in the future. USAID and State Department at various levels have requested on
             numerous occasions that SIGAR not make this sensitive material available to
             the public, and we again request that SIGAR not make public sensitive
             information that could damage our bilateral relationships with the Government



                                                                                                                             D
             of the Islamic Republic of Afghanistan.

             The conclusions of the USAID internal risk review for each Ministry are not in
             dispute and their specific details are not relevant to the findings of this audit,
             which focuses on the process by which the assessments were conducted. The                                       See SIGAR
             fact that this audit did not examine the effectiveness of the risk mitigation                                   Comment
             measures put in place by USAID argues further for removal of specific details                                   6.
             quoted from internal risk reviews on Pages 8-9 of the draft report as well as in
             the appendices. We are ready to work with SIGAR to identify again the specific
             text which we consider most damaging if released.

             Draft Audit Recommendations

             The Department of State and U SAID agree with the substance of the three
             recommendations and are already complying with them. Therefore we
             recommend that all three be closed.

             Recommendation 1 : The USAID Administrator require compliance with all
             parts of Automated Directive Systems (ADS) 220 -except for the Stage 1
             macro-level review - for the use of all direct assistance funds for fiscal year
             2014 and beyond.

             1
               Sensitive But Unclassified (SBU) is a designation equivalent to For Official Use Only (FOUO), which is used
             by the military and other agencies for information that warrants a degree of protection and administrative
             control and meets legal or regulatory criteria for exem ption from public disclosure.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                                    Page 79
                                                        5




             USAID Comments: USAID agrees with this recommendation, and in fact,
             USAID already complies with ADS 220 stage 2 requirements. For future years See SIGAR
             funding, USAID intends to continue to comply with the requirements of ADS  Comment
             220, with the exception of completion of the Stage 1 assessment, as        7.
             recommended by SIGAR, and therefore requests closure of this
             recommendation.

             Recommendation 2: USAID/Afghanistan fully inform Congress of the status of
             ministry assessments USAID or its contractors have completed, the mitigating
             measures Afghan ministries have implemented, and the level of risk to U.S.
             funds .

             USAID Comments: USAID has provided extensive information to Congress
             about direct assistance and regularly responds to Congressional requests for
             information regarding USAID's direct assistance in Afghanistan, including risks
                                                                                                 See SIGAR
             and risk mitigation measures. In early 2014, through the regular notification
                                                                                                 Comment
             procedures of the Appropriations Committees, USAID will be providing
                                                                                                 8.
             updated information on its direct assistance program, and is ready at any time to
             provide Congress with access to additional information. As USAID is regularly
             updating Congress and providing extensive information on direct assistance in
             Afghanistan, we request this recommendation be closed.

             Recommendation 3: USAID/Afghanistan develop a plan, similar to the one
             created for Da Afghanistan Breshna Sherkat (DABS), for each Afghan ministry
             that has a completed USAID risk review that defines how each of the risks
             identified are being or will be mitigated, and suspend direct assistance
             disbursement to these ministries until these plans are completed.

             USAID Comments: USAID agrees with this recommendation. USAID has
             identified the risk mitigation plan developed for DABS as a best practice and
             has already prepared similar plans for the six ministries receiving USAID direct
             assistance. While USAID prepared a narrative risk report as part of each         See SIGAR
             internal risk review, the DABS risk mitigation plan highlighted by SIGAR         Comment
             presents this same information in a matrix format, which provides a useful and 9.
             more visual way to detail the condition/weakness, potential risk and action to
             address the condition/weakness. To simplify this going forward, a matrix will
             be included in addition to the narrative. USAID, therefore, requests closure of
             this recommendation.


             USAID's Direct Assistance in Afghanistan




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                        Page 80
                                                        6



             A major component of the USG's approach to development assistance in
             Afghanistan involves supporting the Afghan government, as developmentally
             appropriate, so it can take increasing ownership for development and sustain the
             gains made over the past decade. Using local systems has been a goal of the
             current and previous administrations, as announced at the Paris Declaration and
             in Busan. It is Agency policy to build host country capacity through measured
             and responsible use of partner country systems that acknowledges existing
             vulnerabilities, employs appropriate risk mitigation approaches during
             implementation, and provides for capacity building measures that correct
             vulnerabilities both prior to and throughout implementation. USAlD employs a
             cautious and methodical approach to the design, implementation and
             management of direct assistance provided to the Afghan government.

             Before USAlD contemplates direct assistance to any Afghan government
             ministry or entity, it undertakes an extensive risk assessment, known as a Public
             Financial Management Risk Assessment (PFMRA), to determine whether the
             ministry or entity has the systems and controls necessary to effectively manage
             US government funds. To date, 13 risk assessments have been performed by
             independent international public accounting firms that have been approved by
             USAlD's Office oflnspector General. These assessments, which SIGAR
             summarized in its report, were performed in accordance with agency policy.
             After completion of the risk assessment for each ministry, USAlD also
             performed its own internal risk review. While USAlD has conducted 13 risk
             assessments, it is moving forward with providing direct assistance to only seven
             of the assessed ministries.

             Once a risk assessment is complete, the Mission responds to the deficiencies
             identified by working with the ministry to develop a risk mitigation plan to
             address deficiencies, some immediately and others over time. USAlD uses a
             multi-tier risk mitigation plan and employs various techniques to address
             vulnerabilities identified. Each risk mitigation plan contains five standard risk
             mitigation measures:
                1. Separate project bank accounts with specific authorization of use with
                    USAlD monitoring and audit rights.
                2. Robust concurrent audit requirements with quarterly and annual reporting
                    to identify and address issues on an ongoing basis.
                3. Substantial involvement for those projects with significant procurement
                    actions: Review/approval of solicitations, contracts, invoices prior to
                    disbursements.
                4. Incorporation of condition precedents and/or ongoing covenants based on
                    the results of the risk assessments and the nature ofthe activities included
                    in the direct assistance programs. This is followed by a comprehensive
                    review to determine if the identified condition precedents have been met




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                              Page 81
                                                        7



                    and ongoing covenants are being addressed. The use of the
                    implementation letter and related annex to document and reinforce terms
                    of agreements.
                 5. For reimbursement type mechanisms, monitoring, review of
                    programmatic and financial reports along with supporting documentation
                    prior to payment of vouchers.
             The risk mitigation plan begins with the selection of a repayment mechanism
             suited to the capacity of a given ministry, such as using a cost reimbursement
             agreement. The process continues with identification of "conditions precedent"
             (CPs) (which are actions required to be completed prior to any disbursement of
             funds), includes ongoing controls and risk mitigation measures during
             implementation of a project, and is generally supported by concurrent technical
             assistance to address vulnerabilities over the long term. The line ministry never
             touches the money.
                                                                                                 See SIGAR
             The Mission Director, as principal officer in country for USAID, has the            Comment
             authority to sign the Approval of Use of Partner Country Systems (AUPCS), as        10.
             outlined in ADS 220.2a-b. No " Global team" or Washington approval, as
             mentioned in the SIGAR report, is required for the AUPCS. The ADS 220
             waiver in no way affected the detailed financial review process, and so the         See SIGAR
             insinuation in the audit report that funds are "at risk" due to lack of a           Comment
             Washington review is not supported by the facts.                                    11.

             USAID then enters into project level agreements with each ministry receiving
             direct assistance. Most ofUSAID' s project level agreements with ministries
             contain conditions precedent. USAID staff verifies at the outset whether a CP
             has been accomplished and no disbursements through government systems can           See SIGAR
             occur until after all CPs are satisfied. And, again, , no funds are disbursed to    Comment
             line ministry systems.                                                              12.

             Depending upon the nature of the project, USAID then selects a
             "reimbursement mechanism" for determining when funds may be disbursed to a
             ministry: either (a) reimbursement of actual costs already incurred or (b)
             reimbursement after achievement of specific milestones. Under either method,
             no funding is disbursed until USAID formally verifies and documents that
             goods and services have been received, milestones have been achieved, and
             costs can be reimbursed. After verification, funds are disbursed into the project
             bank account at the Central Bank. As a result of these disbursement procedures,
             as of December 2013, while approximately $1.06 billion has been committed
             for direct assistance, $745 million has been obligated and approximately $270




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                        Page 82
                                                                  8



             million has actually been disbursed. 2 Some activities envisioned at the time of
             the SIGAR field work to be performed as direct assistance will now be                                       See SIGAR
             implemented by other means, therefore while the audit notes a commitment                                    Comment
             amount of $1 .6 billion, the current amount as noted above is $1.06 billion.                                13.

             In addition to the safeguards put into place related to our disbursement
             procedures, USAID also exercises direct oversight when substantial
             procurements are involved by reviewing and approving solicitations and
             contracts between the Afghan government and its third party contractors, as
             well as observing the procurement technical review panels. USAID also
             provides extensive off-budget technical assistance to ministries receiving direct
             assistance:At the Ministry of Public Health and Ministry of Education has
             established a third party program management unit within these Ministries,
             which reviews and verifies all aspects of their programs as well as provides
             technical assistance to the Ministry. USAID tailors the work with each ministry
             to suit the specific development needs and to provide the appropriate risk
             mitigation measures for each project.

             While USAID acknowledges that the majority of the weaknesses identified in
             the risk assessments were rated as high or critical, the risk assessments were
             conducted at the institutional level and thus did not take into account whether
             particular weaknesses applied at the project level. Risks identified as "High" or
             "Critical" at the macro level of the ministry may not be relevant at the project
             level, especially given our extensive project-level mitigation measures. For
             example, direct assistance to DABS relies heavily on third party technical
             assistance and substantial USAID ongoing monitoring oversight, which
             mitigates vulnerabilities. USAID is substantially involved in DABS'
             procurement process through reviews and approvals of solicitations, validation
             of signed contracts, and third-party verification of contract progress as part of
             the invoice review and disbursement process.

             In the report, SIGAR makes reference to 104 major risks. USAID believes it is
             important to make the distinction between the (i) actual vulnerability that was
             identified during the risk assessment and (ii) the potential of an adverse event                            See SIGAR
             occurring if the vulnerability is not addressed. For example, if the potential risk                         Comment
             cited in a risk assessment relates to the "misappropriation of cash arising from                            14.
             the payment of salaries in cash," as part of the risk mitigation plan for this
             ministry USAID will identify actions that the ministry must take to prevent this
             potential event from occurring. Mitigation measures could include paying all
             salaries through the official banking system, conducting annual payroll audits,

             2
              (!)In the case of direct assistance, "Committed" means the total estimated amount which USAID expects to
             fund for the project. "Obligated" means the amount USAID has set aside for disbursements. "Disbursed"
             means the amount USAID has transferred into the proJect account at the Central Banlc




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                                Page 83
                                                         See SIGAR
                                                         Comment
                                                         15.




                                                           See SIGAR
                                                           Comment
                                                           16.




                                                        See SIGAR
                                                        Comment
                                                        17.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                  Page 84
                                                        10



             acknowledge how USAID controls the flow of funds from accounts we control
             through until disbursed directly to the implementing partners.

             Communication with Congress

             The Department of State and USAID have complied with statutory requirements
             prior to U.S. assistance funds being made available for direct government
             assistance in Afghanistan. In meeting those requirements, the Department of
             State and USAID have consulted closely with the committees of jurisdiction,
             providing extensive information on the risks and risk mitigation measures for
             direct assistance in Afghanistan. Furthermore, we appreciate the value of
             Congressional oversight of U.S. assistance programming in Afghanistan and
             support SIGAR's role in the oversight process.

             State and USAID make every effort to be thorough in the Certification and
             Congressional Notification (CN) processes with the common understanding
             between the State Department and USAID and their committees of jurisdiction
             that the submission of these formal documents to Congress is the beginning of a
             consultative process with Congress. The Fiscal Year 11 and Fiscal Year 12
             country CNs for Afghanistan provided a top-line summary of a variety of
             programs and much more detailed discussions take place once the CN is
             submitted. Even at a summary level, the Fiscal Year 11 country CN #7 ran to
             37 pages of text and the Fiscal Year 12 country CN #10 was 42 pages.

             In subsequent discussions with and briefings for congressional committees of
             jurisdiction on the country CNs, it is not unusual for different committees to
             have different areas of focus and therefore to request disparate additional
             information on programs during separate briefings that we offer to each
             committee. Staff on these Congressional committees were active participants
             in reviewing these formal documents and asking follow-up questions at these
             briefings. Questions that State and USAID briefers were unable to answer or
             answer fully at these briefings were taken back and addressed in follow up
             briefings or written responses to the respective committees or staff who posed
             the questions. In addition, on many occasions, congressional staff follow-up
             with written questions following briefings.

             It is also common for committees to place holds on funding that has been
             notified for Afghanistan, pending the provision of additional information
             requested from the Administration. Accordingly, the submission ofCNs for
             Afghanistan to Congress is the beginning of a lengthy process that can take
             weeks or months to reach a point where all information sought by the
             committees has been provided and all of the notified funding can be obligated
             by USAID. Directly related to the Fiscal Year 2011 Afghanistan country CN




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                          Page 85
                                                          See SIGAR
                                                          Comment
                                                          18.




                                                        See SIGAR
                                                        Comment
                                                        19.




                                                        See SIGAR
                                                        Comment
                                                        20.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                 Page 86
                                                        12



                       level of detail in briefings or ~itten responses to questions posed by
                       the committee staff once they had reviewed the CN.

             • "USAID's notification also did not disclose that the majority of measures
               intended to mitigate these risks had not been implemented at the time of the
               notification, even though the 2012limitation on direct assistance states that
               funds may be made available for direct assistance to an Afghan government
               ministry only if ' any identified vulnerabilities or weaknesses of such agency
               or ministry have been addressed."'
                   o The Fiscal Year 2012 appropriations law stipulates that funds may be
                      made available for direct Government-to-Government assistance only          See SIGAR
                      if any identified vulnerabilities and weaknesses have been addressed.       Comment
                      The notification by itself does not make available any funds to any         21.
                      program. Funds are only made available as part of the implementation
                      of a program.
                   o Also, as noted above, the memorandum of justification that
                      accompanied the Fiscal year 2011 certification made clear that there
                      were a number of additional measures USAID would develop to
                      ensure effective oversight of any USG funds made available under
                      these programs.


             ADS 220 Waiver

             USAID has complied with the financial requirements set out in Agency policies
             in ADS 220 for direct assistance. Per the extensive documentation provided to
             SIGAR, USAID demonstrated it substantially complied with Agency policies
             on partner country systems in ADS 220.

             USAID has made very clear it is still adhering to the core elements of the
             policy, with the sole exception of elements of Stage I, which is a macro-level,
             preliminary assessment that was for all intents and purposes already
             accomplished in Afghanistan. Particularly, USAID substantially complies with       See SIGAR
             ADS 220 in the areas related to financial oversight. That USAID did not            Comment
             perform the macro-level Stage I review, including the "enhanced democracy,         22.
             human rights, and governance review" would not have changed the decision to
             move to the Stage II assessments since the decision was made and
             communicated to Congress, the Afghan Government and the International
             Community.

             The ADS 220 waiver was granted not only on foreign policy grounds, but also
             because, to quote the 2012 waiver, "USAID/Afghanistan has been engaged in
             direct G2G assistance to GIRoA for several years" (p. 3) and, "[m ]ore




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                         Page 87
                                                        13


             importantly, the Mission has complied with the spirit and purpose of the
             guidance" (p. 4). The ADS 220 waiver in place for Afghanistan only applies to
             appropriated funds made available to the Mission through Fiscal Year 2013, not
             Fiscal Year 2015 as stated in the audit report. As is made clear in the waiver
             memo for ADS 220, USAlD is committed to fulfilling Agency requirements to
             the fullest extent possible. The risk assessments performed for USAlD and         See SIGAR
             summarized in this report are but one illustration ofUSAlD' s efforts to comply   Comment
             with Agency regulations. The statement that funds are "at risk" because of the    23.
             waiver ignores the extensive documentation that SIGAR used to make this
             report that was done in accordance with Agency guidance. Furthermore, the
             implication that USAlD does not require ministries to implement mitigation
             measures is inconsistent with the extensive documentation provided to SIGAR
             demonstrating how USAlD itself mitigates the risks we identified.

             Finally, as this audit does not examine the implementation ofUSAlD direct
             assistance programs, we do not believe this report has any basis on which to      See SIGAR
             question whether the identified vulnerabilities have been addressed prior to      Comment
             funds being made available.                                                       24.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                      Page 88
                                    SIGAR’s Response to USAID’s Comments
COMMENT ONE: We disagree, as it was never the intention of our audit to identify fraud, waste, or abuse at the
program level. As we explained to USAID from the beginning of this audit, our objectives were to: (1) assess the
extent to which Ernst & Young and KPMG adhered to USAID contract requirements when conducting the
ministry assessments; (2) describe assessment findings and conclusions about the ability of the Afghan
ministries to manage U.S. funds and analyze how USAID has used, or plans to use, the assessments to inform
its direct assistance to the Afghan government; and, (3) examine the U.S. Department of State’s certification
and USAID’s notification provided to Congress, pursuant to congressional requirements for providing direct
assistance to the Afghan government. In our report, we provide several examples of steps USAID has taken or
plans to take to ensure that the seven ministries with a USAID risk review use the funds for their intended
purposes. These include establishing conditions precedent and ongoing conditions, developing monitoring and
evaluation plans, and using on-budget monitors to evaluate these programs. We also provide more general
examples of steps USAID might take to ensure that direct assistance funds are used appropriately, such as
building ministry capability through off-budget programs USAID directly funds and manages, providing funds on
a reimbursable basis, and establishing separate bank accounts to be used solely for specific programs. SIGAR,
as noted in this report, is currently conducting an audit of these additional measures that USAID and other U.S.
agencies may take to safeguard on-budget funds from waste, fraud, and abuse.


COMMENT TWO: As detailed in this report, USAID did not implement the vast majority of risk mitigation
measures that it and its contractors identified in the ministry assessments and the risk reviews as necessary to
address the significant weaknesses within the ministries. Specifically, USAID only required the seven ministries
with a USAID risk review—or less than 8 percent—of the recommended risk mitigation measures prior to
receiving direct assistance funds. That is a sound basis for our conclusion and is irrelevant to the actual
implementation of direct assistance programs or whether any fraud or misuse of funds has occurred. We note,
however, that while this audit did not seek to uncover instances of fraud or misuse of funds, SIGAR does have
an ongoing criminal investigation into alleged corruption at the Ministry of Public Health. One aspect of this
investigation is focused on the ministry’s Grants and Contracts Management Unit, which USAID has stated it
established, in large part, to safeguard direct assistance funds.
While we stand by our conclusions, in the interest of clarity, we have modified some of the language in our
report to emphasize that USAID’s failure to mitigate risks relates to those measures designed to fix problems
within the ministries—rather than external measures intended to protect U.S. government funds from misuse
once the decision has been made to award them.


COMMENT THREE: We state clearly in our report that USAID has complied with the statutory requirement to
inform Congress. However, we maintain that some of the information in the 2011 certification and 2012
notification was inaccurate, or at least, incomplete. For example, USAID did not disclose the full extent of the
risks identified at each of the ministries or that over 90 percent of the mitigating measures identified in the
risk reviews had not been implemented. Those are, in our view, serious omissions of fact.


COMMENT FOUR: The narrative reports that USAID/Afghanistan provided us during the course of our audit for
these other ministries do not explicitly state what actions USAID is or will be taking to mitigate all of the
identified risks. It is unclear if this statement is referring to those same narrative reports. If so, we note that
they do not provide the same level of detail that is included in the risk mitigation matrix for Da Afghanistan
Breshna Shekat. For that reason, we reiterate the importance of our third audit recommendation.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                 Page 89
COMMENT FIVE: USAID has designated the ministry assessments and the internal risk reviews as Sensitive but
Unclassified (SBU) and requested SIGAR to withhold this information and unspecified, but related portions of
our audit report from public release because “release of these materials will likely result in reduced
cooperation from the Afghan Government” and release “could damage our bilateral relationships with the
Government of the Islamic Republic of Afghanistan.”
USAID asserts that the ministry assessments and internal risk reviews “were generated for the internal use of
the US Government and the entities that are the subject of the assessments” (i.e., the Afghan ministries).
USAID also asserts that “parts of the Afghan government provided unprecedented access for the independent
auditors to complete the risk assessments based on understandings that the results of the risk assessments
would not be made public.”
Despite repeated requests from SIGAR, USAID has not provided any documentary evidence that it promised the
Afghan government that this information would be withheld from the public. In any case, the fact that USAID
specifically decided to designate the ministry assessments and the risk reviews as “unclassified” means that
this information cannot be withheld from public release on the basis of that rationale.
The State Department’s Foreign Affairs Manual addresses this issue very clearly:
           “Information obtained from or exchanged with a foreign government or international organization as to
           which public release would violate conditions of confidentiality or otherwise harm foreign relations
           must be classified in order to be exempt from release under FOIA or other access laws. The SBU label
           cannot be used instead of classification to protect such information.”84
Notwithstanding the Foreign Affairs Manual, USAID’s comments define SBU as a designation for “information
that warrants a degree of protection and administrative control and meets legal or regulatory criteria for
exemption from public disclosure” (emphasis added). However, USAID has not articulated any basis in law or
regulation that would require SIGAR to censor all or part of this report.
USAID’s mention of “legal or regulatory criteria for exemption from public disclosure” appears to be an oblique
reference to the discretionary exemptions under the Freedom of Information Act, 5 U.S.C. § 552, (FOIA) that
permit an agency to withhold certain information under narrowly defined circumstances. However, USAID has
not explained how any part of SIGAR’s audit report might fall within any of those discretionary exemptions or
explained why those exemptions should be asserted.
Moreover, there is a strong presumption in law and policy in favor of public disclosure. The main purpose of
FOIA is to ensure public disclosure, not to prevent it. In addition, the SBU designation is a subcategory of
“Controlled Unclassified Information” (CUI).85 Executive Order No. 13,556 established “an open and uniform
program” for managing CUI.86 In describing the reasons for establishing this program, the order states that:
           “[E]xecutive departments and agencies . . . employ ad hoc, agency-specific policies, procedures, and
           markings to safeguard and control this information . . . . This inefficient, confusing patchwork has
           resulted in inconsistent marking and safeguarding of documents, led to unclear or unnecessarily
           restrictive dissemination policies, and created impediments to authorized information sharing. The
           fact that these agency-specific policies are often hidden from public view has only aggravated these
           issues.”87




84 12 FAM 543(f) (emphasis added). This provision applies to both USAID and the State Department. See 12 FAM

511.1(a).
85 Presidential Memorandum for Heads of Executive Departments and Agencies Concerning Classified Information and

Controlled Unclassified Information, 74 Fed. Reg. 26,277 (May 27, 2009).
86   Exec. Order No. 13,556, 75 Fed. Reg. 68,675 (November 9, 2010).
87   Exec. Order No. 13,556, 75 Fed. Reg. 68,675 (November 9, 2010). (emphasis added).

SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                              Page 90
The Department of Justice and the National Archives and Records Administration have issued joint guidance
implementing Executive Order No. 13,556, which states that “FOIA should not be cited as a safeguarding or
dissemination control authority for [CUI].”88 This is because “[t]he purpose of the FOIA is to open agency
activities to the public.”89 Similarly, the President has stated that departments and agencies should not “keep
information confidential merely because public officials might be embarrassed by disclosure, because errors
and failures might be revealed, or because of speculative or abstract fears.”90
Therefore, in the absence of any basis in law or regulation articulated by USAID for withholding this information
from public scrutiny, SIGAR will publish this audit report in full.


COMMENT SIX: USAID’s statement that the conclusions of the internal risk reviews and their specific details
“are not relevant to the findings of this audit” is puzzling. As stated clearly throughout our report, our second
audit objective was, in part, to “describe the assessment findings and conclusions about the ability of the
Afghan ministries to manage U.S. funds.”


COMMENT SEVEN: We disagree with USAID’s assertion that it is already complying with this recommendation.
As we noted in our report, USAID headquarters officials from the Global Partner Country Systems Risk
Management Team told us they did not perform quality control reviews of the contracted public financial
management assessments, USAID/Afghanistan’s risk reviews, or any risk mitigation strategies, as required by
ADS 220. To date, USAID has not provided any evidence that these quality control reviews occurred.


COMMENT EIGHT: We disagree with USAID’s assertion that it is already complying with this recommendation.
During our fieldwork, USAID officials based in Afghanistan told us they had not provided Congress with copies
of or access to the Stage 2 risk reviews. Moreover, when we met with officials from USAID’s Office of
Afghanistan and Pakistan Affairs, based in Washington, they appeared unaware of these reviews and told us
they had not seen them.
Finally, as noted in our report, some of the information in the 2011 certification and 2012 notification was
inaccurate, or at least, incomplete. For example, they did not disclose the full extent of the risks identified at
each of the ministries or that over 90 percent of the mitigating measures identified in the risk reviews had not
been implemented prior to disbursing funds.


COMMENT NINE: We have not yet obtained evidence that USAID has already prepared similar plans for the six
ministries receiving USAID direct assistance. The narrative reports that USAID/Afghanistan provided us during
the course of our audit do not explicitly state what actions USAID is currently, or will be taking in the near
future, to mitigate all of the identified risks. If the plans referenced in this comment are new documents
developed after our fieldwork, we request that USAID provide us copies of them so that we can assess them
and determine whether closure of this recommendation is appropriate.




88 Memorandum from John P. Fitzpatrick, Director, Controlled Unclassified Information Office, National Archives and

Records Administration, and Melanie Ann Pustay, Director, Office of Information Policy, U.S. Department of Justice, to
Senior Agency Officials for Executive Order No. 13556, “Controlled Unclassified Information“ (November 22, 2011).
89 Memorandum from John P. Fitzpatrick, Director, Controlled Unclassified Information Office, National Archives and

Records Administration, and Melanie Ann Pustay, Director, Office of Information Policy, U.S. Department of Justice, to
Senior Agency Officials for Executive Order No. 13556, “Controlled Unclassified Information“ (November 22, 2011).
90 Presidential Memorandum for Heads of Executive Departments and Agencies Concerning the Freedom of Information

Act, 74 Fed. Reg. 4,683 (Jan. 21, 2009).

SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                                    Page 91
COMMENT TEN: The statement that “No ‘Global team’ or Washington approval, as mentioned in the SIGAR
report, is required for the AUPCS” is incorrect. Automated Directive System (ADS) 220, as revised on March 26,
2012, states, “The Agency has established a set of conditions that would, if complied with, constitute formal
approval for the use of a partner country [public financial management] system. These conditions are known
collectively as the Accountability Framework and include…completion of due diligence on the partner country
systems targeted for use by the [Partner Country Systems] Team, and review and quality control of the due
diligence by the [Global Partner Country Systems Risk Management Team].”


COMMENT ELEVEN: The statement that “the ADS 220 waiver in no way affected the detailed financial review
process” is also incorrect. As we note in our report, USAID officials from the Global Partner Country Systems
Risk Management Team, based in Washington, told us they did not perform quality control reviews of the
contracted public financial management assessments, USAID/Afghanistan’s risk reviews, or any risk mitigation
strategies, as required by ADS 220.


COMMENT TWELVE: We acknowledge in our report that USAID created conditions precedent for direct
assistance programs for the five ministries that would have been subject to ADS 220 requirements had the
agency not waived them for Afghanistan. We also explain that USAID certified each of these ministries as
having met the conditions precedent prior to disbursing funds. However, it is important to note, as detailed in
our report, that USAID only set as conditions precedent 24—or less than 8 percent—of the risk mitigation
measures identified in the risk reviews. Moreover, while prohibiting funds from being disbursed to line ministry
systems is one measure to safeguard funds from misuse, it is an external measure that does not address the
underlying weaknesses within the ministries.


COMMENT THIRTEEN: We have added language in our report to note that the amount of $1.6 billion was
current, as of August 2013, and we have also added a footnote to reflect USAID’s updated direct assistance
commitment.


COMMENT FOURTEEN: Although we recognize the distinction between the risks, we believe it is important to
mention all of the risks USAID identified within the ministries, especially those that could potentially be
exploited, resulting in an adverse event of significance. This is especially true in a country like Afghanistan,
which suffers from pervasive corruption.


COMMENT FIFTEEN: The purpose of figure 3 is to illustrate the percentage of mitigation measures that (1)
were included as conditions precedent in the program implementation letters for the five ministries identified,
(2) were not included as conditions precedent, and (3) might have been included as conditions precedent but
the conditions precedent were vague. The analysis supporting the figure is accurate and methodologically
sound. We acknowledge that USAID takes other steps to ensure that direct assistance funds provided to the
Afghan government are used for their intended purposes and we detail many of those steps in our report.
However, we have focused on conditions precedent and ongoing conditions because these are the only steps
required to address risks within the ministries receiving direct assistance funds. Moreover, the additional
measures that USAID uses to safeguard funds from misuse do not directly address the underlying problems
within the ministries that limit their ability to manage donor funds.


COMMENT SIXTEEN: See comment 9.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                              Page 92
COMMENT SEVENTEEN: See comment 1.


COMMENT EIGHTEEN: When we asked USAID/Afghanistan and USAID headquarters officials in August 2013 if
they had shared copies of the Ernst & Young and KPMG public financial management assessments with the
Congress, they told us they had only provided redacted copies to some congressional staff. Based on the new
information provided in USAID’s comments, we have deleted this sentence from the text of our final report.


COMMENT NINETEEN: We note that USAID did not disagree with our statement that the agency did not provide
copies of its Stage 2 risk reviews to Congress. We also question whether congressional staff were aware of the
existence of the Stage 2 risk reviews. Notably, officials in USAID’s Office of Afghanistan and Pakistan Affairs,
based in Washington, appeared unaware of these reviews when we asked about them in August 2013, and
stated that they had not seen them.


COMMENT TWENTY: The significance of our point regarding the Ministry of Finance is that, while USAID
informed Congress that the ministry was considered qualified “with the risk mitigating measures in place,” it
did not disclose that it had also identified 46 risks within the ministry and had not required the ministry to
address most of these risks prior to giving the ministry direct assistance funds. We believe that is important
information that, if shared, would have strengthened Congress’s oversight of USAID’s direct assistance
program.


COMMENT TWENTY-ONE: We agree with these statements of fact; however, they do not contradict any of the
information provided in our report.


COMMENT TWENTY-TWO: We acknowledge in our report that USAID substantially complied with ADS 220,
except for Stage 1, despite the Administrator’s wavier of its requirements; however, the agency has not fully
complied with the remaining stages of ADS 220, specifically the requirement for the Global Partner Country
Systems Risk Management Team to perform quality control reviews throughout the process.


COMMENT TWENTY-THREE: We state in our report that “the USAID Administrator waived all ADS 220
requirements for all agency funds made available to USAID/Afghanistan through fiscal year 2013
appropriations.” Our understanding, based on interviews with USAID officials, is that the agency would not
obligate or disburse funds appropriated in fiscal year 2013 until fiscal year 2015 at the earliest. We have
updated the report to clarify this point. In addition, as noted in comment 1, we describe examples of actions
USAID takes to ensure that direct assistance funds are used for their intended purposes. Finally, as clearly laid
out in our report, we reviewed and analyzed a variety of USAID documentation to develop and support our
findings.


COMMET TWENTY-FOUR: See comment 2.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                                                               Page 93
APPENDIX XVII - ACKNOWLEDGMENTS

Gabriele Tonsil, Senior Audit Manager
Kirk Schmidt, Analyst-in-Charge
Juli Digate, Senior Program Analyst
Matthew Miller, Senior Program Analyst


The following staff provided technical assistance:
Mia Bonarski, Methodologist




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries   Page 94
                            This performance audit was conducted under
                                      project code SIGAR-081A.




SIGAR 14-32 AR/USAID Assessments of Afghan Ministries                    Page 95
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and objective
                               audits, inspections, and investigations on the use of taxpayer dollars
                               and related funds. SIGAR works to provide accurate and balanced
                               information, evaluations, analysis, and recommendations to help the
                               U.S. Congress, U.S. agencies, and other decision-makers to make
                               informed oversight, policy, and funding decisions to:
                                           improve effectiveness of the overall reconstruction strategy
                                            and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.




  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web site
                               (www.sigar.mil). SIGAR posts all publically released reports, testimonies,
   Reports and Testimonies     and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
